<html>
<title> - WIRELESS E-911 COMPLIANCE</title>
<body><pre>[Senate Hearing 107-1152]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1152

                       WIRELESS E-911 COMPLIANCE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON COMMUNICATIONS

                                 of the

                        COMMITTEE ON COMMERCE, 
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                U.S. GOVERNMENT PRINTING OFFICE
89-680 PDF           WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia 
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel
                              ----------                              

                     SUBCOMMITTEE ON COMMUNICATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ERNEST F. HOLLINGS, South Carolina   CONRAD BURNS, Montana, Ranking 
JOHN F. KERRY, Massachusetts             Republican
JOHN B. BREAUX, Louisiana            TED STEVENS, Alaska
JOHN D. ROCKEFELLER IV, West         TRENT LOTT, Mississippi
    Virginia                         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND Georgia                  GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 16, 2001.................................     1
Statement of Senator Burns.......................................     2
    Prepared statement...........................................     3
Statement of Senator Inouye......................................    17
    Prepared statement...........................................    17
Statement of Senator Smith.......................................    16
Statement of Senator Wyden.......................................     1

                               Witnesses

Amarosa, Michael, Vice President, Public Affairs, Trueposition, 
  Inc............................................................    21
    Prepared statement...........................................    23
Hansen, Jenny, 911 Program Manager, State of Montana.............    29
    Prepared statement...........................................    31
Melcher, John R., Deputy Executive Director, Greater Harris 
  County Emergency 911 Network...................................    35
    Prepared statement...........................................    38
Sewell, Bret, President, Snaptrack, Inc..........................    41
    Prepared statement...........................................    43
Sugrue, Thomas J., Chief, Wireless Telecommunications Bureau, 
  Federal Communications Commission..............................     4
    Prepared statement...........................................     7
Wheeler, Thomas E., President and CEO, Cellular 
  Telecommunications & Internet Association......................    46
    Prepared statement...........................................    50

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    69



 
                       WIRELESS E-911 COMPLIANCE

                              ----------                              


                       TUESDAY, OCTOBER 16, 2001

                               U.S. Senate,
                    Subcommittee on Communications,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee will come to order. Per the 
direction of Chairman Inouye, who is tied up in a security 
briefing, the Chairman has indicated that Senator Burns and I 
should begin the proceedings. We expect the Chairman--who has a 
long interest in these kinds of matters, as does Senator 
Burns--he will be joining us very shortly, but we do want to 
begin. I will have a very short opening statement, then I do 
want to recognize my friend Senator Burns, who has a long 
history of involvement in this important issue.
    Certainly, when tragedy strikes, such as the tragedy that 
befell this country on September 11, it is absolutely critical 
for 911 operators to pinpoint the location of a person calling 
911 from a mobile phone. But for millions of Americans today it 
is not possible to get that kind of service, in spite of the 
fact that with this technology it is possible to get within 
about 100 meters of where the individual actually is.
    I am of the view that our whole country has been forced to 
reorder its priorities after 9/11. The industry has been 
working with the Government, but today, and I do this on a 
personal basis, I want to call on the wireless industry to 
reorder its priorities to set its sights higher, and not just 
meet the required deadlines, but to actually beat those 
deadlines, because this is so important to the security of this 
country and to millions of Americans. If companies can 
accelerate and come in ahead of schedule, the public interest 
in this country will be well-served.
    We are asking many Americans to go the extra mile right 
now, and I want to make it clear, and I am again speaking just 
for myself on this point, that I am anxious to work very, very 
closely with the wireless industry in a partnership with them 
so that they can beat these deadlines and this country can get 
that added measure of security that is so important after 
September 11.
    More than 5 years ago, the wireless industry, the public 
safety community and the FCC came together to develop a 
consensus plan and schedule to implement wireless 911. That 
deadline for deployment of E 911 was just 15 days ago, October 
1. Unfortunately, many in the industry felt that they could not 
meet the deadline, and so that deadline has been moved back, 
but I think the Government needs to do everything possible to 
avoid lowering the bar again and again when this service is so 
important.
    We have been anxious to work with the wireless industry. 
Many in the wireless sector have been very constructive and 
have moved to try to accelerate the schedule, but that is why I 
am making the appeal this morning. One last point that I would 
make, and I want to recognize Senator Burns, is that I think we 
learned a lot from 9/11 about emergency communications, but one 
other area that we absolutely must look at is a capability of 
getting there more quickly to repair and recreate damaged 
communications systems. On 9/11 virtually everything went down. 
Virtually everything went down--wireless services, hard-wired 
systems--except for the global satellites. I proposed 
essentially a volunteer effort from the nation's technology 
companies that I call the technology equivalent of the National 
Guard. Senator Allen and others on a bipartisan basis have been 
interested in that, and I expect to ask folks in the wireless 
industry some questions about that.
    Let me recognize Senator Burns, and in doing so, Senator 
Burns has been at this 911 issue for an awful long time. I know 
when I came to the Senate Senator Burns had already been at it, 
and Conrad, we just appreciate all your good leadership on this 
and so many other communications issues.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you very much, Mr. Chairman, and Ron, 
you know, it was--Senator Wyden and I that had the digital 
dozen, and we worked on those way back in the 106th Congress, 
and this was a part of that. We set that as a priority and 
completed that, and now we are in the follow-up, and just 
because we passed the legislation and the wireless companies 
have made certain commitments, our work is yet to be done on 
this project.
    I want to welcome Jenny Hansen. She heads up our 911 effort 
in the State of Montana. This is one of her passions, and once 
you talk to her and get to sit down and visit a while, you will 
find out why we are making, I think, great strides. You know, 
the plans are made, and the investments are in place.
    Mr. Chairman, I want to ask that my full statement be made 
a part of the record----
    Senator Wyden. Without objection, so ordered.
    Senator Burns [continuing]. So that we can hear our 
witnesses this morning. Senator Inouye is in a meeting right 
now. They are dealing with the security of receiving mail up 
here on the Hill. I think you know we have to get on with our 
business and carry out the country's work.
    I just want to congratulate the wireless industry. Back in 
1996, when we passed the Telco Act, the forecast of the number 
of users in the wireless industry was way, way underestimated, 
and today the use of wireless, of course, has just absolutely 
gone beyond anybody's expectation.
    When we passed the 1996 Act, nobody knew how much 
investment capital or risk capital was available to be invested 
in the communications industry, and they always wondered how 
come our economic cycle that we went through in the nineties, 
that that cycle was actually extended.
    I will tell you I think the 1996 Act probably did as much 
to extend that cycle as anything that we did in this Congress, 
so I want to applaud the wireless folks and basically when we 
had that disaster in New York, wireless did work, and they did 
have remote units in there as fast as any other part of the 
communications effort, and so I want to congratulate them on 
that also, and I think it is a tribute to the industry, an 
industry basically that is in its infancy. We really have not 
found out the real potential of this communications technology, 
and it will be a vital part of our total makeup of the 
infrastructure of the future, I just know it will.
    So thank you, Mr. Chairman. I want to thank Senator Inouye, 
too, because way back in the first part of September he 
committed to have this hearing. It was scheduled for 9/11, and 
we did hold a press conference, and I think we said that we had 
a new mission for wireless out there, because we were in a 
changing world, and boy, it only took us about an hour and a 
half to figure out what that new mission really is.
    I appreciate all the witnesses coming back, and I 
appreciate--really the way America and the United States 
reacted to that day, so I would yield, Mr. Chairman. I am 
looking forward to the witnesses this morning, and I thank them 
for coming.
    [The prepared statement of Senator Burns follows:]
   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana
    I would like to thaink the Chairman for holding today's hearing, 
which was originally scheduled to take place on September 11. In the 
wake of the tragedy that befell this nation on that day, I am more 
convinced than ever of the need to continue strengthening our nation's 
emergency communications capabilities. At the very heart of our public 
safety communications infrastructure is the 911 network, which 
performed admirably during last month's terrorist attacks. However, we 
must maintain our focus on building out the next generation of wireless 
enhanced 911 services.
    I would like to welcome Jenny Hansen, the 911 Program Manager for 
Montana, who traveled from Helena to testify before this Subcommittee. 
Montana is incredibly fortunate to have such a passionate advocate for 
E-911 services at the helm of its public safety infrastructure. On 
August 28 in Helena, we held a very productive and informative State 
summit on E-911 which was attended by the Governor, Rep. Rehberg, 
numerous public safety officials and experts from the ComCARE Alliance. 
The focus of both the Montana 911 summit and today's hearing is on how 
to utilize the tremendous advances being made in wireless technologies 
to make sure that our citizens have access to the best public safety 
network possible. More and more, wireless communications form the 
critical link that can help get emergency medical care to those in the 
``golden hour'' when timely care can mean the difference between life 
and death.
    At the beginning of the 106th Congress in January of 1999, I chose 
to focus on twelve high-tech bills which comprised the ``Digital 
Dozen.'' At the very top of this agenda was the E-911 bill. The E-911 
bill was necessary to correct an unacceptable situation: the country 
had no universal emergency number for wireless phones. The E-911 bill 
corrected this situation by directing the Federal Communications 
Commission to designate 911 as the universal emergency telephone number 
for both wireline and wireless phones. The bill also directed the FCC 
to encourage the wireless carriers to work with the states, localities 
and public safety officials to help implement a comprehensive, end-to-
end emergency communications infrastructure. Thanks to the hard work 
and vision of many of my colleagues on the Committee, the Senate 
unanimously passed the E-911 bill and the House overwhelmingly passed 
it and it was signed into law by the President on October 26, 1999.
    With the passage of the E-911 bill, however, our work was not 
finished. In fact, much remains to be done. While the carriers have 
made some progress on building out E-911, their efforts need to be 
expanded and accelerated. I was disappointed that they were not able to 
meet the initial deadline of October 1, which required them only to 
begin the process of providing automatic location identification. 
However, Chairman Powell has assured me that the FCC is currently 
working with the carriers to make sure that no further delays take 
place in getting this lifesaving information to our public safety 
officials.
    On the fateful morning of September 11, the National Emergency 
Number Association (NENA) released its first ever ``Report Card to the 
Nation'' on 911. The good news is wireless didn't get a failing grade. 
The bad news is that wireless 911 received an incomplete. Fifty million 
911 calls each year are made from wireless phones--nearly 30 percent of 
all 911 calls are wireless. Yet wireless 911 services received an 
incomplete grade on the report card because wireless-enhanced 911 
technology is not in place. Our No. 1 priority going forward must be 
successfully implementing wireless-enhanced 911 across the United 
States.
    Public safety officials need to be able to locate people who dial 
911, whether they call from a home phone, an office phone, or a cell 
phone. This is especially true in rural settings where it often takes 
longer to get help to people anyway. The National Highway Traffic 
Safety Administration has conducted studies showing that crash-to-care 
time for accidents is about a half hour in urban areas. In rural areas 
that crash-to-care time almost doubles to just shy of an hour to get 
emergency attention to crash victims. Almost half of the serious crash 
victims who do not receive care in that first hour die at the scene of 
the accident. This issue is more than a discussion about technology 
upgrades--lives are at stake every day.
    Clearly, E-911 is a major undertaking. Creating a 21st century, 
digital 911 network will require constant effort and oversight. I 
believe that hearings such as the one the Chairman is holding today are 
vital to this nation reaching its goal. To finish this project we have 
to start sometime and somewhere. The time is clearly now.
    I remain committed to working with my colleagues, the wireless 
industry and the public safety community to make sure that this nation 
leads the way in using advances in communications technology to save 
lives. I look forward to the testimony of the witnesses on today's 
critical topic. Thank you, Mr. Chairman.

    Senator Wyden. Thank you, Senator Burns, for a statement 
that I very much agree with as well, and I think the reason 
that I am making this appeal today to the wireless industry to 
try to accelerate and to get over the bar more quickly is 
because I share your view about the fact that this industry has 
so much potential.
    There are many, many, good, caring, decent and patriotic 
Americans in this field, and I think if we work with them we 
can get people to get this important service on line more 
quickly. We can get the timetable accelerated. That is why I am 
interested in working with you and the industry to do that. And 
finally, your point about Chairman Inouye, you and he have been 
our leaders on this matter, just so that the record shows that 
the senior members of this Committee have been strong 
supporters of this effort, and we are all interested in working 
with the industry to get this up and going.
    Mr. Sugrue, welcome. You are Chief of the Wireless 
Telecommunications Bureau. Why don't you go ahead and make your 
opening statement.

         STATEMENT OF THOMAS J. SUGRUE, CHIEF, WIRELESS

                   TELECOMMUNICATIONS BUREAU, FEDERAL

                       COMMUNICATIONS COMMISSION

    Mr. Sugrue. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman. Good morning, Senator Burns. I thank you for this 
opportunity to appear before you and report on the FCC's 
policies to improve wireless service 911 throughout the nation 
and in particular in implementing enhanced 911.
    Since it was first designated as 911 emergency number day 
in 1987, September 11 has come to symbolize our national 
reliance on 911 infrastructure as a lifeline for help in 
emergencies. That symbol is now more meaningful than ever. The 
tragic events of September 11 forcefully reminded us of the 
importance of the nation's emergency response system, and of 
the men and women of our police, fire, and emergency medical 
teams who go into emergencies to bring the rest of us out.
    They also reminded us of the importance of wireless 
communications and the Commission's wireless E-911 program is 
aimed at helping emergency response personnel do their jobs 
better and more quickly.
    If I could, I would like at the outset to make a brief 
personal observation and note that wireless E-911 is important 
to me not just as Chief of the Wireless Bureau, but in my 
longer term job as a father of two daughters. My wife and I 
first decided to join the ranks of wireless subscribers when 
our oldest daughter celebrated her 16th birthday, got her 
driver's license, and headed for the beltway. The Sugrue family 
doubled our wireless holdings when our second daughter turned 
16 and also became a more mobile member of the household. Then 
my wife said, ``What about me,'' and she got a phone, and I was 
the last in the Sugrue family to get a wireless phone.
    But like many families, we first became wireless 
subscribers in large part because of concerns about our 
children's safety. As a dad worrying about my kids, I 
understand the importance of being able to get through to 
emergency help on your wireless phone. Our family has been 
fortunate in not having to face such emergencies, but I take 
great comfort that if a serious emergency were to occur, my 
children would be able to reach help by using their phones, and 
I want to speed the day when, if that emergency occurs, the 
carrier will automatically report where my children are to 
response teams.
    Well, 5 years ago, the FCC set October 1, 2001 as the date 
for wireless carriers to begin the process of applying this new 
and vital technology. Since the original schedule was set, both 
Congress and the Commission have continued to focus on wireless 
911 issues and have taken important steps toward the goal of a 
nationwide, ubiquitous, reliable 911 system.
    One of the cornerstones of this progress was the passage in 
October 1999 of S. 800, the Wireless Communications and Public 
Safety Act of 1999--sponsored by Senator Burns and cosponsored 
by many members of the Subcommittee, including Senator Wyden. 
That Act mandated 911 as the universal number for emergency 
calling, and cleared the way for full implementation of 
wireless E-911 by, for example, addressing carrier liability 
protection and privacy concerns.
    On the FCC side, we, too, have been actively engaged on E-
911 matters for the past 2 years. Among other things, we have: 
increased the range of options to carriers by permitting the 
use of handset-based technologies; adjusted and clarified our 
rules by eliminating the requirement that public safety 
agencies must pay wireless carriers for their costs of 
complying with the mandate, and instead requiring that each 
party pay its own costs; and also performed extensive outreach, 
speaking at dozens of conferences and other events aimed at 
informing and educating interested parties.
    Today, there are more than 120 million wireless 
subscribers, and most PSAPs now receive about 30 to 50 percent 
of their 911 calls from wireless phones.
    So with the deployment of Phase II E-911 now beginning, it 
is appropriate to ask how far have we come--and how far do we 
have to go? Frankly, we at the FCC are disappointed that the 
process of making wireless E-911 a reality is not further 
along, although we also realize that there are always 
challenges involved in deploying any new technology on a mass 
market basis for the first time, and that some important 
progress has been made.
    Specifically, on the technology and manufacturing front, 
network equipment and handsets have been developed that will 
locate 911 calls accurately and reliably. Although the delivery 
of some of this technology and equipment lags behind what we 
originally contemplated, the equipment is now in production, 
and we expect near-term delays in equipment and technology to 
be resolved soon.
    You will be hearing from two of the leading technology 
developers in this field, Mike Amarosa of TruePosition, a 
leading developer of network-based technologies, and Brett 
Sewell of Qualcomm, which has developed an assisted GPS 
approach, on the next panel. These companies are supplying the 
guts of the systems that are going to be deployed in wireless 
networks across the country over the coming months.
    On the public safety front, this community also has made 
substantial strides toward being able to receive and use 
wireless E-911 location information. My friend John Melcher of 
Houston, Texas, a widely respected leader of public safety's 
efforts to implement wireless E-911, and Jenny Hansen, the E-
911 program manager in Montana, will be able to bring you up to 
date on progress in their home areas as well as in other 
communities.
    And on the carrier front, progress in deploying Phase II 
has been made, though again, efforts to reach full compliance 
must be redoubled, and Tom Wheeler, the long-time and 
distinguished head of CTIA, is here on the next panel to 
address those efforts.
    Now, on October 5, the Commission approved, with conditions 
and certain modifications, the revised implementation plans of 
five major national wireless carriers--Nextel, Sprint, Verizon, 
and the GSM portion of AT&T and Cingular. Each of those 
carriers, in addition to the sixth national wireless carrier, 
VoiceStream, which was the subject of a Commission order last 
year, will be subject to clear, detailed, and enforceable plans 
to phase in location capability. Taken together, these six 
carriers serve more than 75 percent of wireless subscribers in 
the United States
    It bears emphasizing that these plans involve only 
modifications of the initial deployment schedules or temporary 
delays in meeting the accuracy standard, rather than any kind 
of wholesale lifting of the rules. Under the plans, these major 
carriers will be required to be providing Phase II information 
next year, so that they will be caught up with all their valid 
PSAP requests at the end of the year.
    These carriers will achieve complete deployment of Phase II 
with full compliance with the Commission's rules by the end 
date in those rules. That is, no later than December 31, 2005.
    Why did the Commission accept these plans? It did so 
because it believes they are the best way to move rapidly to 
full implementation of accurate and reliable E-911 capability. 
We examined each request carefully with the continuing 
objective of implementing Phase II as soon as possible, and 
granting relief only where justified, and only to the extent 
that carrier presented a specific and focused plan leading to 
full compliance. To monitor that compliance, each carrier must 
file quarterly reports, beginning February 1 of next year, on 
its progress. Any carrier failure to comply with its plan will 
be referred to the Commission's Enforcement Bureau.
    We also know that smaller and rural carriers may face 
special challenges in deploying Phase II. However, it is also 
clear that wireless E-911 has great potential to save lives in 
rural areas, and simply giving rural or smaller carriers a pass 
or indefinite extension would not serve the public interest. 
For these reasons, the Commission established a brief 
additional period until November 30 for smaller carriers to 
file requests for relief if they have not already done so, and 
the FCC will evaluate these filings to decide how best to 
address E-911 implementation by these carriers as soon as 
possible.
    What, then, is the bottom line for wireless E-911? In 
important ways, Phase II will be deployed largely according to 
the schedule we have planned. Sprint on October 1 began 
offering handsets with assisted-GPS located technology and 
other carriers will also begin providing handsets and network 
equipment soon.
    As deployment proceeds, I expect that technology and 
systemwide performance will improve. I also expect that as 
customers increasingly understand how location capability makes 
their lives safer, they will insist on having it available. 
They will come to rely on wireless location in the same way 
they rely on airbags and seat belts in their cars.
    I am confident the future of this technology is strong, 
once it is actually deployed and this ``virtual cycle'' kicks 
in. But to get to this cycle, all of us involved in this 
process will have to redouble our efforts to see that the 
promise of this life-saving technology is fulfilled. As 
Chairman Powell recently stated, it is not good enough for a 
gentleman's C. This test requires an A-plus effort.
    I would like to thank the Subcommittee for this opportunity 
to report on our wireless E-911 program, and I look forward to 
updating you as we go forward, and to answer any questions this 
morning.
    [The prepared statement of Mr. Sugrue follows:]
        Prepared Statement of Thomas J. Sugrue, Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission

                            I. INTRODUCTION
    Good morning, Mr. Chairman and Members of the Subcommittee. Since 
it was first designated as ``911 Emergency Number Day'' in 1987, 
September 11th has come to symbolize our national reliance on the E-911 
infrastructure as a lifeline for help in emergencies. That symbol is 
now more meaningful than ever. The tragic events of September 11, 2001 
may have delayed this hearing. But they also forcefully reminded us of 
the importance of this nation's emergency response system, and of the 
men and women of our police, fire and medical teams who go into 
emergencies to bring the rest of us out.
    The Commission's wireless Enhanced 911 program (``E-911'') is one 
effort to help public safety and other emergency response personnel do 
their jobs faster and more effectively. I thank you for this 
opportunity to report to you on the Commission's policies and rules 
aimed at improving wireless E-911 services throughout the nation and, 
in particular, at implementing wireless E-911. Let me emphasize for the 
record that the Commission is serious about ensuring the deployment of 
wireless E-911. We recognize all too well that every second delayed in 
responding to an emergency call is a second lost in critical life-
saving efforts. For that reason, the Commission has issued orders with 
very specific benchmarks and milestones, and we will be keeping a close 
and watchful eye on compliance with these requirements. We have put the 
carriers on notice that if they fail to adhere to the orders, they 
certainly will be subject to our enforcement authority.

            II. IMPORTANCE OF WIRELESS ENHANCED 911 SERVICE
    Five years ago, the FCC set October 1, 2001 as the date for 
wireless carriers to begin the process of deploying a new and vital 
technology--the technology to accurately report the location of 
wireless 911 calls. That process was based on a Consensus Agreement 
reached in 1996 between the wireless carrier community and the public 
safety community. The 5-year development period, the specified accuracy 
standards, and the October 1, 2001 start date represented the parties' 
best estimate of an appropriate timetable and performance standards for 
development and initial deployment of Enhanced 911. In this regard, I 
think it is important to note that it was never contemplated that 
deployment would be a flash-cut process. Under the Commission's rules, 
it will take four or so years for Phase II to be ubiquitously deployed. 
For example, with handset-based technologies, the rules require 
carriers to hit progressively higher penetration levels for location 
capable handsets, until they achieve 95 percent penetration by the end 
of 2005. Similarly, with network-based solutions, a carrier is not 
required to deploy its network-based solution in a particular area 
until 6 months after it receives a valid request from the PSAP serving 
that area, or to complete that deployment until 18 months after such a 
request. Since the pace of PSAP requests and readiness for Phase II 
will vary substantially in different communities across the country, 
deployment on a nationwide basis will be on a graduated, incremental 
basis.
    Since the original schedule was set, both Congress and the 
Commission have continued to focus on wireless 911 issues and, in my 
view, taken important steps toward the goal of a nationwide, 
ubiquitous, reliable E-911 system. One of the cornerstones of this 
progress was the passage in October 1999 of S. 800, the Wireless 
Communications and Public Safety Act of 1999. That Act mandated 911 as 
the universal number for emergency calling and cleared the way for full 
implementation of wireless E-911 by, for example, addressing carrier 
liability protection and privacy issues. It also directed the 
Commission to work with all of the stakeholders in their efforts to 
make wireless 911 a reality.
    On the FCC side, we have been actively engaged on E-911 matters, 
particularly in encouraging new location technologies, addressing 
questions that have arisen in the course of deployment, and removing 
obstacles to implementation of E-911. Among other things, we have:
    <bullet> Increased the range of options available to carriers by 
permitting the use of new handset-based technologies, such as network-
assisted GPS; and a ``so-called'' hybrid technology--one that combines 
elements of both handset- and network-based approaches.
    <bullet> Adjusted and clarified our rules concerning certain 
operational issues affecting E-911 implementation, for example, by 
eliminating a requirement that public safety agencies must pay wireless 
carriers for their costs of complying with the E-911 mandate, and 
instead requiring that each party--carrier and PSAP--pay its own costs 
for implementation.
    <bullet> Convened several multi-party meetings--including wireless 
carriers, technology vendors, equipment manufacturers, and members of 
the public safety community--to review the State of wireless location 
technology development.
    <bullet> Performed extensive outreach, speaking at dozens of 
conferences and other events aimed at informing and educating 
interested parties, including State and local public safety agencies 
and carriers on our E-911 rules and policies.
    Today, there are more than 120 million wireless subscribers, and 
most PSAPs now receive about 30 to 50 percent of their 911 calls from 
wireless phones. This situation places increasing burdens on call 
takers at 911 call centers, particularly since accurate location 
information is not now provided for those calls. E-911 Phase II is 
needed more than ever to help police, fire and emergency medical teams 
locate emergencies more quickly and do their life-saving work more 
effectively and efficiently.

                 III. CURRENT STATUS OF WIRELESS E-911
    With the deployment of Phase II E-911 now beginning, it is 
appropriate to ask how far have we come--and how far we have to go?
    Frankly, we are disappointed that the process of making wireless E-
911 a reality is not further along. It goes without saying that there 
is a new sense of urgency around using mobile phones as important 
safety devices. There are always challenges involved in deploying any 
major new technology on a mass market basis for the first time, and 
wireless location technologies are no different, but we must push 
forward aggressively with a renewed commitment. To make the promise of 
wireless E-911 a reality, much work remains to be done by PSAPs, 
equipment vendors, carriers, and government to meet the challenges 
involved in deploying these lifesaving technologies.
    While we at the Commission are dissatisfied with the progress we 
have made thus far, we should recognize that some progress has been 
made. On the technology and manufacturing front, location technologies 
have been developed and, while none is perfect, a number are now 
available or on the way that will locate wireless 911 calls accurately 
and reliably, consistent with the goals of the Commission's E-911 
rules. Under Phase II, the location of 911 calls will be reported in 
most instances with an accuracy of 100 meters or less. Network 
equipment and handsets with location capability are now being 
manufactured and sold to meet and exceed this benchmark. Although the 
development and delivery of some of this equipment lags behind what we 
originally contemplated, the equipment is now in production. We expect 
near-term delays in E-911 equipment and technology needed by wireless 
carriers to be resolved soon in most cases.
    On the public safety front, this community also has made 
substantial strides toward being able to receive and use wireless E-911 
location information. Many states have adopted legislation to provide 
funds to upgrade 911 dispatcher work stations with new technology, such 
as mapping software. Although relatively few 911 PSAPs apparently are 
currently ready to receive Phase II data, or have requested Phase II 
from carriers, they serve communities that would benefit from E-911. In 
addition, many PSAPs and other public safety organizations have been 
active in developing and testing upgraded systems needed for Phase II. 
APCO's Project Locate is one example of the public safety community's 
efforts to solve the problems of integrating Phase II with existing E-
911 systems.
    And on the carrier front, substantial progress in deploying Phase 
II has been made, though, again, efforts to reach full compliance must 
be redoubled. In short, carriers have made strides but not quickly 
enough. On October 5, the Commission announced decisions addressing 
requests from national wireless carriers and one public safety agency 
regarding the deployment of Phase II. The Commission accepted, with 
conditions and certain modifications, the revised implementation plans 
of five major national wireless carriers--Nextel, Sprint, Verizon and 
the GSM portion of the AT&T Wireless and Cingular networks. Each of 
those carriers, in addition to the sixth national wireless carrier, 
VoiceStream, the subject of a Commission order last year, will be 
subject to clear, detailed, and enforceable plans to phase in location 
capability. Taken together, these carriers serve more than 75 percent 
of wireless subscribers in the United States.
    It bears emphasizing that these plans permit only limited, 
temporary departures from the Phase II rules. All carriers are required 
to achieve full compliance with the accuracy and reliability 
requirements in the rules. The compliance plans involve only 
modifications of the deployment schedule or temporary delays in meeting 
the accuracy standard, rather than any kind of a wholesale lifting of 
the rules. Under the plans, with limited exceptions, these major 
carriers will be required to be providing Phase II information to 
public safety answering points next year and to honor all valid PSAP 
requests by the end of the year. Under the plans, these carriers will 
achieve complete deployment of Phase II, in full compliance with the 
Commission's accuracy standards. This will occur in all areas across 
the nation where 911 call centers are ready and able to use this 
information, by the end dates in the existing Commission rules, that 
is, no later than December 31, 2005.
    While accepting the plans means carriers will not be required to 
meet our previous October 1, 2001 benchmark, the Commission believes 
that these plans are the best way to move rapidly to full 
implementation of accurate and reliable location capability for E-911 
calling. We examined each carrier request carefully, with the 
continuing objective of implementing Phase II as soon as possible and 
granting relief only when justified and necessary, and only to the 
extent the carrier presented a specific, focused, limited plan leading 
to full compliance.
    Specifically, the Commission has taken the following actions, 
approving plans to implement E-911 Phase II for five nationwide 
wireless carriers:
    <bullet> With respect to three companies (Nextel, Sprint, and 
Verizon) that had met FCC requirements to provide a clear, detailed and 
enforceable plan to phase in its ALI capabilities, the Commission 
agreed to take into account the companies' showings about equipment 
availability, and allow them to implement Phase II E-911 according to a 
modified schedule for some of the initial 2001 and 2002 deployment 
milestones. It said it would strictly adhere to enforcement of these 
modified plans for meeting these alternative intermediate milestones 
and for completing E-911 deployment by 2005.
    <bullet> With respect to two companies, (AT&T and Cingular) that 
submitted E-911 compliance plans for the GSM portion of their wireless 
networks, the Commission provided similar relief, also conditioned on 
strict FCC enforcement of their new schedules.
    <bullet> The Commission noted that while AT&T and Cingular had 
submitted compliance plans for the TDMA portion of their networks, the 
timing of those submissions did not permit Commission consideration. 
Accordingly, discussions have been initiated between these carriers and 
FCC Enforcement Bureau staff concerning possible consent decrees with 
the Commission to resolve this compliance issue.
    The Commission stated that it expects wireless carriers to make E-
911 a corporate priority and to work aggressively to implement Phase II 
and to achieve full compliance as soon as possible. To monitor and 
enforce the compliance plans, the Commission required that each carrier 
file Quarterly Reports on its E-911 deployment beginning February 1, 
2002 through February 1, 2006, including reporting whether the carrier 
has met the terms of its compliance plan. The Commission indicated that 
any carrier failing to comply with its plan, or applicable provisions 
of the E-911 rules, will be referred to the Commission's Enforcement 
Bureau.
    We know that smaller and rural carriers may face special challenges 
in deploying Phase II location technology. We have received many waiver 
requests from smaller wireless carriers, and it is likely that others 
of the 1000 or so local and regional carriers face similar questions 
and difficulties. However, it is also clear that wireless E-911 has 
great potential to save lives in rural areas and simply giving smaller 
or rural carriers a ``pass'' or indefinite extension for deploying 
these technologies would not serve the public interest. For these 
reasons, the Commission established a brief additional period, until 
November 30, for those smaller carriers to file requests for relief, if 
they have not already done so. The FCC will evaluate these filings to 
decide how best to address E-911 implementation by these carriers as 
soon as possible. During this extended filing and evaluation period, 
the Commission will not initiate enforcement action under the Phase II 
rules against these carriers.
    We at the FCC recognize the importance of Phase II deployment to 
public safety. I want to assure the Subcommittee that we are committed 
to taking whatever steps are necessary to ensure that Phase II proceeds 
to full compliance as soon as possible. To that end, the Commission 
took other steps to help clear the way for Phase II deployment:
    <bullet> In response to a request by the city of Richardson, Texas, 
the Commission amended its rules to clarify the steps that 911 call 
centers should take to make a valid request for E-911 service; and
    <bullet> The Commission indicated it would conduct an ongoing 
inquiry on E-911 technical issues, including technology standards 
issues, development of hardware and software, and supply conditions.
    What, then is the bottom line for wireless E-911? In important 
ways, Phase II will be deployed largely according to the schedule we 
had planned. Sprint announced on October 1 the offering of handsets 
with Assisted-GPS location technology. Other wireless carriers will 
also begin providing location-capable handsets and network equipment 
soon, and I expect customers, in many areas where PSAPs are ready to 
use this location information, will begin to shop for carriers and 
handsets that include this important safety feature. Under the approved 
plans, all the nationwide carriers will have completed implementation 
of Phase II by the end of the year 2005, as our rules provide. By that 
time, I also expect that public safety organizations will have made 
substantial progress in actually using wireless E-911 location 
information to find people in emergencies in communities across 
America.
    Because of the localized nature of 911 service, the number of 
different transmission standards in the U.S., and the number of parties 
who must all do their part, this implementation process will be 
complex. It will, for example, involve several location technologies 
that are deployed on schedules that vary for different carriers and 
different communities. Small, rural carriers may face circumstances 
that warrant special consideration. Successful deployment will 
certainly require continued FCC oversight to ensure that carriers live 
up to their responsibilities and achieve full compliance with the Phase 
II requirements.
    I am reassured by factual information indicating that wireless 
location technology is available, is being deployed in networks and 
handsets, and is capable of accurately locating 911 callers. As 
deployment proceeds, I expect that technology and system-wide 
performance will improve. I also expect that, as customers increasingly 
understand how location capability makes their lives safer, they will 
insist on having it available. They will come to rely on automatic 
wireless location in the same way that they rely on air bags and 
seatbelts in their cars. I am confident that the future of this 
technology is strong, once it is actually deployed and this ``virtuous 
cycle'' begins to kick in. But to get to that future, all of us 
involved in this process will have to redouble our efforts to see that 
the promise of this life-saving technology is fulfilled.

                             IV. CONCLUSION
    To sum up, the beginning of E-911 Phase II deployment is now 
underway. Working with the public safety community, the carriers, their 
suppliers, Congress and other governmental agencies, the FCC will 
continue its efforts to ensure that the E-911 rollout process continues 
as rapidly as possible, so that by ``911 Day'' in the year 2005 we will 
be able to report that full deployment, as required by the Phase II 
rules, has been achieved on the scale envisioned by the Commission and 
by the Congress.
    I would like to thank the Subcommittee for this opportunity to 
provide information on the Commission's wireless E-911 program. I look 
forward to updating this information as wireless E-911 advances and to 
answering any of your questions.

    Senator Wyden. Mr. Sugrue, thank you, and we do have some 
questions. In your view, what are the major obstacles this 
morning to getting this done? You heard me say that I want to 
work with this industry to speed things up. I think after 
September 11 this country wants everybody to reorder their 
priorities, if you would, and I think this is the key question. 
Tell us what the key obstacles are, and in your view what it is 
going to take to speed things up.
    Mr. Sugrue. The plans that the carriers filed indicate that 
the issues or problems they claim they are having have shifted 
somewhat from the original technology development of location 
technology, whether it be assisted-GPS or network-based 
triangulation approaches, to actual equipment supply issues--
upgrades in their mobile switches, the time period in which the 
equipment can be phased in, and implemented on an end-to-end 
basis. I think that is the first thing.
    Second, there are also issues on the public safety side. 
There are a number of public safety agencies that have the 
capability right now to use this information, but a majority do 
not. It takes some time and money, to a certain degree 
technical sophistication to do that, and that side of it would 
need to be addressed as well.
    So an end-to-end solution in terms of equipment supply, and 
then interaction with the public safety agencies, I think would 
be the two things.
    Senator Wyden. In your opinion, to what extent is the speed 
of wireless E-911 deployment within a carrier's control?
    Mr. Sugrue. I think it is to a certain degree within a 
carrier's control. Senator Wyden, you mentioned making it the 
number 1 priority for wireless carriers. I think it has been a 
priority. I can't tell you it has been the number 1 versus 
number 3 or 4 on the list. I think it does need to be put on 
the top of the list.
    One thing we at the Commission are somewhat frustrated with 
is what appears to be a gating factor. Now, as I said, in some 
of these network upgrade and supply conditions, switch upgrades 
and things like that, the manufacturing community is not 
subject to our jurisdiction under the Communications Act, 
carriers are. These orders and these rules do not apply to 
manufacturers, so the Commission also announced we are going to 
be instituting an inquiry into the supply conditions that seem 
to be the gating factor in effecting the roll-out of this 
technology.
    We are hearing things about standards issues that need to 
be worked out, that the software that was first developed in 
terms of the mobile switches needs to be updated. We need to 
take a look at that, because that seems to be a factor that is 
controlling the progress to some degree right now.
    Senator Wyden. Let me ask you about a related matter. It is 
clear that technology is always advancing, and we want that, 
that relentless progress in technology. If you buy a personal 
computer, you could always argue if you waited another few 
months you are going to be able to get a better and even faster 
machine, but if you keep saying that, you are never actually 
going to get a computer out there, and my question is, why not 
have a policy that says, ``You are going to deploy the 
technology that is available?''
    In other words, millions of Americans are going to benefit 
by having this advancement and to be able to get within 100 
meters, and when we can upgrade it as you are suggesting with 
various manufacturer refinements, absolutely, but why not get 
out there what we have got?
    Mr. Sugrue. I agree with you, Senator, I think we are past 
the point where the problem is the accuracy requirements in the 
Commission's rules. The leading developers of both the network 
and the handset approaches, the test results we have seen 
submitted indicate they are both coming in within their 
applicable accuracy standards. It really is now an equipment 
supply issue.
    Now, those accuracy benchmarks will have to be verified in 
the field, and working in the testbed is not always the same as 
working in the real world, but these test results are a very 
positive development over the last 2 years. Two years ago there 
was significant doubt about whether the accuracy the Commission 
was requiring in its rules was realistic. Companies like the 
two who will be on the next panel can report on their own, but 
others as well have spent a lot of time and effort to improve 
their technology, and I think we are still very much on the 
curve of improvement. I think we will get better yet as we go 
along, I think that 100 meters over time, will get down to 50 
and 25, and maybe even better, but we are not holding up to 
wait for it.
    Senator Wyden. I want the record to show that Chairman 
Inouye did invite the major manufacturers that you referred to, 
and that I touched on with respect to how technology advances, 
but the manufacturers declined to come, and hopefully we will 
hear from them, in this effort to accelerate the availability 
of this technology. We have got to get them, like everybody 
else in this country, to reorder their priorities after 
September 11.
    I have only a couple more questions, then I will recognize 
Senator Burns, and we have been joined by my friend, Senator 
Smith of Oregon, who has a longstanding interest in these 
communications issues as well.
    An article in last week's Washington Post, Mr. Sugrue, 
stated that in an emergency crisis like that which occurred on 
September 11, fewer than 1 in 20 wireless calls actually get 
through. Apparently the executive branch has been seeking a 
wireless system much like the priority access system that 
already exists for wireline phone calls. Such a system 
obviously would give governmental officials at the Federal, 
State and local level access to vital communications 
technologies during crises.
    You all have been working on this issue again, and I come 
back to the point that I am not interested in coming in with a 
Federal hammer and some one-size-fits-all, run-from-Washington 
telecommunications policy, but we have got to have something 
that gives priority access to critical government workers in 
times of crisis, so how do we proceed, in your view, at this 
point on this issue?
    Mr. Sugrue. Last year, the Commission at the request of the 
National Communications System, which is comprised of over 20 
executive branch agencies that actually run and manage the 
priority access system, both wireline and wireless in this 
country, adopted an order amending its rules to permit carriers 
to work with NCS on developing and deploying a priority access 
system. In the ensuing year, and Tom Wheeler could probably 
report on this in more detail, but wireless priority access did 
not appear to be much of a priority. That is, there was not 
much done on that front, some preliminary work between the 
carrier community and the NCS. Those efforts I understand have 
intensified quite a bit. We have had discussions with NCS and 
the carrier community, and certainly at the FCC we stand ready, 
and we have talked about how our rules may need to be amended 
or waivers may need to be granted in the short term, and we are 
certainly open to do that.
    Senator Wyden. You are open to actually amending the rules 
in this area?
    Mr. Sugrue. Yes, if necessary.
    Senator Wyden. Because my bottom line is, I do not want 
this to be the longest running battle since the Trojan War. We 
have got to get this done. It has got to get done, and as I 
have indicated to the carriers, we are going to meet them more 
than halfway. Senator Burns has been doing that for years, but 
it absolutely has to get done.
    One last question, and then I will turn to my colleagues. 
In granting the waiver requests, I have a question with respect 
to how the implementation is going to work, and I am concerned 
that the messages at best are kind of murky here. Sprint and 
Cingular have committed to making the new phone handsets E-911 
compliant 2 years before Nextel, so at a minimum we are going 
to have some discrepancy with respect to the roll-out 
schedules, and it just seems to me it is going to get pretty 
confusing with respect to what the Government's policy is in 
this wireless 911 area, and maybe you can enlighten us with 
respect to how this decisionmaking process is being reached, 
and how we send the right message to industry.
    Mr. Sugrue. Sure, I understand. That does look strange.
    One of the complicating factors in this area is that our 
wireless industry across the country uses five different 
standards, all of which are incompatible one with the other. 
One could have a great debate about whether the Government, the 
FCC, or someone else should have specified a single standard. 
In Europe they did, and it is called GSM. It is a single 
European line standard.
    We tend not to do that in the United States. We rely on 
market-driven standards, and that has a tremendous, I think, 
benefit in terms of innovation. We have seen things being 
developed in the United States. A new standard called CDMA was 
developed in the nineties which has formed the basis for the 
next generation for all wireless phones in Europe and here. If 
we had specified a standard back in the early nineties we might 
have missed that, probably would have missed that, because CDMA 
was not well-developed then.
    But there are costs, and among the costs are, of the six 
carriers I mentioned, all five of those standards are 
represented. The standard that is probably the most sort of 
problematic in terms of the breadth of its deployment is the 
Nextel standard, which is a proprietary unique standard called 
iDEN. No other carrier--well, almost no other carrier in the 
country uses it.
    Nextel accounts for about 95 percent of the subscribers on 
iDEN, and very few carriers around the world use it. iDEN was 
developed by Motorola for a particular use, the frequencies 
Nextel uses, and it was very valuable for that purpose, but it 
is a little bit standing by itself, so in terms of the 
development of that technology vendors and others were willing 
to put in, iDEN stood by itself.
    There is also just a sole supplier situation. No one else 
makes the network equipment. No one else makes the handsets.
    Having said all that, Senator Wyden, I think Nextel was the 
toughest case, and I am just speaking as someone who had to 
look at all of these, but they made a strong case that they 
needed more time than the others. Public safety actually, in 
the comments they filed, gave qualified support to that. They 
did not challenge that they needed more time. They were 
disappointed that they were not doing somewhat more up front. 
We tried to address that with various requirements for Phase I.
    Senator Wyden. Senator Burns.
    Senator Burns. Thank you very much, and I am sorry that the 
manufacturers are not here today, because I have the same 
feeling that Senator Wyden does, that technologies will 
continue to evolve and change. That is still no excuse for 
nondeployment. I think we have to deploy the cutting edge 
technologies that are there today, and then be able to adjust 
later on. If we continue to wait for the next generation to 
come, we will still be lacking in any kind of public service 
presently.
    Increase in use, as you know, is much greater than was 
forecast back in 1996, which also is causing demands for 
increased spectrum. We will have to deal with that on this 
Committee, and I was wondering, and I am especially concerned 
about rural America, that granting the waivers to the industry 
that is responsible for 75 percent of the business is a big 
waiver, and it goes out there a long time and I am concerned 
about that, and I would just like to go a little bit further on 
the questioning of Senator Wyden.
    Was it technology, or is this an investment problem? Is 
this a cost problem?
    Mr. Sugrue. I think technology and cost are to some degree 
interchangeable. That is, if you could say to a carrier, ``If 
you had spent $1 billion on this 2 years ago, would we be 
further along,'' I think that is undoubtedly the case.
    I will say this. When we adopted those rules back 5 years 
ago, this technology did not exist, or at least did not exist 
in any commercially deployable form in a wireless network. 
There were certainly ideas, and I think again both the 
companies you will hear from were working on various 
approaches, but we sort of set the bar beyond where reality was 
and we said, ``You guys have got to catch up with it,'' and I 
think those technology developers have done an excellent job in 
doing that.
    When we looked at the record, though, it seemed verifiable 
that the exact dates in our schedule in the original rules, 
which were adopted 5 years ago, were not possible, given where 
we are now. What we needed to do, at least our approach to 
this, was to say to the carriers, ``Well, that does not get you 
off the hook. That does not mean you can get a pass and come 
back in a year or two. Do not tell us just what you cannot do, 
tell us what you can do, and we want to see specific plans.''
    You say you cannot hit October 1. What can you hit, 
December 31, March 1, and then we even got further into the 
details with specific interim benchmarks along the way.
    So the idea was not to let people off the hook, but to keep 
them on the hook, perhaps a different hook, but with specific 
commitments.
    Senator Burns. We know that from the hearing we had in 
Montana--we had a terrific turnout, between 150 to 200 people, 
including law enforcement people, first responder people, and 
our military. We had representatives from just about every 
corner of Montana, and I think the major question there was 
regarding the moneys that are appropriated to help our public 
service answering points, PSAPs. We try on this Committee to 
help those areas of law enforcement, or whoever fields this 911 
call and dispatches accordingly.
    We have to watch that those funds are not diverted to do 
other things. We have to ride that very carefully, and I think 
we have done a fairly good job. I know we have in the State of 
Montana. Generally, did you find any diversion of funds that 
was going for something else that was originally designed to 
upgrade the PSAPs?
    Mr. Sugrue. Well, I certainly understand that many of the 
carriers feel that is the case. I am a native of New York City, 
and I know it has become an issue in the race for mayor there, 
in which the 911 funds go to a State agency in spite of the 
fact that the city and Nassau County run their own 911 systems. 
There has become a debate about their access to those funds and 
whether they are getting fair access or whether they are being 
used to upgrade radio systems for State police and so forth.
    I think it varies. It depends on the State law, and that to 
some degree, if those funds are dedicated for wireless E-911, I 
am sure they are being used for that. If in other cases they 
are more generally available for public safety purposes, I 
mean, we all work with budgets. You may say, ``Well, rather 
than wireless 911 I need a new radio system to keep my cops on 
the street safer.''
    I would just say--and this is not an official Commission 
position, this is me talking--from having interacted with this 
community for a while, access to funds at local level for 
upgrades in radio systems, including wireless E-911, but also 
the police and fire radio systems themselves, is a critical 
need.
    I know Congress is looking at various things that would 
increase our security here at home, and upgrades to public 
safety radio systems is very important in that context. Another 
side of my shop, in addition to dealing with commercial 
services, deals with the licenses and allocation of spectrum 
for public safety uses such as police and fire, and we know 
public safety faces challenges all the time, and a limited 
budget, and you have got personnel you have got to take care 
of.
    Sometimes we get intense on putting the extra cop on the 
street, but then we put them out with a walkie-talkie that you 
can buy at Radio Shack that is not much better than a kid's 
toy. We are trying to do our part to make extra spectrum 
available for new systems, but it takes money to implement at 
the local level.
    Senator Burns. Well, I thought the length of the waiver was 
a little too liberal, and I personally think there are a lot of 
us on this Committee that are going to take a very personal 
interest in this, in the deployment of it, and to make sure 
that it is accelerated. Under the circumstances that we are 
encountering now and the challenges that we have in public 
safety that is in front of us, I just think we have to do that.
    So I appreciate your acknowledging that we have certainly 
got some things to be done that can be done, and we should be 
going that way, and I thank you for coming before this 
Committee today.
    Mr. Sugrue. Thank you, Senator.
    Senator Burns. The Chairman is here now, and I want to 
publicly thank him for calling this hearing, because I think 
under the circumstances there is probably not a more important 
hearing in this body today.
    Senator Inouye [presiding]. Senator Smith.

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. Welcome, Mr. 
Sugrue. I wonder if you could share with me what are the 
standards the FCC uses to determine the E-911 waiver request? 
What are the standards?
    Mr. Sugrue. Well, the Commission set out the standards in 
an order last summer about a year ago for a carrier called 
VoiceStream, and those standards are that you have to show with 
some specificity what you have been doing to try to bring 
yourself into compliance, what testing you have been doing, why 
you need extra time, whether it is supply conditions, accuracy 
standards, whatever. Then you need to show that the relief you 
are asking is specific, focused, and limited to the problems 
you identified. Most importantly, you have to show that you 
have a clear path to full compliance in as quick a time as 
possible so that these waivers are deferrals, really, of 
initial implementation dates and not deferrals of ultimate 
implementation dates.
    Senator Smith. What, then, needs to happen, do you believe, 
for full deployment? Is it a technology problem? Is it a 
hardware problem? At what level does there need to be a 
development that they can just go ahead? Is this something 
private capital exists to do, or is this something the 
Government needs to get involved in in helping to facilitate?
    Mr. Sugrue. Well, I think on the carrier side my own view 
is that it is not a need for the Government to get involved in 
terms of funding. I think this is a robust industry, $50 to $60 
billion in revenues last year.
    That does not mean one can impose costs on them willy nilly 
and be indifferent to it. I do not mean to suggest that, but we 
did have a requirement in our rules earlier that required that 
there be a cost recovery mechanism in place for carriers, that 
the carriers at least interpreted it as that State and local 
governments had to pay their cost of putting this technology 
in, and that was just leading to disputes. We did not think it 
was an appropriate standard, and as I said in my testimony we 
changed that rule to say, ``PSAPs, you have to pay your cost, 
and carriers, you have to pay your costs,'' and we get into 
little disputes now about where that boundary is, but the 
principle I think is fairly clear.
    On the PSAP side, I do think there are funding issues from 
communities. I think John Melcher will probably tell you about 
the State of Texas. They have a fund set up. Through that fund, 
he has access to funds that he can use to upgrade the systems, 
and he has done that.
    So I think right now the funding issue is handled as a 
State and local matter, and not as a Federal matter, and if 
Congress wanted to help them out, I am sure they would welcome 
it.
    Senator Smith. I just think we are becoming more impatient 
to see this happen for obvious public safety reasons, and 21st 
century technologies, we want to know what the technologies are 
and how quickly they can be deployed, because there is a 
manifest need.
    Thank you, Mr. Chairman.

       STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR 
                          FROM HAWAII

    Senator Inouye. Thank you very much.
    First, I would like to apologize to you, Mr. Sugrue, and to 
the people assembled here, but as you know there was a special 
meeting called to discuss the problems of this day. I believe 
the special meeting highlights the importance of what we are 
discussing at this moment.
    I would like to first make certain that my opening 
statement be made a part of the record.
    [The prepared statement of Senator Inouye follows:]
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Good morning. Today the Communications Subcommittee examines the 
important issue of enhanced, or ``E'' 911 services in the wireless 
industry. In light of recent tragic events, issues of public safety are 
particularly on the minds of all Americans, Senators included. As such, 
today we examine the steps that can and must be taken to maximize 
public safety in an increasingly wireless world.
    When a citizen calls 911 from a wireline phone, the operator almost 
always knows the caller's address and the identity of the owner of that 
phone. This enables almost immediate dispatch of emergency aid, even 
when the caller is too injured or disoriented to provide his or her 
exact location. On a wireless phone, however, the operator must rely 
almost entirely on the caller, who may not know where he or she is, or 
who may be incapacitated or unable to call for help. Let me not 
understate the significance of this distinction. People perish because 
of this disparity in 911 service.
    Tragically, this problem will get worse before it gets better. Of 
the roughly 190 million calls made to 911 each year, over 50 million 
are made from wireless phones--calls in which the 911 operator has to 
rely on the caller in distress to identify the place to send help.
    Nearly 6 years ago, the wireless and public safety industries, to 
their credit, agreed upon a plan to help provide location information 
to operators receiving 911 calls from a wireless phone. The FCC took 
that plan and crafted a sensible timeline for compliance.
    Specifically, by October 1 of this year, wireless carriers were 
required to update their networks to provide location information to 
911 centers--or PSAPs--within 6 months of a PSAP request. Moreover, 
carriers were required to begin deployment of wireless phones that 
include handset location technology, to enable the identification of a 
caller's location utilizing global positioning technology. By December 
31, 2005, 95 percent of subscriber handsets must include location 
technology.
    The approach taken by the FCC was reasonable, balanced, and 
appropriately prioritized public safety, while granting industry ample 
time to plan to meet the requirements that were imposed.
    Today, however, I am dismayed to report that not a single major 
carrier has met the initial deadlines imposed by the FCC for service 
availability. Instead, they have sought waivers from these obligations. 
I appreciate that there are technological and financial hurdles 
accompanying the transition to wireless E-911, that equipment 
manufacturers bear some responsibility to make compliant phones, and 
that the public safety community must increase their readiness to 
receive wireless location information. Granted this is a complex 
problem, but the wireless industry was not unaware of these facts when 
it proposed its plan in 1996. Moreover, as we shall hear, both network 
and handset technologies are currently available today.
    If location technology companies can invest millions to promote 
wireless E-911 and public safety, we should expect no less from our 
wireless carriers, particularly when these same companies recently 
engaged in speculative bids of $17 billion in the C block spectrum 
auctions. In that same vein, when wireless companies argue that the 
lack of available spectrum is a matter of national priority, they 
should also remember that public safety is a national priority too.
    In particular, I am concerned by the E-911 waivers recently granted 
by the FCC to five of the six major wireless carriers. My view of the 
FCC waiver process is simple. The waiver process should not be used to 
reward carrier inaction. The FCC should only grant waivers where there 
are compelling reasons for doing so; where the compromise to public 
safety will be minimized; and where the carrier seeking the waiver has 
outlined a clear plan for implementation of E-911 technology on a 
timetable as close as possible to the existing framework set forth by 
the FCC. Additionally, my message to wireless carriers is clear. I 
expect you to meet the milestones you set.
    I look forward to the testimony of the witnesses and to making the 
promise of E-911 technology a reality.

    Senator Inouye. I have just one question. The time line, or 
the deadline was established at the request of the industry, 
and in fact the deadline was suggested by the industry.
    Now we find that circumstances one way or the other made it 
not quite possible to meet this deadline, but let us assume 
that the justification is there, and I do not want to suggest 
that industry is doing this just for profit motives or anything 
like that. As the man in charge, when do you think we will have 
the technology to meet the demands of this moment?
    Mr. Sugrue. This technology--and by the way, Senator, when 
I talk sometimes to my friends in the industry they seem to 
suggest we came up with this date sort of out of whole cloth, 
and that 5 years ago we did not know what we were doing. 
Indeed, you are quite right that date and those accuracy 
standards for the most part were in that consensus agreement 
reached 5 years ago between industry and public safety that the 
Commission then took and put in the rules.
    But I agree with you, things change over 5 years, and I 
think we all realize that those schedules and those standards 
were ambitious, but with our best estimate at the time it was 
feasible. As to what is feasible now, all six carriers under 
their plan are required to be taking active steps in deploying 
this technology, and you can look through the various orders 
for benchmarks as to when switches have to be upgraded of 
various types, handset benchmarks, a certain percentage of your 
handsets have to be--if you are doing a handset approach, that 
is--have to be location-capable, if you are doing a network 
approach, the number of network location units you are going to 
be putting in. And virtually all these carriers, with some 
minor exceptions, are to be up to date with all of their PSAP 
requests by the end of next year. That is, within 15 months of 
October 1.
    That does not mean they start in 15 months. That means they 
are up to speed with requests they have under the Commission's 
rules, and then going forward from that, then the schedule in 
the Commission's rules would be the one that would govern.
    So in order to get from here to where the rules require 
them to be in 15 months, this is not a case where they can be 
sitting on their hands and dilly dallying. There needs to be 
aggressive expenditures of funds and devotion of management 
resources.
    Senator Inouye. In your opinion, has industry been 
sufficiently aggressive, as you put it, up until now?
    Mr. Sugrue. I think the view of what is sufficiently 
aggressive has changed since September 11, perhaps in the 
industry and elsewhere. I think in some areas they were not 
sufficiently aggressive before. That varies among carriers. 
Everyone is not the same, and I do not mean to suggest I am 
picking people out, but some seemed to be more proactive on 
this than others.
    Some came along later in the game. Some seemed to have a 
deathbed conversion, sort of very late in the game, but I am a 
good Catholic boy, and deathbed conversions count, you know, 
but we need to keep everyone on the right path now.
    Senator Inouye. So all of them are now very aggressive?
    Mr. Sugrue. They had better be. That is the direction from 
the Commission. They have got schedules they have got to hit, 
and I think the Commission has signaled that it is going to 
take those deadlines very seriously.
    Senator Inouye. Before the deadlines came about and before 
the waiver requests came in, I presume that your office was 
aware that some of the members were sitting on their hands.
    Mr. Sugrue. Well, let us put it this way. The carriers have 
been talking for at least 2 years that the requirements in the 
rules were unrealistic and could not be achieved. We at the 
Bureau took the strategy of saying, of sort of constructive 
engagement and constructive confrontation--that is, that is not 
good enough, we need to do better--but at the same time not 
sort of taking an all-or-nothing approach.
    That is because we felt that if we said ``Well, if you 
cannot hit every jot and tittle of the rule, then you are in 
trouble,'' then we just have a bunch of litigation on our hands 
rather than implementation. So we have been engaging with them 
as to what the problems are, but not letting them off the hook 
on the grounds that this just will not work, or the technology 
is not ready yet.
    Senator Inouye. About a year ago you made a statement 
saying that if carriers did not take their obligations 
seriously, appropriate penalties would be assessed. Have any of 
the carriers been penalized?
    Mr. Sugrue. Well, two of the carriers are in enforcement 
proceedings right now. The Commission announced with AT&T and 
Cingular it was instituting consent decree negotiations, 
because their requests for relief that were filed, the ones 
that are before us now, were filed late in the day.
    AT&T had put a plan on the table back in April that over 
time we found was not a viable plan, and they ended up 
withdrawing it in September, but there was not enough time to 
pass on the substitute they offered.
    Cingular similarly put a plan on the table in the summer. 
Frankly, we found that plan to be inadequate. We were moving to 
deny it. We had an order drafted to that effect, and they 
withdrew their plan about a day before we were about to issue 
the order, but they came back in with a plan that I think is 
much more responsive. I do not want to say it is perfect or 
anything like that, but I think public safety also would agree 
a much more realistic and responsive plan to what we have, and 
that is what I sort of was alluding to by deathbed conversions.
    It is late in the day, so that is why it is in the 
enforcement context, but we also want those plans to go 
forward, because that is how we are going to get this 
technology out there so it can save lives.
    Senator Inouye. Under the applicable rules and regulations, 
what sort of penalties can you assess, or impose?
    Mr. Sugrue. It certainly could include fines and 
forfeitures under the Communications Act. It could include 
revocation of the waivers, and an order to implement another 
technology they may find less hospitable and more expensive. If 
a carrier were really acting in bad faith, it conceivably could 
lead to revocation of licenses, which is another possibility, 
although that would be a fairly extreme remedy, but in an 
extreme case that could be utilized.
    Senator Inouye. Have you considered imposing any of those?
    Mr. Sugrue. The carriers that received waivers have an 
alternative plan to implement, and what the Commission said 
was, ``Compliance with that plan will constitute compliance, 
but now you have to hit those deadlines.''
    For the two carriers that are in the middle of consent 
decree negotiations, I cannot comment on the substance of 
those, but all I can say is, that is a matter for the 
Enforcement Bureau, not my Bureau, and they are working on that 
right now.
    Senator Inouye. Mr. Sugrue, I thank you very much. All of 
us recognize over one-third of the 911 calls are made through 
wireless, and September 11 demonstrated to us how important 911 
was. I hope that you will be able to bring out your big whip 
and get the troops in line.
    Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman. I will be 
really brief, and I thought your questions were really key. I 
had just one follow-up.
    Mr. Sugrue, what is going to happen if a carrier does not 
meet its new deployment schedule? Chairman Inouye asked the 
question about the various things that are in the process now 
with respect to enforcement actions, but what is going to 
happen if they do not meet their new deployment schedules?
    Mr. Sugrue. Well, the waiver orders indicate they will be 
referred for enforcement to the Enforcement Bureau.
    Senator Wyden. Automatically? To me what is nonnegotiable 
here is just coming back year after year after year, and what 
you are telling me now is, if they do not meet the new 
deployment schedule, it is going off for an enforcement action.
    Mr. Sugrue. That is what the Commission waiver orders say. 
I cannot stop a carrier under the law from filing another 
waiver and saying, ``I have this very particular problem, my 
supplier just went bankrupt or something, or whatever that is, 
and I need special relief because I have got a switch''--I can 
tell you what the Commission indicated, though, in those orders 
it just adopted 10 days ago, which is that these are the 
benchmarks now, and it intends for them to be followed, and 
noncompliance will result in a referral to enforcement.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Inouye. One final question, sir. The goal that we 
are pursuing is attainable is it not?
    Mr. Sugrue. Yes, it is, Senator.
    Senator Inouye. So it is not unreasonable?
    Mr. Sugrue. This technology will save lives. The technology 
has been developed, and it is a matter now of getting the 
equipment made, getting it deployed, getting it installed on an 
end-to-end basis, and starting to use it.
    Senator Inouye. And you are satisfied that the waivers that 
have been granted are reasonable, and they will be complied 
with?
    Mr. Sugrue. I am satisfied they are reasonable, and 
compliance is not in my hands, but we intend to enforce them as 
I indicated in my answers to you and Senator Wyden just now.
    Senator Inouye. On behalf of the Committee, I thank you, 
sir.
    Mr. Sugrue. Thank you, Senator.
    Senator Inouye. Now, may I call on the next panel, the vice 
president of public affairs of TruePosition, Mr. Michael 
Amarosa, the 911 program manager of the State of Montana, Ms. 
Jenny Hansen, the first vice president and wireless industry 
liaison of the National Emergency Number Association, Mr. John 
Melcher, the president of SnapTrack, Mr. Brett Sewell, and the 
president and CEO of Cellular Telecommunications & Internet 
Association, Mr. Thomas Wheeler.
    May I first call upon Mr. Amarosa.

 STATEMENT OF MICHAEL AMAROSA, VICE PRESIDENT, PUBLIC AFFAIRS, 
                       TRUEPOSITION, INC.

    Mr. Amarosa. Good morning, Mr. Chairman, members of the 
Subcommittee. My name is Michael Amarosa, and I am the vice 
president of TruePosition. Before joining the company, I spent 
24 years of my life working in public safety. As a deputy 
police commissioner, I was responsible for the largest center 
in the nation, New York City's.
    If I may take a moment on a personal note, I am a New 
Yorker, and I am very proud of my city and the way it handled 
the tragedy on September 11. I am also proud in a professional 
way of how 911 responded on that day. The calls almost doubled 
in New York City that day through 911, and during that period 
of time the city was able to handle all of those calls and 
never failed, and I take pride in that, because I had a hand in 
designing the redundant systems that enabled that to happen.
    I am also proud of the cellular industry. The cellular 
industry allowed so many people to call their loved ones and 
say goodbye at that time, and also to find out how they were 
doing and locate them, and on a personal note, I had a daughter 
that worked across the street, and during that period of time, 
as soon as the first plane had hit the tower, we were very 
concerned, my wife and I, for her safety, and I thank God that 
we had a cellular phone.
    After many hours we were able to locate her and find out 
that she was able to escape the building before it collapsed. I 
am so thankful for the cellular industry, and owning a cellular 
phone and the ability to give us peace of mind.
    Since September 11, we have become much more attuned to the 
issues of public security and safety. We have known the 
technology for improving personal security and safety for 
years, and I am referring to enhanced 911, or E-911 services. 
When you call 911 from a traditional phone at home, or a phone 
booth, the police or fire department or EMS can automatically 
determine where you are and dispatch help, but if you call 911 
from a wireless phone, you have to tell them exactly where you 
are, and this is so unfortunate.
    If you are in a strange place or city under duress, or 
afraid, disoriented, it is not always easy or possible to 
determine where you are. The difference in our ability to 
locate wireless emergency calls is important. Each year, 43 
million wireless calls are placed to 911, and that number 
continues to grow.
    TruePosition has worked diligently with the Commission 
since it first took up the issue of E-911 in 1994, and our 
wireless location technology predated the Commission's interest 
by several years. We have actively participated in the 
formulation of the FCC rules. We have structured our technology 
on real-life settings, and based on those rules.
    We have worked with carriers and public safety agencies to 
improve our technology and demonstrate its compliance with the 
FCC's policies and rules, and we invested more than $150 
million to develop and deploy that technology since the FCC 
first considered E-911.
    We all recognize that the FCC has tremendous 
responsibilities that have grown exponentially during this 
digital age. We were concerned about the early press reports 
that the FCC was not placing a higher priority on public safety 
and personal security, but now that we have had the opportunity 
to review the details of their orders, we are cautiously 
optimistic.
    We are ready to begin as a company providing E-911 services 
today if the regulatory environment permits it. We have 
agreements with the nation's second-largest carrier, Cingular 
Wireless, and with MoviStar, an innovative carrier in Puerto 
Rico to provide location information for their customers. 
Cingular and MoviStar should both be commended for moving this 
issue forward.
    Mr. Chairman, our technology works. It has been tested in 
more than 500 cell sites nationwide, including a New York City 
test that involved a difficult environment where almost half of 
those calls were made from multiple-story buildings in midtown 
Manhattan.
    Mr. Chairman, our technology will vastly increase the 
personal safety and security the moment it is deployed. 
Consumers will not be in a situation where they need to buy new 
phones with our technology. They can be located and meet all 
the requirements of all existing analog and digital phones.
    There are 120 million wireless phones in the United States, 
and TruePosition's architecture supports the technology used by 
95 percent of them. The technology will work on the digital 
systems, on the analog systems, and address all roamers.
    On September 12, a TruePosition crew entered 2 World 
Financial Center, adjacent to the World Trade Center, and we 
employed our technology in an effort to assist the rescue 
efforts. I do not want to mislead the Committee. The 
devastation and large number of cell signals from so many 
sources in the area greatly reduced our ability to help, but we 
were able to offer pertinent information to rescue teams, and 
we gained valuable experience, and a disturbing yet hopeful 
picture of how and where our technology might save lives in the 
future.
    We remain optimistic that the Commission will reaffirm its 
longstanding commitment to E-911. The Commission and Congress 
have shown that they recognize the value of these services. 
Further changes and revisions of the FCC's deadlines will only 
delay the time by which the public can receive the benefits of 
E-911 services.
    My personal commitment to public safety brought me to 
TruePosition. My colleagues and I at TruePosition are eager to 
put E-911 into action as soon as we possibly can.
    Mr. Chairman, I thank you for this time.
    [The prepared statement of Mr. Amarosa follows:]
Prepared Statement of Michael Amarosa, Vice President, Public Affairs, 
                           TruePosition, Inc.
    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Michael Amarosa and I am Vice President of TruePosition, Inc.
    It is a privilege to appear before the Subcommittee to discuss the 
implementation of E 911 and Public Safety. The originally scheduled 
hearing date, September 11, 9/11, was symbolic. It reflected how 
important 911 is to public safety and how citizens facing an emergency 
can get help faster. Sadly, September 11 now stands for a great deal 
more. Among a great many consequences, the attack of September 11th on 
the World Trade Center and the Pentagon makes public safety 
technologies, such as enhanced 911 services for mobile phones, even 
more important to our country.
    Our company, TruePosition, has committed its very existence to 
wireless location technology. We began working on wireless location 
technology years before the Federal Communications Commission 
considered wireless E 911, and have invested more than $150 million 
following issuance of the FCC's mandate in 1996. This investment has 
produced a commercially available location technology that complies 
fully with requirements established by the FCC. After years of 
research, development and real world testing, we are working with the 
public safety community and with carriers, both large and small, to 
make E 911 a reality and to meet the FCC deadline.
    E 911 has been at the center of my professional career. I spent 24 
years working in public safety. Among other things, I was responsible 
for the largest 911 center in the nation, that of the New York City 
Police Department, as Deputy Commissioner for Technological 
Development. The NYPD today receives more than 11.3 million 911 calls 
annually--that breaks down to more than 30,000 911 calls per day, 25%-
30% of which are made from wireless phones.
    It was my responsibility to bring to public safety a range of 
technologies that helped police officers, firefighters and emergency 
service workers do their jobs more effectively and efficiently. 
Location information is fundamental to this effort and saving lives. 
Summoning help from a wireless phone frequently takes place in 
circumstances where callers are simply unable to describe their 
location. Regrettably this often leads to tragic results. But with 
wireless E 911, the child who knows only enough to dial 911, the 
traumatized victim who cannot remain on the line, and the traveler who 
cannot convey where he is, can be located and police, fire or emergency 
services dispatched.
    In early September, when a vehicle containing four young men 
driving on the winding roads near Bear Mountain, New York crashed and 
toppled down a deep slope, their wireless call for help was made. Yet, 
it was hours, after an extensive search, before they could be located. 
This tragedy conveys clearly that E 911 is more than expediting 
assistance to the individual in need of help, it may be the only way an 
individual can be located.

                        AGREEMENTS WITH CARRIERS
    I am here today to tell you that wireless location technology works 
and that TruePosition is ready to deploy its system. On August 30, 
2001, TruePosition entered into an agreement with Cingular Wireless LLC 
that represents the most definitive and extensive commitment to the 
rollout of E 911 to date. I also am pleased to tell you that we have 
additional deployment agreements with MoviStar Puerto Rico, a joint 
venture between ClearComm and Telefonica Moviles of Spain.
    The comprehensive agreement with Cingular Wireless LLC to provide 
TruePosition's network-based technology in Cingular's digital TDMA/
analog AMPS markets will bring location information to the nation's 
second largest wireless carrier. We anticipate deploying our technology 
on at least two thousand of Cingular's digital TDMA/analog AMPS cell 
sites by the end of 2002. TruePosition understands that this will 
permit Cingular to address all presently outstanding requests from 911 
Centers (referred to as public safety answering points or so-called 
PSAPs) for location information that meets the FCC's rules (``Phase 
II'' information). From that point forward, Cingular will be capable of 
deploying TruePosition's Phase II solution in its digital TDMA/analog 
AMPS networks dependent on the PSAP requests, consistent with the FCC's 
requirements. TruePosition's technology will supply location 
information for digital TDMA subscribers, analog subscribers and 
roamers. The commitment by Cingular and TruePosition is a distinct and 
tangible demonstration that E 911 is a reality.
    The same is true for the PCS digital CDMA subscribers of MoviStar 
Puerto Rico. The commercial rollout will provide FCC-compliant location 
coverage wherever TruePosition's system is deployed in this region with 
a population of over 3.8 million people. This agreement will also 
ensure that MoviStar's digital CDMA subscribers have access to Enhanced 
911. Additionally, we are in active discussions with several other 
carriers to deploy our network based solution.

                   WIRELESS ENHANCED E-911 TECHNOLOGY
    The need for Enhanced 911 or E 911 has been recognized for several 
years. It originates from the dichotomy that when a person calls 911 
from a traditional phone, public safety agencies can automatically 
determine the individual's location; yet if the same person calls from 
a wireless phone, a public safety agency must rely on the caller to 
provide an accurate location. As more than 43 million wireless calls to 
911 are made annually from existing wireless phones, the need to 
implement E 911 is critical. The nation should be at the threshold of a 
tremendous upgrade in how fast public safety agencies can respond to 
individuals in need.
    As I mentioned, TruePosition has made substantial investments in 
developing the technology and implementing it. TruePosition holds 14 
U.S. patents in the technology, encompassing methods, processes and 
apparatus for calibrating a wireless location system that yields 
extremely accurate measurements. We have completed system testing of 
more than 500 cell sites in a variety of environments. Recently, we 
have conducted extensive tests of our system in the Philadelphia, 
Pennsylvania, Wilmington, Delaware and New York City metropolitan 
areas. The New York City test involved a challenging environment for 
radio propagation as almost half of the test calls were made inside of 
multi-story buildings in midtown Manhattan. Standard digital CDMA 
mobile phones were used to make more than 30,000 test calls in an area 
covered by 30 cell sites. A rigorous test plan published by the CDMA 
Development Group (CDG) to determine the performance of TruePosition's 
technology was employed. The system demonstrated sub-100 meter location 
results in a variety of indoor, outdoor, pedestrian, and moving vehicle 
scenarios. The test results demonstrated compliance with FCC 
requirements. Accurate and reliable location information is not in the 
future. It is now.

                   TRUEPOSITION'S LOCATION TECHNOLOGY
    TruePosition's technology allows all existing cellular (digital and 
analog) and PCS phones to be located without any adjustment to the 
consumer's handset. All existing phone sets can be located on our 
system, within the requirements set by the FCC. TruePosition's 
architecture supports technologies currently used by more than 95% of 
the 650,000,000 wireless phones worldwide. We developed and tested our 
system in all types of geographic areas, RF environments and other 
conditions. Our technology encompasses the four major air interfaces: 
analog AMPS, digital CDMA, digital TDMA and most recently, GSM.
    TruePosition's Wireless Location System (WLS) is an end-to-end 
hardware, software, and services platform that offers a single system 
for collecting, managing and distributing location data and an 
integrated user interface to facilitate installing, managing, and 
operating the system. The WLS operates as an overlay to a carrier's 
network, requiring minimal changes to the existing network 
infrastructure. The system has a negligible impact on cell sites and 
does not create additional traffic for the network. The WLS is network-
based, and as stated, there is no modification necessary to consumer 
handsets. Millions of subscribers can now be covered.
    The TruePosition system determines a wireless phone's geographical 
location by collecting and processing the RF signals transmitted by the 
phone. When a signal is transmitted--when a phone call is placed--the 
system gathers information about the signal from nearby mobile base 
stations. The data are transmitted to a processor that analyzes the 
information and computes the position of the caller by using 
TruePosition's patented Time Difference of Arrival (TDOA) and Angle of 
Arrival (AOA) algorithms. For a 911 call, the TruePosition system then 
determines the location of the call and delivers the information so 
that the appropriate PSAP can dispatch assistance to the caller.
    One fundamental of TruePosition's network based system is that upon 
implementation, location information can be transmitted to the 
appropriate 911 center by all wireless phones using the network, not 
simply those that have been recently purchased. Customers do not have 
to purchase new handsets nor is any retrofitting needed for location 
information to be transmitted. The challenge of legacy equipment, the 
millions of phones in use throughout the country, is resolved through 
the network solution.

                   THE FCC'S OCTOBER 1, 2001 DEADLINE
    Under FCC rules, wireless telephone carriers were required to 
provide Automatic Location Identification (ALI) beginning October 1, 
2001, as part of the Phase II E 911 implementation schedule. There are 
separate accuracy requirements and deployment schedules for network-
based and handset-based technologies. The Appendix sets forth the FCC's 
rules and the apparent changes approved in the FCC's recent waiver 
decisions.
    TruePosition has followed the FCC's actions attentively since the 
Commission took up E 911. We have participated actively during the 
FCC's formulation of its E-911 rules. We have provided our views on the 
policy and technical issues at stake. TruePosition has structured its 
technology's implementation on real life settings that are drawn from 
the FCC's rules. Substantial investment has been directed to complying 
with the FCC's rules regarding accuracy requirements and the 
implementation deadlines that were established. We have worked at 
length with carriers and public safety agencies to improve our 
technology and to show that it complies with the FCC's policies and 
rules. This is an important reason why TruePosition's technology works.
    Last week, the FCC announced that it had reached decisions on 
petitions seeking waivers of its E-911 rules. Those decisions provide 
several carriers additional time and other relief from the FCC's rules. 
In any environment where investment responds to a regulatory mandate, 
where resources and expertise is committed to meet deadlines and 
specifications, clarity and consistency are vital. If rules are changed 
facilely, let alone unnecessarily, investment is disrupted, competition 
distorted and, most significantly, the policy pursued undermined.
    The nation's experience in wireline 911, where location information 
of the caller is simultaneously available to the 911 center, 
demonstrates plainly the enormous benefits that accrue. Individuals 
needing help can be located, help can arrive faster, and the overall 
ability of public safety agencies to respond more effectively is 
enhanced significantly. Moreover, the experience with wireline E-911 
has proven to be an effective and important law enforcement instrument. 
As the nation confronts the challenges that have been become all too 
clear since September 11, 2001, E 911 will have an even more critical 
role. If our country is going to have a satisfactory level of E 911 
service, carriers, the Congress, the FCC, and other relevant parts of 
our government must make it happen.

                                SUMMARY
    Bringing E 911 to all Americans will require the full cooperation 
of government, carriers, and technology providers and public safety 
agencies. The result will be more efficient and effective emergency 
services, property and lives saved, and a greater sense of security for 
all of our citizens.
                                 ______
                                 
                                Appendix
             HISTORY AND SUMMARY OF REGULATORY REQUIREMENTS
    Through several actions since 1996, the FCC's wireless 911 rules 
have sought to improve the reliability of wireless 911services and to 
provide emergency services personnel with location information. The 
wireless 911 rules apply to all cellular licensees, broadband Personal 
Communications Service (PCS) licensees, and certain Specialized Mobile 
Radio (SMR) licensees.
Phase I E 911 Requirements (FCC Order June 1996)
    As of April 1, 1998, or within six months of a request by the 
designated PSAP, whichever is later, covered carriers are required to 
provide to the PSAP the telephone number of the originator of a 911 
call and the location of the cell site or base station receiving a 911 
call.
Phase II E 911 Requirements (FCC Orders September 1999, minor 
        adjustments 
        August 2000)
    Wireless carriers are required to provide Automatic Location 
Identification (ALI) as part of Phase II E 911 implementation beginning 
October 1, 2001. The FCC has established separate accuracy requirements 
and deployment schedules for network-based and handset-based 
technologies. The E 911 Phase II requirements are as follows:
    <bullet> Handset-Based ALI Technology: Wireless carriers who employ 
a Phase II location technology that requires new, modified or upgraded 
handsets (such as GPS-based technology) may phase in deployment of 
Phase II subject to the following requirements:
    Without respect to any PSAP request for Phase II deployment, the 
carrier shall:

    1.  Begin selling and activating ALI-capable handsets no later than 
October 1, 2001;
    2.  Ensure that at least 25 percent of all new handsets activated 
are ALI-capable no later than December 31, 2001;
    3.  Ensure that at least 50 percent of all new handsets activated 
are ALI-capable no later than June 30, 2002; and
    4.  Ensure that 100 percent of all new digital handset activated 
are ALI-capable no later than December 31, 2002 and thereafter.
    5.  By December 31, 2005, achieve 95 percent penetration of ALI-
capable handsets among its subscribers.

    Once a PSAP request is received, the carrier shall, in the area 
served by the PSAP, within 6 months or by October 1, 2001, whichever is 
later:

    1.  Install any hardware and/or software in the CMRS network and/or 
other fixed infrastructure, as needed, to enable the provision of Phase 
II E 911 service; and
    2.  Begin delivering Phase II E 911 service to the PSAP.

    <bullet> Network-Based ALI Technology: As of October 1, 2001, 
within 6 months of a PSAP request, carriers employing network-based 
location technologies must provide Phase II information for at least 50 
percent of the PSAPs coverage area or population.
    Within 18 months of a PSAP request, carriers must provide Phase II 
information for 100 percent of the PSAPs coverage area or population.
    The FCC has adopted the following standards for Phase II location 
accuracy and reliability:

    <bullet> For handset-based solutions: 50 meters for 67 percent of 
calls, 150 meters for 95 percent of calls;
    <bullet> For network-based solutions: 100 meters for 67 percent of 
calls, 300 meters for 95 percent of calls.
Public Safety Answering Point Requirements (FCC Order November 1999)
    The E 911 Phase I requirements, and certain of the Phase II 
requirements, are applicable to wireless carriers only if the 
designated PSAP has requested the service and is capable of receiving 
and using the information provided. There is no prerequisite that a 
cost recovery mechanism for wireless carriers be in place before 
carriers are obligated to provide E 911 service in response to a PSAP 
request. The PSAP, however, must have the means of covering the costs 
of receiving and using the E 911 information to make a valid request 
for E 911 service. The FCC's rules do not mandate any specific state 
action nor specify any particular mechanism for funding the technology 
and service capabilities necessary to enable the PSAP to make a valid 
service request.

                                           Comparison of FCC Handset Requirements and the Waiver Requirements
--------------------------------------------------------------------------------------------------------------------------------------------------------
             Fcc Rules                   Verizon Waiver           Sprint Waiver        AT&T (GSM) Waiver    Cingular (GSM) Waiver      Nextel Waiver
--------------------------------------------------------------------------------------------------------------------------------------------------------
Begin selling ALI-capable handsets   No October 1, 2001      Begin selling ALI-      AT&T must follow the   Begin selling ALI-     Begin selling ALI-
 by October 1, 2001.                  requirement.            capable handsets by     handset deployment     capable handsets by    capable handsets by
                                                              October 1, 2001 (same   schedule, but has      October 1, 2001        October 1, 2002 (one
                                                              as rule).               reduced accuracy       (same as rule).        year after rule)
                                                                                      requirements for 2
                                                                                      years..
25% of all new handsets must be ALI- Begin selling ALI-      25% of all new            ...................  25% of all new         10% of all new
 capable by December 31, 2001.        capable handsets by     handsets must be ALI-                          handsets must be ALI-  handsets must be ALI-
                                      December 31, 2001       capable by July 31,                            capable by December    capable by December
                                      (three months after     2002 (six months                               31, 2001 (same as      31, 2002 (one year
                                      rule).                  after rule).                                   rule).                 after rule, 15%
                                                                                                                                    less)
50% of all new handsets activated    25% of all new          No 50% benchmark......    ...................  40% of all new         50% of all new
 must be ALI-capable by than June     handsets must be ALI-                                                  handsets activated     handsets activated
 30, 2002.                            capable by July 31,                                                    must be ALI-capable    must be ALI-capable
                                      2002 (six months                                                       by than March 31,      by than December 1,
                                      after rule).                                                           65% by June 30, 2002   2003 (18 months
                                                                                                             (June requirement      after rule)
                                                                                                             exceeds rule by 15%.
100% of all new handsets must be     50% of all new          100% of all new           ...................  100% of all new        100% of all new
 ALI-capable by December 31, 2002.    handsets activated      handsets must be ALI-                          handsets must be ALI-  handsets must be ALI-
                                      must be ALI-capable     capable by December                            capable by September   capable by December
                                      by than March 31,       31, 2002 (same as                              30, 2002 (three        1, 2004 (two years
                                      2003 (nine months       rule).                                         months earlier than    after rule)
                                      after rule).                                                           rule).
By December 31, 2005, achieve 95     100% of all new         By December 31, 2005,     ...................  By December 31, 2005,  By December 31, 2005,
 percent penetration of ALI-capable   handsets must be ALI-   achieve 95 percent                             achieve 95 percent     achieve 95 percent
 handsets.                            capable by December     penetration of ALI-                            penetration of ALI-    penetration of ALI-
                                      31, 2003 (one year      capable handsets                               capable handsets       capable handsets
                                      after rule).            (same as rule).                                (same as rule).        (same as rule)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: FCC Fact Sheet


    Senator Inouye. Thank you very much, Mr. Amarosa.
    May I now recognize Ms. Hansen.

   STATEMENT OF JENNY HANSEN, 911 PROGRAM MANAGER, STATE OF 
                            MONTANA

    Ms. Hansen. Thank you, Mr. Chairman, members of the 
Committee, Senator Burns, thank you very much for this 
opportunity to speak before you today. My name is Jenny Hansen. 
I have worked in public safety for over 20 years. The duties 
and scope of my career include dispatcher, ambulance driver, 
911 director, academy instructor, FEMA urban search and rescue 
logistics team member, hazardous materials instructor, among 
others.
    The geographic areas in my experience covers everywhere 
from Metropolitan San Francisco to suburban California, and now 
rural America, the last best place, the State of Montana. 
Initially hired as a 911 director in Bozeman, Montana, I most 
recently now am serving as a 911 program manager for the State.
    I would like to extend a special thank you to Senator Burns 
and the United States Senate for the leadership on these 
critical issues, especially as of late. As Senator Burns 
reminded us, this was originally scheduled to take place on 
September 11. Billed as 911 day, this hearing was to be an 
honest and frank discussion about wireless-enhanced 911. 
Instead, we watched, listened, and learned about the heroes 
that responded, putting their lives on the line under the most 
trying of circumstances. The combined efforts of the human 
spirit and modern technology proved heroic.
    Mr. Chairman, I would also like to thank Senator Burns for 
his leadership on the issue in Montana and in the nation. For 
his leadership in sponsoring the Wireless Communications and 
Public Safety Act in 1999, it is an important road map for 
improving emergency communications and for specifically 
deploying wireless 911 efforts.
    In late August, the Senator facilitated a conference 
starting down that road, hosting the Montana statewide summit 
on a statewide response. As a contrast to some of my colleagues 
here today, the State of Montana's population is a little over 
900,000 people, yet plays host to millions and millions of 
visitors each year, covering a little over 147,00 square miles 
of land. In rural settings, where distances are great between 
victims and help, victims and hospitals, delayed responses can 
literally be a matter of life and death.
    Wireless technologies have dramatically improved personal 
safety and security, as we have heard mentioned today in 
earlier testimony. Emergency response times have fallen. As 
stated earlier, nationwide 40 percent of the calls from 911 are 
from wireless devices. As we have learned, both the public 
safety answering points, or PSAPs and wireless networks can 
easily be overloaded. In answering a call for help, it is 
information that saves lives. One of the biggest challenges to 
PSAPs and emergency responders is that, unlike many wireline 
systems, wireless systems do not provide location information.
    On September 11, the first call for help to a loved one and 
a warning to those of us in the path of destruction came from 
wireless telephone, and now, as the nation girds for a national 
extended effort, wireless communications is a centerpiece to 
our safety and security. We have an early warning system of 120 
million wireless subscribers.
    Following September 11, people have asked us, what is the 
relationship between wireless enhanced 911 and terrorism 
events? I am not an expert on terrorism, but here is what my 
colleagues are saying. 911 is the public's link to emergency 
response. Simply, wireless 911 could be one of our greatest 
civil defense weapons, and E-911 is a key part of that defense.
    Locating hoax wireless callers, finding those who report an 
incident, locating victims in the event of a catastrophic 
diaster, all are dependent in whole or part on wireless 911.
    A lot has been said and done to make the FCC waivers a 
complicated issue. I am not an expert on the waiver process, 
either. NENA and APCO have ably represented our point of view 
to the FCC, but it appears clear that with the exception of 
Cingular and AT&T, where we do not really know yet the outcome, 
the FCC has essentially given the wireless carriers whatever 
waivers they have asked for.
    I will leave it to others to determine whether that was 
right or wrong, but no one has yet to suggest to me how these 
waivers might serve public safety concerns. In any case, it is 
done. Having essentially given the wireless carriers what they 
have asked for, the message now must be very clear: You must 
now deliver. No more excuses, no more waiver requests.
    I plead with you to ensure that this is the last time 
enhanced 911 rules get changed. Let us not let the debate on 
waivers become an excuse to do nothing, and let us not use 
rural PSAPs ability to receive location information as an 
excuse, either. PSAP readiness has been raised as a concern, 
and I could not agree more that it is terribly important, but 
let us understand why it is important.
    There are two relatively separate issues here. First, what 
PSAPs are now ready, and what technologies and upgrades are 
necessary for the PSAPs to be ready in order to trigger 
wireless carrier responsibilities to deploy E-911. Second, what 
technology upgrades are necessary for a 21st century response 
system.
    For starters, let us keep in mind that PSAPs representing 
tens of millions of Americans are ready to use location 
information, and requested Phase II from carriers in a timely 
manner. These include full States like New Jersey and 
Minnesota, and big cities like San Francisco, Los Angeles, 
Dallas, Fort Worth, St. Louis, Chicago, Orlando, Houston, 
Hampton Roads, and Kansas City. They include smaller 
communities like Bozeman, Montana, and Winchester, Virginia.
    So what about all the rest? The FCC was careful not to 
prescribe what is necessary for PSAPs to use location 
information to trigger carrier E-911 responsibilities. The 
information wonders of the world come to me because I have a 
telephone line and a computer, so it should not be hard to make 
sure that latitude, longitude, and other E-911 information is 
displayed on an electronic map to which any PSAP in my State 
can have access.
    With such a system, any PSAP with a telephone line and a 
terminal would be able to see the location of a 911 caller. 
Others will have alternative ideas, but the question of what is 
necessary to trigger carrier E-911 responsibilities is quite 
different from what our goals should be for a modern emergency 
communication system. We need the most modern information 
tools, not the cheapest and easiest ones. We need to be able to 
integrate E-911 data into our systems, and it is necessary that 
that visionary process we have launched in our State, with the 
help of Senator Burns and others, is going to happen. That is a 
process that needs all the parties involved.
    Today, we have an opportunity to address the many 
challenges facing public safety by improving the emergency 
response infrastructure throughout the nation. The foundation 
of the emergency management system is the men and women in 
public safety who are links in the chain of survival. We share 
a common ethic that we will do whatever it takes to save a 
life. I am encouraged by the President's echoing those very 
words about doing whatever it takes. We need the tools and 
training to do that.
    As a State leader, I am asked to respond to the big 
picture. We in Montana do not need to replicate New York City, 
but the golden hour of a medical emergency is the same 60 
minutes in New York City as it is in Montana. It is all about 
saving lives. We in public safety need 21st century tools and 
technologies, and we need you to support and encourage the 
rapid deployment of these technologies to save lives.
    I thank you for your time and your commitment to doing the 
right thing, and your support of the public safety community 
and citizens at large. Thank you.
    [The prepared statement of Ms. Hansen follows:]
       Prepared Statement of Jenny Hansen, 911 Program Manager, 
                            State of Montana
    Mr. Chairman, members of the Committee, Senator Burns, thank you 
very much for providing me with this opportunity to appear before you 
today. Let me extend a special thank you to the Committee and the U.S. 
Senate for your leadership on these critical issues. As you may recall, 
this hearing was scheduled to take place on the afternoon of September 
11. Billed as ``911'' day, the hearing was to be an honest and frank 
discussion of wireless enhanced 911. Instead, we watched, listened and 
learned about the heroes that responded, putting their lives on the 
line under the most trying of circumstances. The efforts of the 
dispatchers, fire, medical, law enforcement services and countless 
volunteers in metropolitan New York, Washington DC and Pennsylvania 
were nothing short of outstanding. The combined efforts of the human 
spirit and modern technology proved heroic. The events that unfolded 
that day not only dealt with wireless 911, but highlighted the many 
technology challenges facing our nation's emergency communications 
system. Today, we have an opportunity to address these challenges by 
improving the emergency response infrastructure throughout the nation.
    My name is Jenny Hansen, and I have worked in Public Safety for 
over 20 years. The duties and scope of my career include Dispatcher, 
Ambulance Driver, 911 Director, Academy Instructor, FEMA Urban Search 
and Rescue Team Member and Logistics Specialist to name a few. The 
geographic areas covered in my specific experiences range from 
metropolitan San Francisco to suburban California and now rural 
America, the last best place, the State of Montana. Initially, hired as 
the 911 Director of Bozeman, Montana, I now serve as the 911 Director 
for the State. As a contrast to some of my colleagues here today, the 
State of Montana serves a population of just over 900,000 people, yet 
plays host to millions and millions of visitors each year, covering a 
land area of over 147,000 square miles. Regardless of where we work and 
we are from, public safety professionals share the same objective in 
our jobs, saving lives. It is the reason we are here, and the answer we 
give when we're asked why we do what we do, answering every call for 
help on the worst if not last day of someone's life.

                            A SPECIAL THANKS
    Mr. Chairman, I would like to thank Senator Conrad Burns for his 
leadership on this issue in Montana and throughout the nation. In 1999, 
Senator Burns sponsored the Wireless Communications and Public Safety 
Act, an important roadmap for improving emergency communications, and 
specifically for deploying wireless 911. In late August, starting down 
that road, Senator Burns hosted a Montana statewide summit on emergency 
response, bringing together leaders from government, emergency 
response, medicine and industry to grapple with the challenges facing 
both our State and nation in deploying modern emergency response 
technologies. We were honored to participate in that program with 
Senator Burns, Governor Martz, Congressman Rehberg, leaders from around 
the State and the ComCARE Alliance. The summit was a tremendous 
success; however, it was just the first step in an integrated approach 
to emergency response for Montana. We know we have a great deal of work 
ahead of us and believe Montana could be a model for the rest of the 
nation as we address new challenges, threats and risks.

                  THE ``FACES'' OF PHASED-IN WIRELESS
    Public Safety technologies have been the result of public and 
private partnerships, improved over time through the process of trial 
and error. Simply, the 911 system would have not been possible without 
a high level of cooperation. Wireless technologies have dramatically 
improved personal safety and security. Emergency response times have 
improved. nationwide, 40 percent of the calls to 911 are from wireless 
devices. These numbers are expected to grow.
    On September 11, the first call for help, to a loved one, and a 
warning to those of us in the path of destruction came from wireless 
phones. And now, as the nation girds for an extended effort, wireless 
communications is a centerpiece to our safety and security.
    Wireless technologies, however, present their own unique 
challenges. Instead of one call, 911 now often receives multiple calls 
for the same event. As we have learned, both Public Safety Answering 
Points (PSAPs) and the wireless networks can easily be overloaded. In 
answering a call for help it is information that saves lives. One of 
the biggest challenges to PSAPs and emergency responders is that, 
unlike many wireline calls to 911, wireless calls do not provide 
location information. In a rural setting where distances are great 
between victims and help, victims and hospitals, delayed response can 
be a matter of life and death.
    Following September 11, people have asked us to explain the 
relationship between wireless E-911 and terrorist events. I am not an 
expert on terrorism, but here is what my colleagues are saying. 911 is 
the public's link to emergency response. We now have an ``early warning 
system'' of 120 million wireless subscribers. We provide a vital 
service to both the public and safety professionals, moving responders 
with the ``what and where'' of an emergency, ensuring that the 
appropriate help is dispatched. The ``what and where'' are equally 
important to protecting responder safety, and appropriately allocating 
responder resources. Locating hoax wireless callers, finding those who 
report an incident, locating victims in the event of a catastrophic 
disaster--all are dependent in whole or in part on wireless 911. 
Simply, wireless 911 could be one of our greatest civil defense 
weapons, and E-911 is a key part of that defense.

                         WIRELESS E-911 WAIVERS
    Chairman Powell's recent statement on October 5 may have said it 
best:

          ``I am disappointed and unsatisfied with the progress we have 
        made, thus far, on Phase II E-911 rules . . . It goes without 
        saying that there is a new sense of urgency around using mobile 
        phones as important safety devices . . . It is not good enough 
        to go for a gentleman's `C.' This test requires an `A+' 
        effort.''

    A lot has been said and done to make this a complicated issue. I am 
not an expert on the E-911 waiver process. NENA and APCO have ably 
represented our point of view to the FCC. Like others, I have only seen 
the press release and statements, not the actual orders. But it appears 
clear that, with the exception of Cingular and AT&T (where we don't 
know the outcome), the FCC has essentially given the wireless carriers 
whatever waivers they asked for.
    I will leave it to others to determine whether that was right or 
wrong. But no one has yet suggested to me how these waivers might serve 
public safety concerns by advancing deployment of E-911. In any case, 
it is done. Having essentially given the carriers what they asked for, 
the message now must be very clear: ``You must now deliver. No more 
excuses and waiver requests.'' I plead with you to ensure this is the 
last time the E-911 rules get changed.
    Unfortunately, there is a lot of revisionist history, and even 
greater confusion regarding the spirit of the original wireless E-911 
agreements. The rule in 1996 stated 2001-2002 as the end date. Both the 
handset and network technologies have proven viable by the wireless 
industry and public safety professionals. What is not working is the 
public policy. Now we have dates that reach well into the next decade. 
Making matters worse, a ``safety divide'' looms on the horizon.
    A large number of wireless networks in rural America are 
traditional cellular-not covered by the waivers. Simply, these 
``legacy'' subscribers will not be located. Cell phones in glove boxes 
will not be located. Travelers passing through Montana will not be 
located. At best, wireless E-911 will come at much later date.

                             ``READINESS''
    Let's not let the debate on waivers become an excuse to do nothing. 
And let's not use rural PSAPs ability to receive location information 
as an excuse either. PSAP readiness has been raised as a concern, and I 
could not agree more that it is terribly important. But let us 
understand why it is important. There are two relatively separate 
issues here. First, what PSAPs are now ``ready'', and what technology 
upgrades are necessary for PSAPs to be ``ready'' in order to trigger 
wireless carrier responsibility to deploy E-911. Second, what 
technology upgrades are necessary for a 21st century response system?
    For starters, let's keep in mind that PSAPs representing tens of 
millions of Americans are ready to use location information, and 
requested Phase II from carriers in a timely manner. These include full 
states like New Jersey and Minnesota, and big cities like San 
Francisco, Los Angeles, Dallas/Fort Worth, St. Louis, Chicago, Orlando, 
Houston, Hampton Roads, Kansas City. They include smaller communities 
like Bozeman, Montana, and Winchester, Virginia.
    So what about all the rest? The FCC was careful not to prescribe 
what is necessary for PSAPs to be ready to use location information to 
trigger carrier E-911 responsibilities. The information wonders of the 
world come to me because I have a telephone line and a computer. So it 
should not be hard to make sure latitude, longitude and other E-911 
information is displayed on an electronic map to which any PSAP in my 
State can have access. With such a system, any PSAP with a telephone 
line and terminal would be able to see the location of a wireless 911 
caller. Others will have alternative ideas.
    But the question of what is necessary to trigger carrier E-911 
responsibilities is quite different from what our goal should be for a 
modern emergency communications system. We need the most modern 
information tools, not the cheapest and easiest ones; we need to be 
able to integrate E-911 data into our systems. It is that visionary 
process that we have launched in our State with the help of Senator 
Burns and others. That is a process that needs all the parties 
involved.
    The one thing we've learned from the technology revolution is that 
innovation comes faster, better and at a more reasonable price when 
technology is made accessible to all. We need to bring the existing 
technologies that are readily available to government and business to 
the world of emergency response. The foundation of the emergency 
management system are the men and women in Public Safety who are links 
in the ``Chain of Survival.'' We share a common ethic that we will do 
``whatever it takes'' to save a life. We need the tools and training to 
do that.

                      THINKING OUTSIDE OF THE BOX
    We need to become innovative, thinking outside of the box in our 
protocols, on the telephone, at the radio consoles, in the field, to 
the transportation leaders and throughout the emergency medical and 
hospital network. We introduce new ways of thinking, asking the right 
questions in the right order, sparing no time in delivering life-saving 
instructions, in such a perfect, synchronized fashion that most 
scientists and magicians would find remarkable. This reminds me of the 
wherewithal of a certain 911 call-taker. This is a story of a lone 
driver in an unfamiliar, rural area that gets stung by a bee. You may 
have heard about it. Without her bee-sting kit, and immediate 
assistance, the caller will die. The call-taker asks the question of 
the day, ``Where are you?'' The request for a location was delivered to 
no avail. Without skipping a beat, the call-taker pulls an idea out of 
a hat and instructs the caller to pull into the driveway of a residence 
and recite the license plate number over the phone. The location was 
positively identified, the driver instructed to wait for the next link 
in the of the Chain of Survival, her life was saved.
    Industry leaders, carriers and vendors have also offered work-
around solutions to their various works in progress. A simple solution 
to press only the number ``9'' on the keypad to deploy a 911 call on 
your cell phone comes to mind. Shaving seconds and defying demolition 
derby driving habits behind the wheel with diverting the caller's 
attention to the palm-sized keypad was a great idea. The caller is more 
quickly routed to the PSAP, just to hear the question of the day, 
``where are you?'' Striving for perfection in technology has gotten in 
the way of our goal, and so we wait.
    Each of these solutions, however, generates its own set of 
problems. The bee-sting incident was fortunate that the owner of the 
vehicle had an updated registration and was the actual homeowner, not a 
guest from two counties away. As for the industry's work around 911 as 
a speed function, this presents a problem for the PSAPs in receiving 
accidental calls.
    It's about public safety, but not just 911. There are many 
stakeholders and constituencies who care and depend on these services 
everyday. We've developed a successful foundation. Now is the time to 
connect the dots; training, seamless networks, modern computer systems, 
public and private partnerships and coalitions, long term stable 
funding, and shared resources.
    As aptly stated in the finding of the Wireless Public Safety Act of 
1999 (6):

          ``The construction and operation of seamless, ubiquitous and 
        reliable wireless telecommunications systems promote public 
        safety and provide immediate and critical communications links 
        among members of the public; emergency medical service 
        providers and emergency dispatch providers; public safety, fire 
        service and law enforcement officials; transportation 
        officials, and hospital emergency and trauma care facilities.''

Simply, the stakeholders are the vast community of public and private 
service providers, that benefits not just 911, but all of us. It is all 
about saving lives.
    Last month a fellow Montanan, Steve Albert, Director of the Western 
Transportation Institute and President, Rocky Mountain Chapter of ITS 
America testified on behalf of Intelligent Transportation Systems 
before the Subcommittee on Transportation, Infrastructure and Nuclear 
Safety. His testimony also discussed the need for cooperation and 
integration of vital public services for improved emergency response. 
Working together, we can overcome great obstacles, share resources and 
help reduce the many ``stovepipes'' that have kept innovation and life-
saving technologies from being deployed. I look forward to working with 
him and sharing projects and ideas in the future.

                             BACK TO BASICS
    As a State leader, I am asked to respond to ``the big picture.'' In 
this case, the big picture is quite simple, that all counties, cities, 
townships and villages should be given equal access to the basic 
services that are available everywhere else in this country. We in 
Montana don't need to replicate New York City, but the golden hour of a 
medical emergency is the same 60-minutes in New York as it is in 
Montana.
    Bridging the gap to covering great distances, with limited 
personnel, equipment and financial resources is hinged on technology. 
The focus on wireless technology is natural, all public safety 
responders depend on seamless networks. All too often, especially in 
rural America, we have dead-zones, where there is no wireless coverage, 
for responders and good Samaritans alike.
    Wireless is just one piece of the puzzle. All the links in the 
Chain of Survival must be fully developed and supported. Equally 
important are E-911 technologies in wireline and PBX systems, training 
for 911 dispatchers, coordinating mapping and support of integrated 
communications systems for all groups represented in the Chain of 
Survival.

                              ENHANCED 911
    We use the term E-911 so freely now that I think we've lost the 
meaning. Or, perhaps we've just come to know it as the public's 
expectation as the minimum standard of care in this country.
    Attached to my testimony is an overview of Enhanced 911, what it 
is, how it is funded, etc. A piece of particular interest involves my 
own state. ``Montana Facts About 911''. We have 58 PSAPs in the state, 
yet only 10 of them have Enhanced wireline services. While we're 
reaching for wireless and even satellite imagery in some areas, it is 
important to provide equal access to all areas of this country.
    In 22 years of Public Service, I am reminded of one of the most 
heart-wrenching moments in my career. Amongst all the war-stories we 
keep inside as pieces of unfinished business, I can still see the man 
in the doorway of my office marked ``911 Director'' in rural Montana 
not even 2 years ago. He is not much older than I and there was a 
sadness in his eyes that was eclipsed only by his will to accomplish 
his mission that day. ``I just came by to say thank you to the 
dispatchers for working so hard to help me with my wife. `` The 911-
call came exactly 7 days earlier, his wife was in full-arrest (she 
wasn't breathing and did not have a heart beat). The dispatchers 
alerted the volunteer firefighters and began delivering pre-arrival CPR 
instructions to the shrieking caller. The dispatchers worked together 
like a well-oiled machine through cycle after cycle of CPR, while 
emergency vehicles traveled miles and miles of rural roads echoing the 
question of the day with each passing mile marker. ``They did such a 
professional job and were so kind. You gave me help when I needed it. I 
don't know how you do what you do.'' His wife died in his arms that 
day.
    I came from Montana, a State very typical of rural America, to ask 
for your help. We in Public Safety need 21st century tools and 
technologies, and we need you to support and encourage the rapid 
deployment of these technologies to save lives.
    I thank you for your time, your commitment to ``doing the right 
thing'' and your support of the public safety community and the 
citizens at-large.

    Senator Inouye. Thank you very much, Ms. Hansen, and I 
thank you for recognizing the leadership of our colleague from 
Montana in this area as the author of S. 800. That is why we 
are here, and we are most grateful to the gentleman from 
Montana.
    May I now call upon Mr. Melcher.

        STATEMENT OF JOHN R. MELCHER, DEPUTY EXECUTIVE 
         DIRECTOR, GREATER HARRIS COUNTY EMERGENCY 911 
                            NETWORK

    Mr. Melcher. Thank you, Mr. Chairman, members of the 
Committee. I would also like to remind you that one of the 
greatest friends of public safety today is Senator Burns. 
Senator Burns actually got his seat in the Senate by defeating 
a gentleman by the name of John Melcher. We are not bitter. As 
a matter of fact, he has become one of our greatest allies, and 
we appreciate his leadership.
    On behalf of NENA, the national Emergency Number 
Association, APCO, and NASNA, and their respective presidents, 
Sharon Kanneman, Glenn Nash, and Evelyn Bailey, I bring you 
greetings, and I am happy to appear before you today.
    You have my written testimony, so I would really like to 
orally give you just a few thoughts that might help us in our 
pursuit of wireless 911 and issues that face public safety 
today. It is rather amazing that we sit before a Federal body 
discussing something that has traditionally been a State and 
local affair in the implementation funding and technology of 
911.
    However, the paradigm has shifted. As the nation recognized 
that competition and deregulation was of the order, and that 
bringing new technologies and innovation to telecommunications 
would be a part of the nation's future, we find that going from 
local solutions to more national demands is really a situation 
that we are facing more and more every day, so we think it is 
incredibly wonderful that the leadership, especially in this 
particular Committee, finds it useful that we explore our 
options as we are doing in today's hearing.
    We were on the Hill on September 11, hosting the press 
conference for the nation's first report card to the nation. 
This was an effort undertaken by NENA to basically give a 
status of 911 in our country today, where we have been, where 
we are, and where we are going. It was with great pleasure that 
we hosted Senator Burns and other Members of Congress in that 
press briefing that morning.
    Senator Burns actually talked at some length about the 
nation's infrastructure for 911 and how it needed to be 
prepared not only for the challenges it faces today, but for 
the significant challenges it faces in the future. He even 
stated, we hate to use the T word, but we need to be concerned 
about terrorism. How prophetic his words were in that within a 
few moments of him speaking them the Pentagon was attacked, 
which was after the New York City debacle.
    So we find now that we are faced with looking very strongly 
at the nation's 911 infrastructure, and what we can do to make 
sure it meets common challenges that existed before September 
11, and new challenges that exist after September 11.
    The report card finds that public confidence in 911 is 
very, very high, that we worked very hard to build a system in 
this country that the public has come to trust. We must make 
sure that we commit every effort and do everything possible to 
make sure that the public trust remains high in the system that 
they have learned to trust so much.
    Ninety-seven percent of our population in this country is 
covered by some form of 911, and about 94 percent of the land 
mass. But of our 3100 some counties in this country, there are 
over 230 counties today that still do not have 911 service. 
Many counties, especially in rural America, have only basic 911 
service, and that is not good enough for the people of this 
country and the citizens we serve.
    911 is sacred and special, and should be considered as 
such. As telecommunications systems are built, especially in 
the age of competition and deregulation, 911 must be one of the 
first things on the checklist for deploying the 
telecommunications system. It can no longer be an afterthought, 
or a Band-Aid that is added to a system once it is already 
built.
    As the first wireless systems were rolled out in 1984 and 
1985, 911 was not the first consideration. No one knew to make 
it the first consideration. Very few phone calls to 911 came 
from wireless subscribers. Now we find, and you have heard 
statistics today, that a third, sometimes 40 percent of calls 
to 911 centers are from wireless devices.
    I am here to tell you that the Harris County Sheriff's 
Department, one of the largest sheriff's departments in the 
country that serves the Houston Metropolitan Area, today 
experiences over 50 percent of its 911 call volume from 
wireless telecommunications devices. This means that a 99.9 
percent accuracy in getting the location information from our 
wireline constituency has now gone to less than half accuracy 
for our call takers in those centers, because what we get is 
the voice, and although we are all Phase I of the FCC rule-
compliant, we get the tower that handled the call, or the cell 
site that handled the call, and the call-back number, but we do 
not get an accurate location.
    This causes a very, very big delay in our response, even 
when people are somewhat familiar with where they are--I am at 
the McDonald's on the gulf freeway. Well, there are 12 
McDonald's on the gulf freeway. Which one are you closest to?
    It is a very, very challenging situation for those call-
takers, and the call center managers that must manage this 
challenge. We used to get one or two calls, when somebody would 
run to a pay phone from a major accident on a freeway. Now 
during rush-hour we experience 50, sometimes more than 50 
calls, reporting the same incident, but our major call centers 
do not know that those are duplicate calls, and each one must 
be handled individually. Wireless location will solve that 
problem for us.
    The time it takes to answer calls and the burden it is 
putting on the dispatchers and call-takers is tremendous. Let 
us not forget those call takers who actually have to sit on the 
other end of the phone while someone is screaming for help, and 
we are looking for them for minutes, sometimes hours, sometimes 
more than hours. Those call-takers take that frustration with 
them home. It causes them to lose sleep at night, and causes a 
great deal of stress and frustration.
    Wireless must be deployed. I was privileged to be a part of 
the original consensus group that gave the consensus agreement 
back in 1995 and 1996 to the FCC, and the rules and timetable 
for those rules were put in place based mostly on that 
consensus agreement. It was our privilege at the time to work 
with Mr. Wheeler and other colleagues of ours in public safety 
and our friends at the Wireless Bureau to make the rules a 
reality. Now, here we are, more than 5 years later, and we have 
yet to have the first wireless 911 Phase II system up and 
operational.
    I will tell you that our own PSAPs, and I represent over 
1,000 call-takers, almost 160 public safety agencies, 42 PSAPs 
and 15 secondary answering points, are all today technically 
ready for wireless Phase II and beyond. We are currently 
working on an automatic crash notification project. As a matter 
of fact, Federal money now sits in conference committee waiting 
on approval from the Senate to make that a reality in the 
Houston area, but it is also a backbone that is being built for 
automatic crash notification from black boxes in vehicles like 
OnStar-equipped devices.
    That backbone will be available for the rest of the State 
of Texas as well as the rest of the country. We are working 
with the Montana Department of Transportation to make that a 
reality for them as well.
    These types of technologies, as my good colleague Jenny 
mentioned, are available in many of the urban centers in this 
country today, so while you may hear from some of the wireless 
industry that the public safety community is not ready, that is 
not necessarily the case. Over 50 percent of the call centers 
that take wireless 911 calls--and remember that not all PSAPs 
take 911 calls because of some State programs like California 
and New Jersey, but over 50 percent of those PSAPs that take 
wireless calls--of the PSAPs, over 50 percent are Phase I 
compliant, and have requested Phase I.
    Most of the urban centers in this country are Phase II 
compliant and ready to take that data today.
    There is a system sitting in Houston, Texas, ready to be 
turned on, and has been ready to be turned on since this 
summer, that is sitting there collecting dust, not being turned 
on today, and the carrier has not committed to turn it on until 
April of next year. We see no reason for that. We see no reason 
for not deploying systems that are ready.
    We were proud to participate in a program back in December 
of 1996 that proved that wireless location technology was a 
reality, yet we have had some carriers fight to deploy systems 
that we were paying to build. Now we have a new commitment, and 
Mr. Sugrue mentioned deathbed conversions. Two of those 
carriers exist in Houston, and we are thrilled to see that they 
have finally put a stake in the ground and made a commitment to 
move forward, but there can be no further delays.
    In the Report Card to the Nation, wireless got an I for 
incomplete. My good friend Mr. Wheeler has said that I stands 
for implementation, yet we do not have a system up and running 
today. We challenge Mr. Wheeler to reengage, as he did back in 
1995 and 1996, with the public safety community and bring his 
membership to work very, very hard in making sure that wireless 
911 is deployed and becomes a reality.
    We have new technologies to address beyond wireless. I 
mentioned automatic crash identification, voice-over IP. There 
will be two-way communications devices that have the red button 
that says, ``I have fallen and I cannot get up,'' but will be 
able to give us a latitude and longitude. We need to be able to 
make sure that these technologies are integrated into our 911 
system in those centers that are ready today and deploy those 
technologies today.
    We encourage you that the new request from the executive 
branch or from the National Communications System for cellular 
priority access include 911 interest. We worked with the NCS 
and their consultant, Booz-Allen-Hamilton, back in 1995 to make 
sure that they had appropriate date in their models. That 
proved the 911 calls can be integrated into the CPAS system 
with a slightly lower priority than the Federal and State 
rescue workers, and still make sure the 911 calls get through 
to the PSAPs, and not affecting those people who were also in 
need.
    We are urging, now that that system is up again for review 
and hopefully implementation, that 911 be considered as a 
portion of that system, and we stand ready technically to help 
them work through those issues as well.
    I also want to point out that there is a group of unsung 
heroes in all of this. We have talked about carriers, and the 
events of the 11th have certainly highlighted those heroes that 
are the responders, but there sits another group, and that is 
that group that is at the other end of the telephone when 
somebody calls 911 for help.
    Those people need to be recognized. Their frustrations and 
their hardships need to be addressed. They need to know that 
you are finding for their good, because this is what it is all 
about. They are the connection for those who need public 
safety. They are the connection for those who need response. 
Many times, they are the connection that makes a difference 
between life and death.
    We thank you for your time, and we certainly stand ready to 
answer any questions you have.
    [The prepared statement of Mr. Melcher follows:]
   Prepared Statement of John R. Melcher, Deputy Executive Director, 
              Greater Harris County Emergency 911 Network
    Mr. Chairman and members of the Committee, thank you very much for 
providing me the opportunity to appear before you today. My name is 
John Melcher, and I am the Deputy Executive Director of the Greater 
Harris County Emergency 911 Network. Our Network is the third largest 
911 system in the country and provides emergency number service to 
approximately 4.2 million citizens in the Houston metropolitan area. In 
addition to representing our Network, I am here today on behalf of the 
National Emergency Number Association (NENA) as its First Vice-
President, as well as the Association of Public-Safety Communications 
Officials-International, Inc. (APCO), and the National Association of 
State Nine-One-One Administrators (NASNA). Collectively, these 
associations represent state and local government emergency 911 
communications centers (also known as ``Public Safety Answering 
Points'' or ``PSAPs'') throughout the country. The three Associations 
and their members have worked tirelessly to promote wireless enhanced 
911 capability, and I am proud to be here today on their behalf and on 
behalf of the approximately 7,400 PSAPs, over 100,000 call-takers, and 
thousands of 911 PSAP managers across the United States.
    On September 11, NENA, with support from APCO, NASNA and many other 
public and private interests, released its first Report Card to the 
Nation (RCN), the first nation-wide effort ever conducted by the public 
safety community to analyze the factors that make 911 successful today, 
and will make it successful tomorrow. The RCN reports that more than 
190 million telephone calls are made to 911 each year, or over 500,000 
calls each day.
    Since over 97% of the nation's population is covered by some form 
of 911, I think that it is accurate to report that 911 has become part 
of our culture and adds to our quality of life. Generally, the American 
public both depends upon, and holds in good standing, our emergency 
communication systems. Indeed, the RCN notes that nearly 75% of the 
national population characterizes the system as either good or 
excellent. In terms of the ``report card,'' that's a good grade, but 
serious challenges remain.
    Technology is creating both opportunities and obstacles. Of the 190 
million 911 calls to which I just referred, over 50 million of those 
are wireless calls--and, that number is growing. The Cellular 
Telecommunications and Internet Association (CTIA) estimates that there 
were nearly 110 million wireless telephones in the country by the end 
of last year. Wireless calls to 911 represent approximately 27% of our 
national 911 call volume, and that percentage is much higher in many 
metropolitan areas. In fact, the Harris County Sheriff's Department, in 
Houston, Texas, reports that wireless calls to 911 now exceed 50% of 
their total call volume. That means over half their emergency calls-
for-service lack the features of an enhanced 911 system.
    Quite frankly, according to the Report Card, the grade assigned to 
wireless 911 is incomplete. While wireless carriers are mandated to 
provide the services that the American public has come to expect--what 
we call ``Enhanced 911''--they have not begun to do so and most will 
clearly fail to meet the FCC's October 1 deadline.
    A little over ten years ago, nearly all incoming 911 calls to PSAPs 
were from wireline telephones, and most provided the call-taker with a 
call-back number (Automatic Number Identification or ANI) and automatic 
location information (ALI) for the caller. Additionally, 911 calls are 
selectively routed to the appropriate PSAP that responds to the calling 
party's location. The provision of ANI, ALI and selective routing is 
known as Enhanced 911 or E-911. Armed with this information, the 911 
call-taker can quickly and accurately dispatch police, fire, ambulance 
and other appropriate public safety agency personnel to emergency 
locations.
    Historically, however, that's not been the case with a mobile 
caller. The mobile nature of the service inherently makes the delivery 
of enhanced 911 more difficult. And, without accurate location 
information for such calls, the 911 call-taker must make a verbal 
inquiry regarding the caller's location--generally, a lengthy 
investigation, thus adding to the time that must be spent on each call, 
and slowing down response time by precious minutes, sometimes hours. 
All too often, wireless 911 callers do not know exactly where they are, 
or they are unable to describe their location with sufficient clarity 
or accuracy.
    Just a few weeks ago, Sean Cospel died when his car ran off a cliff 
near Bear Mountain in New York. His buddy Jason Learn called 911 from 
his cell phone. Almost six hours after his first call, Jason was able 
to flag down a motorist on Route 9W after crawling 400 feet up a 45 
degree embankment, while suffering from a concussion and a broken arm. 
Reportedly, he could hear the New Jersey State Police helicopter 
searching while his friend lay dying. In other cases, callers hang up, 
or their wireless calls are ``dropped'' before they can provide 
necessary information regarding the emergency or its location. These 
problems are every day occurrences in PSAPs across the nation, and 
every night countless dispatchers continue to wake up in a cold sweat.
    Even when wireless 911 callers can provide accurate verbal 
descriptions of their locations, the absence of location information 
can still wreak havoc with a PSAP's ability to respond efficiently to 
emergencies. For example, it is not at all unusual for some of my 
largest agencies (averaging 4,000-5,000 calls a day) to receive up to 
50 or more calls reporting the same automobile accident. Finding such 
an emergency is not the problem. The problem is that we don't know in 
advance that those calls are all about the same event, and we therefore 
need to expend scarce resources to answer each and every call. In the 
meantime, the PSAP's incoming lines can become clogged and we run the 
risk that there may be another caller waiting in line to report an 
entirely different emergency.
    These two conditions--lengthy investigations to determine location 
and numerous calls on the same incident--have stressed and taxed the 
nation's dispatchers and call center managers beyond imagination. 
Unintentionally, and unfortunately, these dispatchers and call-takers 
are giving air traffic controllers a real run for their money in the 
stress department. Trust me, these are bragging rights we'd rather do 
without.
    Fortunately there are major efforts are underway in our community 
to address these serious problems, though much more is still to be 
done. Nearly ten years ago, APCO, NENA, and others identified wireless 
E-911 as a critical issue and brought it to the FCC's attention. My own 
state of Texas and the Associations I'm representing today, among 
others, were a major part of that effort. The Commission responded with 
an appropriate proceeding that began in 1994, and resulted in rules 
adopted in 1996. Today--over five years later--we still do not have 
wireless Enhanced 911. In our RCN report, we estimate that less than 
50% of the nation's population enjoys the first level of wireless 911 
service, or Phase One. Fortunately, that figure is growing. Still, we 
await Phase Two.
    Which brings us to the most important of missed deadlines. October 
1, 2001, was not the starting point we envisioned for so many years. 
Implementation of Phase II of the FCC rules is now further delayed. Not 
one PSAP has actually begun to see the real benefits of wireless E-911.
    Many wireless carriers have fallen behind this schedule and have 
been granted waivers to the deployment and accuracy requirements 
involved. Some appear to be trying to proactively minimize the impact 
of their waiver requests. It is perhaps an understatement to say that 
the waivers are quite troubling to the public safety community. A great 
deal of time has been spent on adopting and implementing wireless E-911 
rules--time and effort spent by all parties, both public and private.
    The requirements in the FCC's rules are clearly achievable. The 
technologies available today to locate mobile callers may not be 
perfect, but they have demonstrated the capability of meeting the FCC's 
standards. Sure, something better will always come along tomorrow. But 
the public safety community is seriously concerned that if we keep 
delaying present performance based on future promise, we will never 
have anything workable upon which to improve. We simply cannot allow 
``the perfect'' to be the enemy of ``the good.'' When was the last time 
your mobile call was dropped due to a failed cell-to-cell hand-off? Are 
all of your calls perfectly clear? Carriers have never waited on 
technology to be absolutely perfect prior to its deployment, why are 
they waiting now? While we acknowledge that there are many factors that 
affect deployment today, it's time to move on.
    Of course PSAPs also have a responsibility for making wireless E-
911 a reality. 911 communication centers must have call processing 
equipment capable of receiving and utilizing the location information 
involved. That also includes the ability to process geographic based 
data, though the latter does not necessarily imply the installation of 
sophisticated Geographic Information Systems (GIS). Ultimately, how a 
911 call is processed is truly the responsibility of the public safety 
community.
    The bottom line is that many PSAPs are now or will soon be ready to 
receive and process Phase II or location information from wireless 
carriers. The APCO initiated, and now a joint APCO /NENA initiative, 
``Project Locate'' has identified 29 of its 50 model cities that have 
requested Phase II service. Those requests, along with others, include 
cities like Los Angeles, Kansas City, San Francisco, Chicago, Houston, 
Washington, DC, and Allen, VA. Other requests include counties and 
states like Spartanburg County, SC, Rockdale County, GA, Harris County, 
TX, Hamilton County, OH, St. Tammany Parish, LA, Stark County, ND, six 
counties in Oregon, Jackson County, MS, Gallatin County, MT, York 
County, VA, and the entire states of Connecticut, Rhode Island, 
Minnesota, and New Jersey.
    Of the nation's PSAPs tasked with taking wireless 911 calls, over 
75% are either capable, or in the process of becoming capable, of 
accepting Phase One call information from wireless carriers.
    Others, of course, are not as far along, either because of funding 
constraints or the need for local exchange telephone company network 
upgrades. Many, we're told, are reluctant to expend scarce resources 
for Phase II readiness until the carriers themselves demonstrate that 
they are proceeding towards Phase II deployment. The public safety 
community is working hard, however, to improve E-911 readiness on the 
part of all PSAPs, to say nothing of the public safety entities that 
have already placed requests. As I just described, the latter 
represents a significant population across this country. Those PSAPs 
are ready and so are the citizens they represent. Each day of delay 
impacts the lives of the dispatchers and of 911 callers!
    Much work remains to be done. The RCN identified over 230 counties 
that don't even have 911 service. Most 911 infrastructure in this 
country continues to ride on yesterday's analog technology. Switching 
systems are rarely redundant. New York City maintained their system 
through a catastrophic chain of events, but no one seemed to notice 
that they did not lose one single 911 call for service. Unfortunately, 
their system's redundancy is rare in our country.
    The challenges today are many for 911, and wireless is only part of 
that--though a significant part. Technology is expanding the way people 
communicate. The 911 calls of the near future will not be limited to a 
traditional telephone. Voice over the Internet, automatic crash 
notification via telematics devices, hand-held wireless products and a 
host of new and emerging communications technologies require our 
community to assess and address non-traditional access to emergency 
services. Our public will expect those efforts to occur in an effective 
and timely way. In the end, our common goal must be the ability to 
locate every 911 call, regardless of how it's placed. With so much work 
to do in these arenas, it's time to end the delays and start saving 
lives!
    There are those who would assert that wireless telephones are 
already providing valuable emergency access to 911, and they would be 
right. But what makes our country great is our natural tendency to 
raise our expectations when it comes to saving lives and reducing pain 
and suffering. The opportunity to use this technology to save lives is 
here today. It's at the doorstep of every American that uses a wireless 
telephone. I'm sure that this Committee agrees with that, and we 
welcome your support and encouragement.
    Thank you for the opportunity to testify on this extremely 
important subject.

    Senator Inouye. Thank you very much, Mr. Melcher. Now may I 
call upon Mr. Sewell.

      STATEMENT OF BRET SEWELL, PRESIDENT, SNAPTRACK, INC.

    Mr. Sewell. Mr. Chairman, members of the Subcommittee, good 
morning, and thank you very much for the opportunity to appear 
before you today. My name is Brett Sewell. I am the president 
of SnapTrack, which was founded in 1995 and is now a Qualcomm 
subsidiary. SnapTrack's mission is to develop and deploy 
ubiquitously a high performance, cost-effective location 
solution for the FCC's E-911 mandate. Today, I would like to 
summarize for you how our wireless assisted technology works, 
describe our field test results, and share our commercial 
deployment experience.
    Wireless-assisted GPS comprises distance measurement 
technology embedded in a wireless phone, and software 
centralized in the carrier's network. When 911 is dialed, 
ranges to GPS satellite and ranges to base station cell towers 
are measured in the phone and sent to the server. The server 
combines these range measurements and calculates the 
coordinates of the caller. The location information is then 
sent to the 911 public safety answering point, where it is used 
for efficient dispatch of police, fire, or ambulance 
assistance.
    The system operates effectively in all terrain, including 
rural and suburban areas, downtown urban canyons, inside 
vehicles, and indoors. In blocked areas such as large 
buildings, where GPS signals are weaker, or may not be 
available, the system weights the base station range more 
heavily, and is still able to reliably produce location fixes.
    Wireless-assisted GPS technology is air-interfaced 
independent. It can be deployed on TDMA, GSM, CDMA, iDEN, and 
third generation wireless networks.
    SnapTrack's wireless-assisted GPS technology has been 
extensively field-trialed worldwide. NTT DoCoMo in Japan began 
field-testing on its PDC network in Japan in 1997. PDC is 
Japan's version of TDMA. As you can see, DoCoMo's testing 
achieved accuracies between 4 and 44 meters, and including some 
very challenging indoor and downtown sites around Tokyo.
    In 1998, SnapTrack's GSM consortium field-tested a variety 
of sites in the U.K., Germany, France, Spain, Italy, and 
Holland. Accuracy results came in between 9 and 39 meters for 
that program.
    SnapTrack wireless-assisted GPS has been rigorously field-
tested on CDMA networks in the United States, Japan, and Korea. 
The field tests in this chart show accuracy ranging from 11 
meters in the outdoor urban site to 76 meters indoors in an 
office building and 78 meters in an underground parking garage.
    SnapTrack has openly licensed its wireless GPS technology 
to equipment manufacturers. Texas Instruments and Motorola 
licensed SnapTrack technology several years ago. Compaq 
Telecommunications, Nortel Networks, NEC Corporation and others 
have licensed our technology and some have already deployed 
products. After exhaustive testing, NTT DoCoMo deployed its 
DoCoNavE location service and this Denzo PDA palm computer 
became the first commercial SnapTrack product in January of 
2000. This is in commercial service in Japan today.
    Qualcomm and SnapTrack have invested thousands of person 
hours and over $1 billion pioneering a wireless-assisted GPS 
solution. About a year ago, Qualcomm started shipping the MSM 
3300 chip set. Two weeks ago we launched the MSM 5100 third 
generation chip set and a number of similar GSM and YBM CDMA 
chips are in development today.
    In addition to powering the phone's main communications 
functions, these tiny chips embed the GPS functionality.
    The MSM 3300 and the MSM 5100, as well as their third 
generation 1X and GSM wide-band CDMA successors fit into a 
wireless telephone like you see in this chart. With a device 
this small, there is no size or weight impact to the phone, and 
the device can be implemented at a very small incremental cost.
    In April of this year, SECOM, a Japanese security services 
company, deployed the CoCo SECOM emergency positioning service 
using this GPS terminal manufactured by Hitachi. This is not a 
cell phone. It is a data-only tracking terminal. It includes 
the same chip that I showed earlier.
    Here are a few other examples of production GPS-1 phones. 
This Samsung phone is sold here in the United States today by 
Sprint for about $150. This Denzo phone is also made to comply 
with the FCC's E-911 mandate, and currently over 50 other GPS 
phone designs are underway now. Several new models will be 
available in the United States, Japan, and Korea over the next 
few months.
    In summary, SnapTrack's wireless-assisted GPS technology 
works on all second and third-generation networks, and has been 
extensively field-tested. Trial results prove that the 
technology delivers high accuracy and reliability, surpassing 
the FCC E-911 requirements.
    The technology can be implemented at a very reasonable 
cost, and SnapTrack is openly licensed it to equipment 
manufacturers. Qualcomm and its partners are manufacturing a 
variety of phones, one of which is already available in the 
U.S. market. The technology has been commercially deployed in 
Japan with great success. SnapTrack and Qualcomm are eager to 
help enhance the safety of America's 100 million wireless 
subscribers. With this objective in mind, and given the facts I 
have presented to you today, SnapTrack and Qualcomm are 
confident that U.S. wireless carriers have what they need to 
deliver this life-saving 911 enhancement.
    Mr. Chairman, members of the Subcommittee, thank you very 
much for your time today.
    [The prepared statement of Mr. Sewell follows:]
     Prepared Statement of Bret Sewell, President, Snaptrack, Inc.
    Mr. Chairman and Members of the Subcommittee:

                            I. INTRODUCTION
    Thank you for the opportunity to appear before you today. My name 
is Bret Sewell. I am the President of SnapTrack, Inc., a small business 
located in Campbell, California and a subsidiary of QUALCOMM 
Incorporated. Since 1995, QUALCOMM, through SnapTrack and through its 
chip division, QUALCOMM CDMA Technologies, has worked to develop a 
wireless handset location solution to enable wireless carriers to 
deliver to the police and other public safety entities the most 
accurate and reliable possible information to locate wireless callers 
to 911.
    The message I want to leave you with today is this. My company's 
technology, which gives the police and other public safety entities the 
highest levels of accuracy to pinpoint the location of wireless callers 
to 911 (typically within 10 to 30 meters of the caller's location), has 
been extensively tested; is already deployed in Japan with great 
success; and, here in the United States, on October 1st, Sprint PCS 
began selling phones containing chips with this technology. Numerous 
other U.S. wireless carriers, including Verizon Wireless, ALLTEL, 
Qwest, and Leap Wireless, will also soon begin selling such phones. Our 
technology is the world's most accurate E-911 solution, and it is 
currently available for any U.S. wireless carrier to deploy. In fact, 
our technology will add only nominally to the cost of a wireless phone, 
and the technology will cost a carrier less to deploy than any other E-
911 technology.
    Our technology will enable the police to locate wireless callers 
with this high degree of precision whether the callers are located in 
rural, suburban, or urban areas, both indoors and outdoors. Our 
solution will work on all air interfaces (including CDMA, TDMA, GSM, 
iDEN and 3G networks) and produces levels of accuracy in excess of the 
FCC's accuracy rules. Finally, the technology has been openly and 
broadly licensed to wireless equipment manufacturers who can implement 
it in products for their carrier customers. Any U.S. wireless carrier 
could deploy our technology, no matter whether the carrier uses the 
CDMA, TDMA, GSM, or iDEN air interface. For these reasons, there is no 
need for the FCC to waive its accuracy rules. Any carrier could deliver 
the required level of accuracy by deploying our solution, and there are 
a number of vendors, including QUALCOMM and other companies who have 
licensed our technology, who could provide the necessary hardware and 
software to such a carrier.
    In the balance of this testimony, I want to describe how our 
technology works, the results of the testing and initial deployment of 
the technology, and provide a status report on my company's efforts to 
work with wireless carriers, handset vendors, infrastructure vendors, 
and others to ensure that the public enjoys vast benefits from this 
technology as quickly as possible.

                             II. BACKGROUND
    Let me provide you with some background information on my company 
and technology. SnapTrack has approximately 100 employees. We are a 
wholly-owned subsidiary of QUALCOMM, which has a total of approximately 
7,000 employees. In response to the FCC mandate, QUALCOMM and SnapTrack 
have been working for several years on developing an E-911 solution. In 
March 2000, QUALCOMM acquired SnapTrack. As a result of thousands of 
person-hours of effort, and over $1 billion in pioneering investment, 
QUALCOMM has developed a technology that integrates position location 
capability into the chip which goes inside a wireless phone.
    Here is how our technology works. The wireless phone contains a 
chip with GPS measurement capability integrated into the chip. When a 
caller calls 911, the handset takes measurements both from GPS 
satellites and the land-based cellular network. Software in a server 
connected to the wireless network synthesizes the two measurements and 
produces a precise location for the caller. If multiple GPS signals are 
not available because, for example, the caller is located indoors, our 
technology will still determine the caller's location because the 
handset will use the measurements taken from the land-based cellular 
network. This technique is manifestly more accurate and produces 
greater integrity than simply relying only on the measurements taken 
from the network or the GPS satellites alone.
    Our solution locates wireless callers with accuracy which exceeds 
that required under the FCC's accuracy rules, which requires accuracy 
of 50 meters for 67% of the calls. In most cases, we are producing 
accuracy within 10 to 30 meters, and in some cases, we can even 
pinpoint the location of a caller within just a few meters. The 
solution will only add nominally to the cost of wireless phones. Unlike 
other solutions, a carrier deploying our solution does not have to add 
any cell sites in order to achieve the required levels of accuracy. As 
a result, it will cost a carrier much less to deploy our E-911 solution 
than to deploy any other solution. Moreover, because the device with 
the position location capability is always under the control of the 
consumer, his or her privacy will be protected.

    III. OUR TECHNOLOGY HAS BEEN THOROUGHLY TESTED AND SUCCESSFULLY 
                                DEPLOYED
    As I mentioned at the outset, our technology has been thoroughly 
tested and successfully deployed. We have conducted tests in the United 
States, throughout Europe, and in Japan and Korea in urban, suburban, 
and rural settings, both outdoors and indoors. These tests have been 
conducted over the networks of carriers using a variety of air 
interfaces (CDMA, analog, GSM, PDC and PHS). In each test, the results 
have been that the technology has located wireless callers more 
accurately than is required by the FCC's accuracy rules. A summary of 
these test results is attached to this testimony. Recently, a U.S. 
carrier tested our technology and was able to locate callers with an 
average accuracy of 19.9 meters.
    Some carriers have suggested to the FCC that our technology will 
only work on the CDMA air interface because it depends on the wide 
channels used in CDMA wireless systems and that our technology will not 
work on air interfaces which use narrower channels, such as GSM or 
TDMA. This suggestion is inaccurate. We have tested our technology over 
the GSM and the PDC air interfaces, both of which use much narrower 
channels than CDMA. In Europe, we conducted tests over GSM networks in 
Paris, Bonn, London, Utrecht, and other European locations, and this 
testing even included cross-border roaming. Equipment vendors such as 
Texas Instruments, Motorola, CMG Telecommunications, Nortel Networks, 
and Siemens Information and Communications Networks also participated 
in these tests. The results of these tests over European GSM networks 
were that wireless callers were located more accurately than is 
required under the FCC's accuracy rules. These tests in Europe proved 
that our solution will work well over a GSM network, and therefore no 
GSM carrier here in the United States needs a waiver of the FCC's 
accuracy rules. Instead of obtaining a waiver of these critically 
important rules, U.S. GSM carriers could deploy our solution which 
meets the rules.
    Likewise, we have tested our technology extensively in Japan over 
the wireless networks of NTT DoCoMo, and another carrier, both of whom 
use the PDC air interface. PDC is very similar to the TDMA air 
interface used here in the United States by AT&T Wireless. Wireless 
networks built on both PDC and TDMA both use narrow channels. Our 
technology performed quite well over the PDC air interface, again 
determining the location of wireless callers more accurately than is 
required under the FCC's accuracy rules. In these tests, wireless 
callers could be located within 4 to 44 meters using our technology.
    But, our technology has not just been tested. Rather, it has 
already been commercially deployed in Japan with great success. In 
early April 2001, a Japanese security company by the name of SECOM 
initiated a new service by which subscribers can locate and direct 
emergency assistance to individuals who carry a device containing a 
QUALCOMM MSM3300 chipset, which uses the technology I have described, 
and which operates over KDDI's cellular system in Japan. This device 
enables someone who is in trouble to send a signal over the cellular 
system to the security company, which can determine the person's 
location using our technology and then to alert the nearest police 
station. These devices are small, as you can see, and they are very 
easy to operate.
    The initial results from this deployment showed the enormous public 
demand and need for these highly accurate location services. In the 
first two weeks of SECOM's service, they received 70,000 orders for the 
service and shipped 10,000 units (all the units they had in stock) to 
subscribers. In that same two-week time frame, the service was used 
75,000 times to determine subscribers' locations. In the first few 
days, a SECOM security guard was able to locate a little girl who was 
lost in a large park in Osaka. The public safety benefits from this new 
service are substantial and will increase exponentially as new 
subscribers are added.
    Our technology has also been deployed since January 2000 over NTT 
DoCoMo's PDC cellular network through a service by the name of 
DoCoNavi. This service allows users to download location information 
into a personal digital assistant made by DENSO (the Naviewn) over 
DoCoMo's PDC network.
    Thus, our technology is working well today in Japan, and American 
wireless carriers, such as Sprint, Verizon, Qwest, ALLTEL, and Leap, 
are in the midst of their deployments. By working with wireless 
carriers, our handset vendor customers, and other vendors, we can and 
will bring this life-saving technology to millions of Americans to 
improve their safety.

 IV. QUALCOMM'S PRODUCTION OF CHIPSETS AND SOFTWARE TO ENABLE WIRELESS 
   CARRIERS TO DEPLOY WIRELESS ASSISTED GPS TO MEET THE COMMISSION'S 
          ACCURACY REQUIREMENTS AND THE COMMISSION'S DEADLINES
    QUALCOMM does not make wireless phones; instead, we have licensed 
our CDMA technology to all of the major handset vendors around the 
world and to the other major manufacturers of chips for wireless 
phones. QUALCOMM also makes chips which we sell to handset 
manufacturers, and we produce the software which is necessary for our 
position location technology to work.
    QUALCOMM and its handset vendor partners are on track in producing 
2G wireless phones containing QUALCOMM's MSM3300 chipsets, the first 
chipset which allows handset manufacturers to make 2G wireless phones 
incorporating QUALCOMM's position location technology to meet the FCC's 
E-911 mandate. QUALCOMM delivered MSM3300 chips, and on October 1st, 
Sprint began selling phones containing these chips, and additional 
models of phones with these chips will soon be available. I have 
brought with me to today's hearing a production Denso wireless phone 
containing an MSM3300 chipset. You can see that the phone is no larger 
or bulkier than the typical wireless phone.
    In addition, we have developed chips incorporating both QUALCOMM's 
3G technology and our E-911 solution. The 3G technology, which we call 
cdma2000 1x, is important because it will double the voice capacity of 
the wireless networks on which it is deployed and substantially improve 
the coverage of the cell sites on these networks, which should 
drastically reduce if not eliminate dropped calls. In addition, this 3G 
technology will allow much longer battery lives for wireless phones to 
reduce the chance that someone who needs to make a call in an emergency 
will be unable to do so because the phone's battery is dead. This 3G 
technology will enable users to send and receive data at very high 
rates (up to 307 kbps) over wireless phones, much faster than most 
Americans can today with their desktop computers.
    Since April 2001, we have been shipping samples of this new 
chipset, the MSM5100, to handset manufacturers, who have been hard at 
work designing and testing phones incorporating the samples, and last 
Thursday, October 11th, we announced that we have begun making 
production shipments of these chips to our handset manufacturer 
customers so they can produce phones and other devices with this 
advanced chipset. In fact, these manufacturers are developing more than 
50 products which will incorporate the new chipset. We now anticipate 
that there will be 5100-powered handsets, with both E-911 and 3G 1x 
capabilities, commercially available in the United States before the 
end of 2001. Thus, without any additional spectrum, U.S. wireless 
carriers who have opted to deploy cdma2000 1x and our E-911 technology 
will be able to deliver both 3G high speed data services and highly 
accurate and precise E-911 service consistent with the FCC's mandate 
beginning in the next two months.
    In addition to Qualcomm's chipset implementations of SnapTrack 
technology, Texas Instruments and Motorola have licensed our Wireless-
Assisted GPS technology. These two companies produce the vast majority 
of the chips for GSM and TDMA phones. In fact, with Qualcomm, Texas 
Instruments and Motorola, a majority of the world's suppliers of 
wireless handset silicon and chipsets have access to our cost 
effective, high performance E-911 technology, which will work on all 
wireless air interfaces.
    We are very excited that Sprint PCS, Verizon Wireless, ALLTEL, 
Qwest, Leap Wireless and other carriers are in the midst of deploying 
our E-911 technology, and we are working with our handset vendor 
customers, infrastructure vendors and other necessary equipment and 
services, and the carriers themselves to ensure that the deployment 
occurs as soon as possible and as efficiently as possible. In 
particular, we have been sensitive to the needs of wireless carriers, 
especially the smaller wireless carriers, for technical assistance 
which they may need in deploying our technology and operating their 
networks once the technology is deployed. In their filings with the 
Commission, numerous carriers stated that they were interested in a 
``turnkey'' solution for E-911 service.
    To this end, we recently announced that SnapTrack has entered into 
an agreement with a company by the name of TechnoCom Corporation. 
TechnoCom is the country's premier wireless location system deployment 
and integration firm. Under our agreement, TechnoCom is the preferred 
field-test, engineering, and integration contractor for carriers and 
original equipment manufacturers for the implementation of our E-911 
technology over wireless systems in the United States. TechnoCom will 
guide carriers through the deployment and provide ongoing service 
assurance to maximize the performance of their position location 
service in a cost-effective manner.

                             V. CONCLUSION
    In conclusion, QUALCOMM, and its SnapTrack subsidiary, have 
followed through on their commitment to giving wireless carriers the 
tools they need to provide highly accurate E-911 service to protect the 
public and to enable the carriers to meet the FCC's accuracy rules and 
to meet the deadlines in the FCC's rules. We have developed a solution 
that works in all environments (urban/suburban/rural and indoors/
outdoors) and over all air interfaces. Our solution is ready to go. We 
were very excited to see Sprint's announcement on October 1 that their 
phones with our technology are now getting into subscribers' hands, and 
we can't wait for the other carriers who are deploying our technology 
to make similar announcements over the next few months so that the over 
100 million Americans who use wireless phones can, at long last, enjoy 
the added protection from enhanced 911 service.
    Thank you, and I would be happy to answer any questions.
                                 ______
                                 

                           Results of Testing QUALCOMM's Position Location Technology
----------------------------------------------------------------------------------------------------------------
                                                                                            Level of Accuracy
           Location of Test               Air Interface Used          Environment                Attained
----------------------------------------------------------------------------------------------------------------
Denver, CO...........................  Analog/CDMA............  Outdoors, Open.........  4 meters
San Francisco, CA....................  Analog/GSM/CDMA........  Indoors, Urban.........  45 meters
Tampa, FL............................  CDMA...................  Indoors, House.........  20 meters
Tokyo, Japan.........................  PDC/PHS................  Dense, Urban...........  18 meters
Madrid, Spain........................  GSM....................  Dense, Urban...........  37 meters
Washington, DC.......................  Analog.................  Urban Alley............  50 meters
----------------------------------------------------------------------------------------------------------------


    Senator Inouye. Thank you very much.
    Now may I call upon President Wheeler.

       STATEMENT OF THOMAS E. WHEELER, PRESIDENT AND CEO,

             CELLULAR TELECOMMUNICATIONS & INTERNET

                          ASSOCIATION

    Mr. Wheeler. Thank you, Mr. Chairman. You know, we have 
throughout this hearing been personalizing it with our own 
experiences, and maybe I should begin by personalizing things 
myself, because John Melcher made a reference. I am the guy 
that said we should sit down with the public safety community 
and develop a proposal to go to the FCC to enact into law. 
Having done that with John and his colleagues, we took this to 
the CTIA Board of Directors and they approved it.
    It was a very significant step, and I hope you appreciate 
what it represented, because at the time there was no 
technology that would accomplish this, yet we said, we will 
commit ourselves to go do that. At the time, there was no 
country in the world that had even considered doing this for 
their wireless phones.
    You just saw a presentation in Japan for one specific 
device that has now just been introduced. Nobody in the world 
has considered doing this across the entire embedded base. The 
wireless industry said, ``not only will we develop the 
technology, but we will go to the FCC and we will petition the 
FCC to make that a requirement so that we all have to do it.'' 
That is the environment into which this all has come.
    Now, there are a couple, I think, misconceptions that have 
been kicked around here this morning that I would like to 
address. Number one is the statement that October 1 was some 
kind of a ``missed deadline.'' October 1 is the starting line, 
not the finish line for E-911 Phase II. October 1 is when you 
are supposed to begin getting things going so that by December 
31, 2005 you will have a total program in place, and that will 
happen.
    The term waiver has been used. What the carriers have 
entered into with the FCC is a binding agreement that, as you 
heard Mr. Sugrue say, is enforceable. The agreements have 
benchmarks along the way, and they have quarterly reports along 
the way that say, ``I will have this many of my subscribers by 
this date, X number by this date, Y by the next, et cetera,'' 
so that there is a program that you have to complete--we will 
be compliant with the rules, period.
    And just to put it in perspective, what we are talking 
about accomplishing over the next several years is finding 
someone on the move, and working so that even when they go to 
another system in another city it will still work. We are going 
to do that in a couple of years.
    It took over 20 years to get half of the American people 
plain old wireline 911. We are dedicated to making this happen. 
We are moving ahead. We will make this happen.
    The carrier horse in this scenario is in the barn, if you 
will, but there are other issues that have not been corralled, 
let alone be put in the barn. The carriers provide the front-
end location information, ``here is where I am,'' but that 
information is about as useful as the proverbial tree falling 
in the forest with no one to hear it if there is not a back end 
that can transport and translate that into usable information.
    The report which you all had the Congressional Research 
Service do for you, and it was turned in about 2 weeks ago, 
said, ``It appears the necessary level of readiness for PSAPs 
to receive and process this information has not been 
achieved.''
    Now, let me stipulate right here that my goal is not to sit 
here and point fingers, cast aspersions, anything like this. We 
are in this together. My goal today is to go where Senator 
Wyden was going, and in the question he asked a few minutes 
ago, when he said, ``What do we need to do?'' Well, the 
technology has been developed, as you have heard. It is being 
deployed with enforcement mechanisms. Here is what else we need 
to do.
    Number 1, we need to know where these PSAPs are. There is 
not even an accurate count of how many there are, what their 
boundaries of jurisdiction are, or whether they are Phase I 
compliant. We need to have a simple kind of a survey, a 
directory. We can do that together.
    Number 2, we need to have a statewide plan. Senator Burns, 
Senator Wyden's bill S. 800, that you all have been 
referencing, in fact, said that there should be a statewide 
plan for the implementation of wireless E-911. I am sorry to 
say that the take-up on that has been rather timid. Let me give 
you the math of this for a second.
    If there are 6,800 PSAPs in the country, and there are five 
to nine wireless carriers for every PSAP, and then there is a 
local telephone company that has to interface between the two, 
you are talking about 8,000 negotiations that have to take 
place, 80,000 agreements that have to be reached. If we did 100 
a week, and with all due respect to the legal profession, 100 
agreements a week out of a team of lawyers is a great reach, it 
would take us 16 years. That is not acceptable. Why do we have 
50 statewide plans?
    The third thing that we can do to Senator Wyden's question 
is to test the technology before we roll it out. Let us roll 
out in a logical way. There are 104,000 cell sites in America. 
What we ought to have is a policy that says, ``Let us test it 
here.'' If John has got the infrastructure in Houston so that 
he can do it, let us test it there, and then let us roll it 
out. Let us not just suddenly dash everything out at once, then 
have to go through and do the fixes that we know we are going 
to find as things roll out, and let us, as a result, get it out 
faster than having to go back and constantly refix.
    There are a couple of other public safety issues that we 
need to address as they relate to 911 also in this hearing, and 
that again go to Senator Wyden's point about reordering our 
priorities. Reference has been made, for instance, to priority 
access. The Bush administration has asked for what is called 
``ruthless preemption.'' That means that when a national 
security official or emergency personnel wants to use their 
wireless phone, that they preempt anybody else's use.
    We have told the administration that we will work with them 
to deliver that, but let me kind of set up what that means, for 
instance, to 911. The typical cell site--and it is dangerous to 
use a word like ``typical,'' but you get the idea. A typical 
cell site can handle about 60 simultaneous calls.
    Now, in an emergency everybody is going for their phone. 
You saw that up here on the Hill on September 11. At least, my 
reports are everybody was saying they could not complete calls 
on the Hill because all the circuits were blocked. When 
priority access is added on top of that, there will be even 
fewer 911 calls that will get through. We are not saying do not 
do priority access, but we are saying, we have got to figure 
out a way to make these all work together, because there are 
consequences for every action.
    Now, one solution, and Mr. Chairman, we were before this 
Committee sometime ago, as you know, talking about spectrum. 
One issue is more spectrum. If there is more spectrum, there 
will be more calls that can be completed.
    It is going to be a while till we get through all the 
issues about the other spectrum the Government is using, but 
consider the fact that we are the only country in the world 
that limits the amount of spectrum a wireless carrier can use. 
By FCC rule, every wireless carrier is limited to only 45 MHz 
in their market. If you had access to more spectrum, you could 
complete more calls, including more priority access calls, 
including more 911 calls, including more calls to loved ones.
    We are the only country in the world that has that kind of 
a cap on how much spectrum you can have. A citizen of the U.K., 
Germany, France, Japan, go right down the list, has a greater 
chance of their emergency call going through than does a 
citizen of the United States because their carriers have more 
spectrum. That does not make any sense. We want to talk about 
thinking anew. Here is one way that we can think anew.
    There are other new ideas we need to look at real hard 
coming down the road. One of them is cell broadcast. It is an 
interesting concept, but it actually may turn around and have 
some unintended consequences. It has been proposed by a private 
organization that there be a type of emergency broadcast system 
for cell phones, that everybody in a specific area gets a call 
on their phone with a recorded message that says, ``hurricane 
coming,'' or some similar message.
    Now let us go back to what I was saying about 60 calls 
simultaneously per cell site. Imagine what happens in that kind 
of environment, when all of a sudden every phone in the whole 
area gets called, and then those people turn around and call 
and say, ``Oh my God, honey, do you know there is a hurricane 
coming.'' 911 calls cannot get through, priority access gets 
choked. We need to think our way through what seem to be really 
easy and quick solutions to things.
    Finally, I am sure that you were as amazed and dismayed as 
I was to pick up the Washington Post a couple of weeks ago and 
see on the front page an article that began by talking about 
how the rescue units at the Pentagon could not talk to each 
other, that the Montgomery County Fire Department could not 
talk to the Alexandria Fire Department, that they were using 
runners to communicate because their radios could not 
communicate with each other. The reason the radios could not 
communicate with each other is because the spectrum is so 
chopped up, and there are so many different technologies being 
used, that it was impossible for them to work.
    This Committee has said that 24 MHz of spectrum will be 
turned over to public safety out of the UHF Channels 60 to 69 
that has to be turned over by the broadcasters in 2006, but as 
you know, the broadcasters are not turning that over.
    There is a real challenge that we have in terms of how are 
we going to see that there is enough spectrum for public 
safety, and there are solutions to them that this Committee has 
jurisdiction over, and we would be happy to work with the 
Committee to help address them. All of these issues, I want to 
emphasize, are issues that we believe passionately in. 140,000 
times a day somebody uses their wireless phone to call for 
help, to save a life, to stop a crime, to help somebody in 
need, 140,000 times a day. It is the greatest safety tool since 
911.
    We want to make wireless even better. We are the ones who 
worked together to say, ``Let us come up with a system, let us 
go to the Commission, let us make it law,'' and we will deliver 
on that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wheeler follows:]
      Prepared Statement of Thomas E. Wheeler, President and CEO, 
           Cellular Telecommunications & Internet Association
    Thank you for the opportunity to appear before you today. I am 
Thomas E. Wheeler, President and CEO of the Cellular Telecommunications 
& Internet Association (CTIA) representing all categories of commercial 
wireless telecommunications carriers, including cellular and personal 
communications services (PCS).
    Thank you for inviting me here today to talk about this critical 
issue for the wireless industry, for consumers, and for the nation. 
Wireless carriers have long recognized the importance of providing 911 
service to the public. Wireless phones help ensure public safety on 
highways, in cities, towns, workplaces and neighborhoods. Every day, in 
the United States there are more than 120 million wireless users making 
more than 140,000 calls for help or to report an emergency.
    The challenges to implementing E-911 have proven daunting. But, the 
basic reality is that under Federal Communications Commission (FCC) 
guidelines adopted just two weeks ago carriers will deploy E-911 
pursuant to specific implementation timetables. My testimony reviews 
the history of the E-911 issue, revealing the difficulties inherent 
when regulatory standards precede the technology necessary to meet a 
standard. But, from today forward, the task at hand is clear--
implementing E-911. There are several aspects to the task, but they fit 
into a few categories.
    First, how carriers and the public safety community--the PSAPs--
will work together, and I emphasize together, to deploy E-911 
technology. Today, there are some basic problems. For example, a 
comprehensive survey does not exist that identifies which PSAPs cover 
what areas and their specific deployment plans, including whether they 
are Phase I compliant. This can and should be remedied. Other practical 
tools to roll out E-911 technology would greatly assist the effort--
model PSAP-carrier agreements, statewide implementation plans, and 
testing protocols are just some examples. This Committee has already 
directed the FCC to assist such planning, it did so when passing the 
Wireless Communications and Public Safety Act of 1999. Action is 
needed. Cooperation with PSAPs must also involve local wireline 
carriers--who must upgrade their networks to handle the additional 
requirements of delivering wireless location information to PSAPs.
    Another challenge for PSAPs is finding the financing to support 
technology upgrades. Sadly, while wireless subscribers contribute more 
than $700 million annually to support wireless E-911 services, some 
States have ``raided'' their E-911 coffers to cover budget shortfalls. 
California alone redirected $50 million of $70 million earmarked for 
wireless emergency services to its General Fund in July.
    Second, another set of challenges involves how carriers and the 
public safety community will work on other potential requirements or 
mandates. For example, the National Communications System has 
recommended a Priority Access requirement for the wireless industry. 
The wireless industry is already working on that task--complying with 
requests to give Priority Access to five hundred essential personnel 
within sixty days. But, if, as some have suggested, Priority Access is 
to be given to significantly more personnel, we could face a 
circumstance where Priority Access calls might actually prevent 911 
calls from going through. Mandated ``cell broadcast'' systems, in which 
wireless phones in a given area receive a message, also present the 
possibility that scarce wireless spectrum resources are shifted away 
from 911 calls. Cell-siting issues will also have to be addressed. All 
these point to the problem that this Committee knows well--wireless 
spectrum is in extremely short supply, and the artificial caps on 
spectrum ownership exacerbate the problem. More demands on the wireless 
network require more spectrum, it is just that simple.
    Third, spectrum shortfalls are also a problem for the public safety 
community. Despite Congressional direction, 24 megahertz in the 700 MHz 
band destined for public safety uses remains in regulatory limbo. 
Public safety personnel are in dire need for additional spectrum, 
interoperability of public safety communications is key and resolving 
the questions around the 700 MHz band is more important than ever.

                               BACKGROUND
    In 1996, the Federal Communications Commission adopted rules for 
enhanced wireless 911 service. Under Phase I of its plan, carriers were 
required to transmit the handset's phone number and the location of the 
cell site serving the caller to the public safety answering point 
(PSAP). Phase II E-911 requires wireless carriers to provide to the 
PSAP more precise location information (latitude and longitude) and 
callback capability.
    Although the Commission acknowledged that the technology required 
to locate wireless callers to emergency services did not exist in 
1996--indeed, was not even under development--it nevertheless set an 
extremely aggressive five-year schedule to begin implementation of 
Phase II of its E-911 plan. This implementation was to be completed by 
December 2005. Despite breathtaking estimates of the costs to deploy 
Phase II technology ($7.5 billion), wireless carriers immediately began 
the process of identifying vendors and analyzing the most efficient and 
effective means of meeting the Commission's deadline.
    Not surprisingly, given the aspirational nature of these 
requirements, there have been delays in satisfying the Commission's 
first Phase II benchmark. These delays have resulted from a confluence 
of many factors. First and foremost, the technology required to find 
callers within the Commission's parameters was never under the 
carrier's control and is only now becoming available. Wireless carriers 
in the United States will soon be Phase II capable. Two carriers 
representing almost 40% of wireless subscribers have committed to the 
deployment of technology covering all subscribers, not just new phones 
in 2002. It is notable that no other nation in the world has 
successfully developed and deployed the technology to pin-point a 
caller's location from a wireless device. Second, although PSAPs and 
the wireless industry share responsibility for the delivery of 
nationwide E-911 deployment, the public safety community must also work 
to upgrade PSAP facilities to handle the E-911 information sent by 
carriers. Finally, the Commission's E-911 regulations have undergone 
constant revisions since 1996, making it difficult for both the public 
safety and wireless communities to implement the daunting E-911 
requirements.

                         I. TECHNOLOGY CONCERNS
    When the Commission issued its first E-911 order in 1996, it 
expected that Phase II requirements would be implemented through a 
``network overlay'' solution. This solution permits callers to be 
located through triangulation of nearby cell sites (calculating 
distance by the time consumed for cell site-to-handset signal 
transmissions). Under the FCC's rules, a carrier using a network 
overlay must provide a level of accuracy within 100 meters 67 percent 
of the time.
    After manufacturers and carriers had analyzed the network overlay 
technology under development, some vendors proposed use of an 
alternative ``handset'' solution which promised greater accuracy. This 
solution often includes a Global Positioning Satellite (GPS) receiver, 
with triangulation performed using the satellite data in conjunction 
with data derived from the wireless network. Other carriers later 
proposed a hybrid solution, which uses both network and handset 
upgrades. In 1999, the Commission revised its rules to permit use of 
handset solutions, but imposed more rigorous accuracy requirements on 
users of this alternative--carriers must provide a level of accuracy 
within 50 meters 67 percent of the time and within 150 meters 95 
percent of the time.
    There are inherent technical challenges in both the network overlay 
and handset solutions. In most general terms, the network/triangulation 
approach does not work well in rural areas where there are fewer cell 
sites; the GPS approach does not work well in buildings and urban areas 
where the satellite signal may be blocked. In addition, the overlay 
solution requires the installation of additional antennas at most cell 
sites, which even in temporary testing scenarios generated considerable 
landlord and community opposition. GPS-assisted handsets still have not 
been manufactured in a quantity sufficient for retail use.
    Wireless carriers have not been passive or nay-sayers in this 
process. Every credible (and some not so credible) solution has been 
analyzed and field tested numerous times in joint carrier/vendor 
endeavors. Carriers have spent millions of dollars and thousands of 
hours in their search for the right technology. These real-world tests 
demonstrated, however, that until recently there was no Phase II 
solution able to meet the Commission's accuracy requirements and that 
no technology has been able to perform well across all environments. 
Even if the technology could live up the claims of its salesmen, 
moreover, carriers have found that when they place orders, the 
equipment has not arrived on schedule and the network infrastructure 
upgrades bog down almost as soon as they are started. Only now are 
technically feasible, complete solutions starting to become available. 
Wireless carriers are poised to take advantage of this very new 
technology and there is no doubt that U.S. consumers will be the first 
on earth to reap the benefits of Phase II E-911 service.

         II. WHAT IS NEEDED TO MAKE E-911 DEPLOYMENT A REALITY
    Our experience in deploying Phase I E-911 (call-back information) 
has demonstrated that three parties are essential to a successful 
resolution of the challenge of implementing Phase II: the wireless 
industry, the FCC, and the PSAPs. When the first wireless customer 
receives a location-enabled wireless phone, and when wireless carriers 
deploy handset and network-based solutions, the public is going to 
expect Phase II E-911 features and service wherever they roam because, 
to state the obvious, a wireless phone is a mobile device.
    While Congress wisely recognized the benefits of statewide 
implementation in the Wireless Communications and Public Safety Act of 
1999--and specifically instructed the FCC to facilitate the development 
of such plans--the Commission has done little to further the intent of 
Congress in those states that do not already have a comprehensive plan 
for E-911 deployment.
    With recent world events, an increasing reliance on wireless 
communication, and the public's expectation that dialing 911 from their 
mobile phone will deliver an effective and timely response, it is 
incumbent upon all States and their Governors to advance the Wireless 
E-911 process within their jurisdictions. Statewide procedures, 
standards and expectations for public and private sector cooperation 
should be developed. Updating and joining existing PSAPs with modern 
state-of-the-art technology will require an enormous coordinated 
federal-state partnership. Four steps that will lead to more timely E-
911 deployment readiness are as follows:
    Survey and Inventory all PSAPs. Today, after years of preparations 
for 911 and E-911 deployment, no one knows for sure how many PSAPs are 
in existence and their specific service areas. The wireless industry 
has identified in excess of 6,800 PSAPs in the United States. The 
National Emergency Number Association (NENA) has confirmed 5,000 
primary 911 Centers and 2,300 secondary 911 centers, but this does not 
include the multiple police and fire departments which field emergency 
calls every day. Nobody knows with precise accuracy exactly how many 
PSAPs there are, what geographic area they serve, or their operational 
status. Available data indicate less than a third of PSAPs have 
implemented Phase I. While there are one or two markets that are 
imminent to launch Phase II, none have done so to date. A survey and 
inventory of PSAPs should include: name of facility, geographic area 
and boundaries they serve, name and contact number of a responsible 
party at the facility, Phase I & II implementation status, and expected 
actions necessary to ready PSAPs for Phase I and Phase II deployment. 
It is important to do a survey and assessment to determine if PSAPs are 
E-911 Phase I, Phase II, or not ready at all.
    Establish statewide implementation plans. Creating a model PSAP-
carrier agreement could be the first priority for every state. Within 
any given State, there are significant inconsistencies from PSAP to 
PSAP and they are at varying levels of readiness and effectiveness. 
Public and private sector entities would benefit from common 
contractual understandings. These varying levels significantly impact a 
PSAP and/or wireless carriers' ability to implement Phase I and Phase 
II. States should work towards harmonizing PSAP readiness within their 
borders.
    Equally problematic in Phase II implementation is the lack of a 
standardized (or at least agreed-to) methodology to interconnect and 
process latitude/longitude information generated by the wireless 
carrier and translate it into a specific dispatch address. Even though 
a wireless carrier might have a standardized way in which it handles 
information throughout its network, a local PSAPs may not receive or 
handle the information the same way. This was a serious problem when 
only about 1,000 PSAPs requested Phase I capability; imagine what it 
will be like when 6,800 PSAPs decide they want Phase II.
    National guidelines may be beneficial to create uniform principles 
that would facilitate deployment and promote PSAP interoperability 
across State borders. There are already a number of States that have 
demonstrated significant success in implementing Phase I in the vast 
majority of their PSAPs. These States share many common hurdles and 
common solutions which could help states that are not as far along in 
this process. The elements common to statewide solutions are:

    <bullet> A central planning body within the State that manages 
financial, as well as implementation processes.
    <bullet> Technology neutrality--a must for operational, technical 
and financial solutions.
    <bullet> Cost recovery (funding mechanism) for both the carriers 
and the PSAPs should be in place.

    Each State should create a State E-911 Task Force comprised of 
representation from the public/private sectors, PSAPs, wireline and 
wireless carriers, to complete the survey, establish the requirements 
and develop the program for how 911 and enhanced (E) 911 will be 
delivered within the State. Centralized planning within each State, an 
established appropriate funding mechanism and appointing a State 
Director/Administrator of statewide 911 systems are the key factors 
that have contributed to early State successes. A State Director/
Administrator can do further assessment planning and build it into 
current deployment schedules. Statewide planning will most likely 
enable redundancy and interoperability among existing PSAPs to give a 
higher level of service in these times. Setting aside local concerns 
and giving guidance at the State level is necessary to achieve success.
    To get a grasp of the size of the task at hand, consider the 
following: there are over 6,800 PSAPs and 5 to 9 wireless carriers per 
PSAP area. This means that more than 34,000 contracts and agreements 
will need to be negotiated and finalized. A Statewide Director/
Administrator negotiating on behalf of all the States' PSAPs could 
dramatically minimize the number of contracts per State or Region and 
significantly speed up the process.
    This mirrors the congressional direction included in S. 800, the 
Wireless Communications and Public Safety Act of 1999, to implement a 
statewide plan for comprehensive deployment for E-911 amongst the 
public safety community.
    Test first, then roll out. State identification of at least a test 
location for the initial implementation, possibly a market that has a 
large number of carriers, offers important practical advantages to all 
sides. There are 104,000 wireless cell sites throughout the country. 
Deployment will require the loading or modification of software, 
hardware and possibly additional equipment. Rolling out these technical 
modifications in an ordered fashion is the most sensible approach--
hopscotching among the 104,000 wireless cell sites spread throughout 
the nation will be inefficient and ultimately ineffective. 
Programmatic, rational deployment will not only serve the citizens 
well, but will assist the wireless carriers that have significant 
technical issues to resolve. Enabling the service through a test market 
approach will identify roadblocks that can be eliminated before rolling 
out the service statewide.
    The enormity of the task has been identified; establishing a 
rational roll out schedule for deployment and maintaining the schedule 
will facilitate a wider area and more people receiving the capabilities 
of the service in the timeliest fashion.

      III. PUBLIC SAFETY COMMUNITY LACKS STATE FUNDING COMMITMENT
    There is no doubt that the nation's PSAPs face incredible 
challenges in their daily support and delivery of life-saving services. 
One of these challenges is financial. Although wireless subscribers 
contribute approximately $700 million a year to support wireless E-911 
service, this money is not always provided to the PSAP serving the 
subscriber's home market. For example, as the New York Times recently 
reported, because New York City and Long Island operate their own 
emergency 911 systems, they do not share in the over $40 million raised 
by the state through consumer surcharges.
    Worse still, some states have ``raided'' their E-911 coffers to 
cover budget deficits. In California, for instance, more than $50 
million dollars earmarked for PSAP implementation of E-911 was diverted 
this year to close gaps in the state budget. North Carolina similarly 
decided to spend millions of E-911 dollars on other, unrelated matters. 
Consumers' ability to benefit from emergency location information would 
be greatly enhanced if PSAPs had access to, and could prioritize the 
use of, the hundreds of millions of dollars being collected from 
wireless consumers.

                IV. IMPLEMENTATION GUIDANCE HAS CHANGED
    While we must all move forward, we believe it is important to 
understand that since the FCC first adopted its E-911 rules, the 
implementation process has been a moving target. Over the past few 
years, the Commission adopted then eliminated the cost recovery 
requirement for wireless carriers, modified the rules on cost 
allocation, imposed a signal scanning requirement on analog phones, and 
increased the location accuracy requirements for Phase II service. The 
Commission is currently considering--for the second time--whether to 
require call back capability for a wireless phone not assigned to a 
subscriber.
    Cost Recovery. In 1996, the Commission stated that a wireless 
carrier's obligation to implement E-911 service was contingent upon the 
adoption by each state of a cost recovery mechanism. The Commission was 
aware that the costs of deploying Phase I and Phase II E-911 service 
were going to be enormous, and it wanted to ensure that recovery 
proceeded in the most efficient and effective manner possible.
    Nonetheless, three years after it adopted this policy, the 
Commission repealed it for wireless carriers. Its action eliminated the 
states' incentives to adopt or retain cost recovery mechanisms, leaving 
wireless carriers in many areas to recover their implementation costs 
in whatever manner they could. As a result, negotiations between PSAPs 
and carriers, which previously had been focused on facilities 
deployment, foundered over questions of cost allocation.
    Cost Responsibility. Although the Commission abandoned its cost 
recovery rules in 1999, it continued to emphasize that PSAPs must pay 
for all the upgrades and facilities required to receive and utilize the 
data elements associated with Phase I service. Recently, however, the 
FCC revisited this issue, and shifted the responsibility for paying for 
certain network and database components from the PSAPs to the wireless 
carriers. This decision has created much concern among wireless 
carriers because they do not control the parts of the E-911 network for 
which they are now responsible, and hence they cannot determine the 
number of trunks needed by, or influence equipment choices of, the 
PSAP.
    Other challenges evolve from the fact that E-911 technology 
involves not only wireless carriers and PSAPs, but local wireline 
carriers. For example, some technology challenges involving the 
Automatic Location Information (ALI) database are the result of the 
interconnection among PSAP, ALI database and carrier. For wireline E-
911 applications, it is a one-time inquiry--PSAP checks ALI database 
and gets the caller's address at the initiation of the call. But, in 
the TIA standards-setting process, the wireless industry and PSAPs had 
to determine solutions that went beyond this capability--to get 
continuous inquiry into a wireless caller's location, not just a one-
time inquiry at the start of the call. This is necessitated by the 
mobile nature of wireless communications. This ``continuous-inquiry'' 
functionality, requested by PSAPs, supported by the wireless industry, 
requires upgrades to the local wireline carriers interface with the ALI 
database.
    Accuracy Standards. The FCC sometimes at vendor requests has 
changed the location accuracy requirements so that the standard upon 
which the PSAPs and the wireless industry agreed was never a stable 
platform for technological development. Although the Commission said 
that it did not want its rules to hamper the development and deployment 
of the best and most efficient technologies and systems, and that its 
goal was to encourage the broadest possible range of technical 
solutions to be employed to achieve Phase II compliance, in late 1999, 
the Commission adopted Phase II accuracy requirements that differed 
based on the technology selected by the carrier. These new rules 
imposed higher accuracy levels on handset-based technologies than on 
network-overlay solutions for E-911 service.
    This approach resulted in a flurry of requests for waiver of the 
handset accuracy requirements from carriers that believe that handset 
or hybrid technologies provide the best solution for their customers.
    Non-Initialized Phones. In 1997, the Commission reversed its 
initial ruling and required wireless carriers to pass all 911 calls to 
PSAPs, even from handsets that are not registered for service with any 
wireless provider (``non-initialized phones''). At the time, the 
Commission acknowledged that call back capability might not be 
available for these handsets because they have not been assigned a 
dialable number. In May 2000, the Commission asked parties to comment 
again on the call-back issue. In response, virtually every wireless 
carrier explained that there is no viable technical way to provide call 
back service for non-initialized handsets. CTIA noted that mandating 
call back capability for all non-initialized phones would require the 
development of ``parallel call delivery systems,'' the costs for which 
would exceed those for Phase I and Phase II implementation combined.
    Despite the overwhelming record evidence and the FCC's own 2000 
conclusion, in May 2001 the Commission asked whether carriers or 
manufacturers must develop the capability to enable PSAPs to return 
calls from non-initialized phones. If the Commission were to adopt such 
a rule, this would obviously divert carrier resources from Phase I and 
Phase II implementation.
    The constantly changing technical and regulatory landscape has 
delayed implementation of E-911 service. Carriers and public safety 
officials cannot complete negotiations over the deployment of E-911 
systems as long as regulatory obligations and technical requirements 
are in flux. The uncertainty created by the lack of firm rules has 
deterred all parties from making the huge financial and time 
commitments necessary to bring E-911 service to the nation.
    The wireless industry is proud of its role in promoting public 
safety. While widespread E-911 deployment is a priority for wireless 
carriers, the industry's efforts have been impeded by underachieving 
but highly touted technology, evolving technological and regulatory 
requirements, and a lack of public safety readiness. I firmly believe, 
however, that the process of bringing the benefits of E-911 to the 
public have been hastened by the certainty the Commission created two 
weeks ago when it approved some of the larger wireless carriers' E-911 
implementation plans. Much still needs to be done by all parties to 
this effort--the FCC, the wireless industry, the technology suppliers, 
and the PSAPs--but for the first time since 1996, it appears that our 
common goals are achievable.

    Senator Inouye. Thank you very much.
    Senator Wyden.
    Senator Wyden. Thank you very much for your thoughtfulness, 
Mr. Chairman. That was an excellent panel. Let me see if I 
might just ask a couple of questions.
    I think Tom Wheeler made a number of points. I tried to 
tick them off. Certainly I support those, the question of the 
PSAP survey and the State plan and the like, and I think what I 
want to do is sort of walk from where we are now to essentially 
those kinds of issues.
    Tell me, if you will, this panel, what specifically has 
changed already since September 11? If we are going to set 
about the task of reordering our priorities, I think it would 
be helpful, and we could just maybe go down the row. I think it 
would be helpful to have on the record what exactly has changed 
thus far in this area.
    Where we all agree, when this panel agrees we are going to 
have to have a partnership between the private sector and the 
public sector to get it done, what has actually changed since 
September 11? Let us maybe go down the row. Start with you, Mr. 
Amarosa.
    Mr. Amarosa. Senator, I think what you are seeing is an 
emphasizing of what the actual needs are to locate people, the 
needs of wireless communication in these types of situation, 
which I think we have all agreed to, and I think it just shows 
the heightened personal security we all seek in this country 
after the events of September 11, and I think this is a 
mechanism that can do that. It is a mechanism that can support 
the needs of the public safety community and of the wireless 
industry to get the calls through and to get the expedited 
response to those locations very, very fast.
    Senator Wyden. But with all due respect, we knew before 
September 11 what the needs are. I want each one of you, to the 
extent you can, to set out on the record what has changed since 
September 11 in terms of getting this done, because under the 
leadership of the Chairman and Senator Burns, who have been at 
it, and I have been Senator Burns' junior partner, so to speak, 
on this for sometime, if we are going to get it done we need to 
know, at least to me, what has changed since September 11.
    Ms. Hansen, maybe you want to give us your sense.
    Ms. Hansen. Well, initially the influx of people moving to 
the State of Montana.
    [Laughter.]
    Ms. Hansen. Secondly, and more importantly, the additional 
calls for service received, the volume has significantly 
increased in public safety answering points in our State as 
well, and in other communities, from what my colleagues and I 
are sharing.
    What we are doing as far as changes, recognizing the need, 
we have recognized the need for many years. Since the inception 
of wireline 911, equally important to wireless services, we 
have to be innovative and think outside of that box. Urban 
search and rescue teams, we had to plan for no communication 
ability. That is similar to every PSAP in this country, let 
alone in rural areas, where we have a lot of challenges in and 
of themselves.
    From the public safety standpoint, again the influx, 
putting us in the position of having to wait, puts us again in 
the position of having to take care of it on our own, and that 
puts tremendous pressure, as John Melcher mentioned, on the 
public safety dispatcher, the call-taker, as far as the stress 
levels and the turnover in our industry. We were working, 
however, with a number of the rules with the FCC and local 
carriers.
    I would like to mention incredible work done by Western 
Wireless in particular, with some groups within Montana, in 
trying to think of innovative ways to roll out technology and 
still follow the rules.
    Senator Wyden. After September 11, Western Wireless got 
together with you, and said, ``We have got to speed this up.''
    Ms. Hansen. We have got to speed this up. It was a call to 
me. We have had exceptional working relationships prior to 
September 11, but afterward my question to them was, if we are 
not a model community of things like APCO, Project Locate, and 
found within parameters and strict constraints of rules, 
typically it was an all-or-nothing event. Either you meet this 
deadline with this type of result, or you do not get anything.
    We in rural areas especially will take 100 meters. We will 
even take 1,000 meters. Just roll it out today, let us try it.
    The State of New Jersey, if you were to deploy today, we 
would learn something in rural areas, in urban areas alike, and 
we would move forward with embracing the technology and 
completing that finish line probably sooner than what is given 
in these extensions.
    Senator Wyden. I think you heard when I questioned earlier 
I very much share that view. You are always going to have a 
better computer, you are always going to have a better 
mousetrap. That is not a case for not getting out this life-
saving technology right away, while you advance it, so I am 
glad to see you can give us an example, at least with Western 
Wireless, of somebody after September 11 who said, ``We have 
got to do more.''
    Mr. Sewell.
    Mr. Sewell. Yes, Senator. What has changed since September 
11, I will make a couple of observations. Firstly, obviously, 
the tremendously heightened sensitivity to public safety in 
general, which I think further underscores the importance of 
implementing the guidelines that a lot of work has gone into 
over the last few years, but the one important thing that I 
think has changed is we now see the first results of an effort 
that started in 1996, championed by the FCC, supported by the 
wireless industry manufacturers and technology providers, which 
is the first product that can actually do what is being asked 
here.
    So we are hoping that there will be more of this, of 
course, but today a subscriber can buy a cellular phone at a 
reasonable cost of $150, which provides accuracies that are 
well within the mandate, and if that is testament to what can 
be done by one carrier and one manufacturer, we are hopeful 
that others will follow and keep everything on track as we move 
ahead.
    Senator Wyden. Mr. Melcher.
    Mr. Melcher. I think in direct response to your question it 
is a matter of consciousness, and with that consciousness, a 
new consciousness comes of reprioritization. There are State 
legislatures, and unfortunately our own State legislature did 
not appropriate all of the funding that it collects for 911 to 
the State 911 commission which handles most of the rural part 
of the State in the last session of the legislature, and I 
believe they are going back to readdress that as a result of--
at least there are those who are advocating they do that.
    I know there are other examples throughout the country, and 
trying to speak from a national perspective, it is a matter of 
priority. 911 has always been at the forefront of 
consciousness, thanks to William Shatner and others like that. 
911 is somewhat ubiquitous, but what people do not understand 
is what happens behind the scenes. I think since the attacks on 
our nation there has been a little bit more attention paid to, 
if not significantly more attention paid to what 911 is really 
all about, and the complex components that make it up.
    I mentioned earlier it has really been a State and local 
implementation issue until recently, when Federal mandates like 
wireless and others have come to the forefront.
    Another significant change, and I think this is incredible 
and we need to expand upon this, is disparate interests have 
always been a bit of a problem for us. There has been a vendor 
versus vendor, network-based location is better than handset 
assisted location, this carrier solution than this carrier 
solution, this public safety agency is a better example than 
that public safety agency. I think we are seeing less of that 
as a result of the attacks, and I think we are seeing more of 
a, we have got to hold hands and get this done.
    We, I believe, must--to bring this thing forward, I think 
we must capitalize on that momentum, and I believe that your 
own efforts by having this hearing today and other efforts you 
have done, especially other members of your panel have been 
participating in press conferences and meetings, and State 
hearings and the like, have drawn a focus and a consciousness 
that was taken for granted before September 11. Now it is no 
longer taken for granted, and that is a very, very important 
asset to the public safety community. Now we must get our act 
together to make sure that we are working together as a 
community to come to you with what our needs are, articulate 
them very well, delineate where our disparities are, ask you 
for the help that we need, and work with our colleagues and our 
fellow team members in making this a reality.
    Mr. Chairman, I brought you a T-shirt, actually all the 
members of the Committee will get one, but we could not bring 
packages in because of the new restrictions that--you were in 
the meeting this morning. I brought you a T-shirt, actually two 
over here, one of them is from my colleague, Mr. Bradshaw in 
San Francisco, and it is an American flag that says, ``United 
We Stand,'' and that is truly the position of public safety 
telecommunications today.
    The other T-shirt I brought you is with respect to wireless 
911. An operator answers the phone and says, ``What is your 
emergency.'' The caller says, ``There has been a terrible 
accident.'' The operator queries what is the location, and the 
caller says, ``Latitude 30.428 West, longitude 90.328 North,'' 
and the call-taker says, ``huh''?
    The actual ability to make wireless location a reality is a 
team effort. It requires the efforts of public safety, it 
requires the efforts of the vendors, who cannot cat-fight with 
one another any more, it requires the efforts of the carriers, 
who must recognize their responsibility and make good on the 
promises we have committed.
    We appreciate those deathbed conversions, and we appreciate 
those that have been working very hard for a long time. I 
believe the team effort, this kind of focus and a 
reprioritization is the benefit we have seen since the 11th.
    Mr. Wheeler. Three things I think, Senator Wyden. Number 1, 
just by result of the calendar, the FCC's rules have gone into 
place with enforcement action, and with a deliverable schedule 
for the technology.
    Number 2, and specifically in regards to the kinds of 
tragedies that happened on the 11th, was an increase in demand 
for various innovations such as the ``ruthless preemption'' 
priority access that I was talking about that will have an 
impact on 911. We have to figure out how to make it work.
    In essence, what has happened is, we have been asked from 
the wireless industry standpoint to do more with less, to 
provide more connectivity without more spectrum, and that runs 
into the laws of physics.
    But the third thing is I think that we learned something 
from New York itself. One of the things we have not talked 
about here today is that when we sat down and worked out how do 
we roll out wireless E-911 we did it in two Phases. Phase I was 
to be located to the level of the cell site, so I can identify 
that it is this particular cell site. That also put in the 
infrastructure that you needed for Phase II, so that when this 
great technology, that TruePosition and SnapTrack came along, 
the infrastructure was installed. The problem is, there has not 
been full implementation of Phase I.
    Every wireless switch in America, every wireless switch is 
Phase I capable and has been now for a couple of years. In New 
York, however, there was not even a Phase I capability in place 
for PSAPs. In New York, since 1991, wireless subscribers have 
been paying 70 cents a month to the State for a wireless 911 
surcharge, of which nothing has gone to the PSAPs to upgrade 
for wireless.
    We had a situation in California, where $50 million out of 
the pot of money set aside to provide for the upgrades was 
taken out by the General Assembly for use on non-wireless 
initiatives. They said in the past, we have got that money, we 
have been raising it from consumers, saying that this money 
will go to paying for upgrades to the wireless PSAP capability. 
The General Assembly now says, ``We are not going to use the 
money for that, we are going to spend it for other budgetary 
things.''
    Throughout the States, this is a typical thing that is 
happening. What happened in New York has helped us focus on 
that, because all the money has been collected. Even the first 
stage deliverable, which the wireless industry could deliver, 
was not there because the PSAPs were not ready.
    Senator Wyden. My time has expired, I think, Mr. Chairman. 
First, I thank you for your thoughtfulness in letting me begin, 
given how much work you and Senator Burns have done. I think 
the only area I was interested in exploring later maybe, if you 
allow a second round, is the relationship between the equipment 
supply and the technology question. I got the impression from 
Mr. Sewell and Mr. Amarosa that they felt that the technology 
for E-911 was ready, and I think there are still some issues, 
at least in my mind, with respect to equipment supply, but I 
very much thank you for your thoughtfulness and the leadership 
you and Senator Burns are providing.
    Senator Inouye. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman, and again I think 
the panel has just about covered the waterfront and answered 
most of the questions, and again I want to congratulate the 
wireless industry, Tom, and the work that you have done, and 
your willingness to step forward. We went through a lot of 
hours, as you well know, in order to get this done, with 
everybody at this table.
    I want to just follow up on a couple of questions. Have we 
solved the issue of privacy yet? I would like your response to 
that. Anybody want to tackle that?
    Mr. Melcher. I think from the public safety perspective we 
have for 911. Privacy is not an issue. You obviously want to be 
located so that we can save your life, or bring assistance to 
you. We have worked very diligently in the standards groups as 
well as with the wireless industry as a whole to make sure that 
the phone does not give location unless you dial 911, or some 
other series of digits, or some other toggle that would be a 
subscriber service that you signed up for. With respect to 911, 
Big Brother is not the issue.
    With respect to location outside of 911, it is an issue, 
and I think it is better that Mr. Wheeler address that.
    Mr. Wheeler. 911 is kind of the ultimate opt-in, Senator. 
It is saying, ``Please find me,'' but as Mr. Melcher says, 
``Okay, now, where do we go beyond that,'' and one of the 
issues I also need to back up and point out is that there are 
going to be commercial applications of this.
    One of the things that frustrates me in this whole 
discussion is those who suggest that somehow the wireless 
industry is dragging their feet, that the technology really has 
been there, if we could make money off of this we would be 
really happy to get it out there fast, and there is a 
commercial incentive, not just a life-saving incentive.
    In that commercial incentive, however, there is an absolute 
right to privacy, and we have adopted as an industry a code of 
conduct that says, it is only opt-in for information about 
location, that it has to go across all technologies and not 
just this technology or that technology, not just one that is 
associated with somebody that the FCC can regulate. In fact, 
the FCC rules on CPNI customer proprietary network information 
imposed on wireless carries today, that kind of opt-in 
requirement. The issue becomes, what about those who are not in 
the jurisdiction of the FCC, and we think the FCC needs to do 
something. We have asked them to do something in that regard.
    Mr. Amarosa. Senator, if I may, from a technology point of 
view, TruePosition's system is based upon assuring that the 911 
calls, as we just talked about, are located. Any other 
location-based services require triggers within the system in 
order to locate them, so that if I signed up for a particular 
service, I am identifying that I want to be located for certain 
types of services that we would come forward with.
    There are no data bases maintained as to where I am, as to 
locate Mike Amarosa during a particular time or during a 
particular day, and I think we have gone to great lengths to 
allow that not to happen.
    In addition, we have enabled the system, and even if I sign 
up for a particular service, that I can disable that location 
at that particular time by dialing something we call star 55, 
which is a software fix within the switch that says, ``Even 
though Mike Amarosa has signed up for a particular service, he 
does not want to be located at this given point in time,'' and 
so we have gone to great lengths to try to ensure that that 
anonymity, if that is what we want, and that privacy, is 
maintained from a technological point of view.
    Senator Burns. I want to ask Mr. Sewell, is the technology 
available that the locator is only triggered on a 911 signal?
    Mr. Sewell. Yes, Senator. The technology can be implemented 
such that it is only triggered on a 911 call, or alternatively 
can be implemented so that the same technology can support 
other value-added services, but with an opt-in approach, can 
always be controlled and turned off by the subscriber, so that 
is how we see it being implemented.
    Senator Burns. Good. I want to bring to the Committee's 
attention that Montana's plan is already done, and our 
director, of course, is here today with Jenny.
    Probably a year ago the most circulated picture of forest 
fires and the devastation that they wrought was this photograph 
here, which was a year ago, a fire down in the Bitterroot, 
which is south of Missoula, taken with a couple of elk standing 
out in the river for protection, and which points out that 
these are just as devastating to the destruction of our natural 
resources as any other emergency across the country, and the 
great thing about this, when forest fires go across an area, 
they take out lines of communications where wireless has to be 
a part of the scenario.
    Now, Mr. Melcher, going back to you, in the 900 calls that 
come in that are really duplicate calls notifying of the same 
incident that would be an emergency, in order to get away from 
that, right now we have no way of doing that. Tell me about our 
training practices of personnel that operate our PSAPs. Is that 
satisfactory to this point, as when you look out across the 
country, is training moving ahead? You might want to chime in 
on this also, Ms. Hansen.
    Mr. Melcher. I think that training is one of the key 
aspects of the national associations and the State chapters as 
advocacy groups to make sure the call-takers are trained. I 
think you see a disparity across the country in training. Some 
areas are very well-funded and train a lot. Some areas stick 
with minimal training standards. Some States do not even have 
training standards for call-takers, so there is a disparity out 
there, and I think that is a real issue, but as an industry, I 
think we strive to make sure that our call-takers are trained 
as best they can be.
    Direct response to your question on the duplicate 
incidents, in a large call center like in Houston or Dallas, or 
any of the large ones, when you get so many calls reporting the 
same incident, somebody in the PSAP eventually will stand up 
and go, does everybody have the accident on the loop at the 
north freeway, and that way they know that they have got it, 
and the other callers can kind of be given a shorter treatment.
    We do have fixes for that, though. Our mapping systems have 
what we call potential duplicate call detection, and so any 
time a call is plotted on a map, the server for that system 
knows that it has a call there, so when another call comes in 
that is very close, both call-takers now have not only their 
own call on the map, but they have the other one that is in 
close proximity, so when the third call-taker gets it, they 
will get their call plus the other two and when the fourth 
call-taker gets it, they will get their call plus the other 
three, and pretty soon it is obvious we are all getting the 
same call.
    So there are technological fixes for that, but without the 
location information, that latitude and longitude coming in, we 
cannot turn on that feature for wireless calls. We can only do 
it for wireline calls, which helps us when there is like a 
large apartment complex fire. You get multiple residences in 
the same complex calling in.
    So training has to be there to fill in the gap where 
technology does not yet exist. Get us the technology required. 
We already have mapping and other type of technological fixes 
for that once we get location.
    Senator Burns. Ms. Hansen, I think we had a couple of 
occasions in Montana during our hearings out there in our 
conference where training was lacking, and we have noted that.
    Ms. Hansen. I agree, and you would find a disparity from 
county to county, State to State. That includes the State of 
Montana. However, last year, it was helpful to create a 
benchmark with Senate bill 41 locally in our State to at least 
embrace a training standard, a minimum training standard for 
public safety dispatchers within the State of Montana to have 
academic instruction within the first year of employment. My 
alma mater, California, a training standard exists as well, but 
I find from industry and State to State that that varies even 
from the county and local level. Training is key.
    From duplicate events, we have a computer-aided dispatch 
system available between various vendors that also provide 
duplicate information availability on calls. However, we have 
to be diligent about collecting data and information from 
callers, because there may be, especially in a crime scene 
situation, additional information that caller number 47 may 
provide that will be very effective in the implementation and 
the deployment of the resources and follow through 
investigation.
    Secondly, you talked about privacy issues. I have 
discovered an interesting flare and notable interest from the 
local level in the privacy issue. While it is covered 
diligently in Senate bill 800, we still fall into issues in 
developing wireline 911 services with local ranchers, for 
example, who are still in the midst of rural addressing issues, 
let alone identifying where they are from, and where they live, 
and who they are.
    We are now taking that opportunity to provide public 
education, which I find a key component in addressing those 
privacy concerns to the local residential areas, the 
businesses, and to the local city and county commissions, but I 
agree, training, whether you are a public safety provider or a 
citizen I think is key, and we should take that opportunity to 
provide that as well.
    Senator Burns. Are we allocating enough money for training?
    Ms. Hansen. We are. However, the PSAPs that I find even 
within our own State typically do not know where to turn, and 
they find local sponsorship and support of that training taking 
a back burner, and what we have found since September 11 is 
that heightened awareness and sense of importance that I found 
to be changing with commission levels.
    It was disturbing to find that that industry and the unsung 
heroes, as we refer to this business--I have been in it, again, 
22 years, and again it has taken a back seat as far as 
priorities and importance. Keep the cops on the street, but 
again, if they are not able to talk, or if no one is able to 
hear them or answer the phone, it is a significant factor for 
me in advocating that public service.
    Senator Burns. Well, in the detection, it was interesting 
out there. We had a 911 call come into my old city in Montana, 
and they asked him where he was, and he says, ``I am at mile 
marker 38 south of town.'' The dispatcher asked what town, and 
he did not have an awareness of what town. He said, 
``Missoula.'' Well, folks, that caller was in Miles City. That 
is 450 miles off, and so that is the challenge we have in rural 
areas, and I appreciate this panel very much. It has been very 
enlightening to me, and the knowledge of the situation.
    I have no more questions, Mr. Chairman. I want to thank 
every one of them for coming, though, because this has been a 
terrific panel.
    Senator Inouye. Thank you.
    I have lived through a few fear-generating crises, and I 
have found that two elements serve to make it worse. One is a 
feeling of isolation, and the other is uncertainty. I am 
convinced that the technology that we are discussing at this 
moment will be the technology we need to alleviate this, so it 
becomes absolutely essential, especially since the events of 
September 11.
    At hearings of this nature, many of us may be tempted to 
get headlines by pointing fingers. That is the way you get it. 
Instead of doing that, because of the urgency of the moment I 
have just a couple of questions.
    Realistically, when can the people of the United States 
expect to have one of those phones in their hands?
    Mr. Melcher. Well, I would say that based on the rules, 
some of those phones are being distributed now. They will not 
work in every area today. I think that if the promises you 
heard today are kept, that the end of the FCC's time line in 
2005 will see ubiquitous 911 in the wireless industry, but I 
have to remind you, Senator, that unfortunately 911 does not 
exist everywhere today, even on the wireline side, and I 
believe it is an issue that we need to pay very close attention 
to in making sure that wireless 911 and wireline 911 happen in 
every corner of these United States.
    Those areas that have 911 but it is just basic service need 
to be brought up to enhanced 911. We are not talking incredible 
sums of money here to make this happen. The gaps that are out 
there are, comparatively speaking, not chasmatic, but there are 
significant gaps in technology, there are significant gaps in 
training, and there are significant gaps in funding, and there 
is no same standard that exists for the same country, because 
it is usually handled at the State level, so I think that 
before it becomes a reality just in wireless, it needs to 
become reality on the wireline side as well.
    Senator Inouye. Do the rest of you believe that 2005 is 
realistic?
    Mr. Melcher. I do, because the technology now exists. I 
think the carriers have stopped challenging the technology and 
are beginning to embrace it. We have seen two major national 
carriers just in the last 30 days, one of them signed contracts 
with a provider, another one is about to sign contracts with a 
provider, or a couple of providers, kind of the reverse of the 
position they had before.
    We have known this technology exists. We have long been an 
advocate of deploying it, knowing that nothing is perfect, the 
PC example again, if you do not start somewhere, you will never 
start.
    We hosted this in Houston in 1996. We built the system in 
1998. We were ready to turn it on and got pushed back from the 
carriers. What we have seen later is them stop pushing back, 
and they have started to embrace some of these. They have some 
significant challenges, I will give them that, as do we on the 
public sector side, but I think the commitment of the last few 
months has been a little bit more since, and since the 
September 11 incidence I think it has been a lot more urgent.
    So I would say that out of tragedy must come some good, and 
you will hear many, many stories come out of these tragedies 
that will warm your heart, but I think one of the most 
significant things is that we know that the nation's security 
infrastructure must be improved, and it must be robust, and it 
must be redundant. It must be digital, where it needs to be 
replacing analog, and I think now you will find the backbone of 
the nation's security for the general public is 911. We are 
beginning to have more focus and more attention, and we urge 
you and encourage you to keep the pressure on, keep the 
spotlight on this issue until it is done.
    Mr. Sewell. Mr. Chairman, I was just going to comment that 
today U.S. wireless subscribers are buying the phone you saw 
earlier now, not in tremendous numbers yet, as it just went on 
sale on October 1. However, if we look at the roll-out 
schedules that many of the carriers have put in their filings 
with the FCC, Qualcomm and SnapTrack believe that those 
deployment deadlines and roll-out of the coverage across the 
United States are very realistic.
    As a technology provider and as a manufacturer of the chips 
that go in these phones, we also know that there are a number 
of terminal manufacturers who have designs underway and are 
planning to deploy those products, so again, today you saw two 
that are available for the U.S. market today, but that number 
will go up, and we will see many, many of these phones in the 
market over the next year.
    Senator Inouye. Mr. Amarosa, do you think 2005 is 
reasonable?
    Mr. Amarosa. Yes, I do, and I think what you are going to 
see in one of the major carriers, you will see over 2,000 cell 
sites built by the end of 2002, and you will see San Juan, 
Puerto Rico built very shortly as well, so I think it is 
moving. It is a starting process, as it will roll out, but I 
think 2005 will be something we can accomplish.
    Ms. Hansen. If I may address from the rural perspective, 
just in addressing basic wireline and wireless services, we 
have a significant dead zone concern in our State with respect 
to lack of sites whatsoever. I think the economic factor is the 
key factor in that problem, and to identify a more feasible and 
economic plan to embrace basic wireless service would certainly 
improve coverage in rural America. That is what we are faced 
with.
    Senator Inouye. Would spectrum availability help?
    Ms. Hansen. It may, but that will also be a challenge in 
rural States, with propagation issues varying from county to 
county, mountain range to mountain range, for example. Portable 
coverage, limited coverage, those things we have to look at 
closely from area to area.
    Senator Inouye. Thank you.
    Mr. Wheeler, can the industry carry the load?
    Mr. Wheeler. Yes, sir. Let me just pick up on this one 
point that was just made, because it is a very valid point. The 
spectrum, if we are talking about already existing wireless 
spectrum, and lifting the spectrum cap, that is the fastest way 
to get more spectrum and more calls completed and to avoid the 
kinds of problems she was talking about.
    Let me give you some dates and names and numbers, Mr. 
Chairman and be as specific as possible. I could give you this 
for all the major carriers, but I pick two, Cingular, because 
they are going to use a terrestrial network, and Verizon, 
because they are using a satellite network. Here is what they 
have bound themselves to with the Commission.
    In Verizon's case, December 31, 2001, they must begin 
selling location-capable handsets. Within 6 months of that, 
July 31, 2002, 25 percent of all new handsets have to have GPS 
capability. By March 2003, 50 percent, by December 31, 2003, 
100 percent of all the phones they sell have to have GPS 
capability. Then you have got the embedded base of people who 
bought their phones before then, they have agreed to an 
enforceable rule that says that by December 31, 2005, 95 
percent of all their customers will have GPS-capable handsets.
    I can give you the same dates--they vary by a couple of 
months here or there, but it is the same kind of situation with 
Cingular, with VoiceStream, with AT&T, with Sprint et cetera. 
They have committed to hard and fast dates, and to 
enforceability behind those dates.
    Senator Inouye. The next question you may have to be 
imaginative, but 2005, how much would it cost the consumer, how 
much more would it cost?
    Mr. Wheeler. I am sorry, for what?
    Senator Inouye. What would be the cost of this technology?
    Mr. Wheeler. I would believe, Mr. Chairman, that as the 
price of chip sets comes down, as it inevitably does, that it 
would be de minimis. We are dealing with a reality today where 
there are significant costs because you have not hit scope and 
scale yet, but as those come down, you will enjoy the kind of 
economies of scale that you have enjoyed for personal computers 
and everything else.
    Senator Inouye. 2005, when you said 95 percent, or 100 
percent?
    Mr. Wheeler. I am sorry, by 2005, 100 percent. They are 
required to have 100 percent of all of their subscribers have 
it.
    Senator Inouye. What would the subscriber have to pay extra 
now?
    Mr. Wheeler. The plan here is that subscribers churn 
through handsets in a roughly 3-year period, so that the phones 
that are coming on will be GPS or location-capable, and they 
will churn into those phones as a part of their normal course 
of relationship with the company.
    Senator Inouye. I remember the first wireless phone I had 
that came in a briefcase, or an attache case, and cost $3,500, 
or some foolish number. It will not cost that much, will it?
    Mr. Melcher. I actually believe the consumer will see 
negligible cost, if any at all, and if the carriers play their 
cards right and move aggressively towards making some of these 
other location technology value-added services available to the 
consumers, because there is consumer demand out there, 
locating, because I have a flat tire, locating because I need 
the closest ATM, locating because I want to know the closest 
emergency room or Italian restaurant. If they play their cards 
right, they will make money off this technology.
    I mean, like with anything, when the first cellular systems 
went up, they were expensive to build, but as the technology 
improved, I say to audiences all the time, I believe in three 
things, God, my mother, and technology, and not necessarily in 
that order, because my mother is very moody, but technology 
will always advance, and if they play their cards right, the 
value-added services will generate revenue for them that will 
offset this.
    We have said for many years that 911 would only be the 
catalyst for an industry that would actually grow from that. It 
should be the catalyst. It is the right thing to do, but they 
will benefit from this in the long run.
    Senator Burns. My wife will be interested in the location 
of the next ATM.
    [Laughter.]
    Senator Inouye. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Chairman, I want to follow up on an area that you, I 
think correctly, have said is a priority, and that is the 
relationship with the manufacturers and the suppliers. You 
requested that those people come today, and I think it was very 
regrettable that they did not.
    Frankly, your request is even more important, given what 
the FCC said, because the FCC, Mr. Sugrue basically said that 
the biggest problem was not essentially technology, but the 
biggest problem was the question of equipment supply, and I 
think the only other question, and maybe some panel members 
have some ideas on this, is what can we do to get the 
manufacturers to be more aggressive in terms of working on this 
issue, and responding to what the FCC has said is the biggest 
problem.
    One idea that comes to mind, and maybe Mr. Melcher and you, 
Mr. Wheeler, have some ideas on this. It seems to me that the 
carriers have a fair amount of contractual leverage with the 
suppliers, and can be in a position to say, Look, Chairman 
Inouye invited you to come to this hearing, Ron Wyden, Conrad 
Burns, this Committee wants you to speed it up,'' and those 
kinds of approaches--the contractual relationships that 
carriers have, and there may be others--seem to me would be a 
way to respond to what Chairman Inouye has correctly identified 
as one of the big problems. And his request, frankly, is more 
important now, given what Mr. Sugrue said to us this morning, 
than it was before. I would be interested if any of the panel 
members have an idea to get these manufacturers and equipment 
supplies more engaged.
    Mr. Melcher. I personally would like to thank the Chairman 
for allowing the second round of questions, because that is 
very, very important to us. We believe that, just like Senator 
Wyden said, the carriers do have an inordinate amount of 
contractual leverage. It is all a matter of priorities.
    Poll the room. How many people in this room have a WAP or 
wireless Internet-capable phone? Go hit the street and see how 
many people have wireless Internet-capable phones, but they are 
not 911-capable yet. It is a matter of priorities. Wireless 
Internet is revenue-generating. Wireless 911 is not revenue-
generating.
    I do not mean to sound very cynical. I am sure Mr. Wheeler 
will have an alternative view on this, but we have said long 
and hard, and we sat in many of those standards meetings for 
many years, where the manufacturers sat around the table 
saying, ``It is what the carriers order, that is what we build. 
That is what our priority is. It is what the carriers order.''
    Mr. Wheeler. Mr. Wyden, first of all, I also represent the 
manufacturers with CTIA or all of the major handset 
manufacturers and infrastructure manufacturers as well, and so 
they are represented here today by me. I think that the 
carriers have had their full and fixed attention for sometime. 
Mr. Sugrue I think testified about 2 years ago, when the pedal 
was to the metal, and the carriers came in with manufacturers 
and said, ``It is just not there yet.''
    I go back to the fact that we put this thing together, we 
asked for this, we thought the technology would be there. The 
carriers used their economic leverage on the manufacturers, and 
they discovered a basic reality. You cannot beat the horse 
harder to go faster. You still have to get through that 
process, and we are now working through that process.
    There are all kinds of challenges. Mr. Sewell has got a 
great product that is out there right now, but he has got chip 
realities. How do you manufacture chips, get them into 
handsets? There are great things that have to be worked 
through, and all I can say to you is that I hope that you and 
other members of the Committee will take away from this hearing 
that there are not carriers, nor are there manufacturers, out 
there digging their heels in and saying, ``No, you are going to 
have to drag me to make me get it done.''
    And particularly back to your comment about what is new 
since 11 September, long before that, as Mr. Sugrue said 2 
years ago, folks had their sleeves rolled up and were banging 
away on this. There have been testbeds all over the country, 
trying to test out and find what works.
    The kinds of approaches that have been taken to this have 
been unbelievable. There was an Israeli spy technology that was 
tried to be adopted that literally counted the number of times 
a signal bounced off buildings to try and triangulate location. 
There have been all kinds of new approaches and solutions, 
hundreds of millions of dollars have been invested in research, 
development and testing.
    Senator Wyden. I am going to just end. Chairman Inouye has 
been so kind to give me this time. I am going to leave it this 
way. I think you five have been very, very constructive, and 
have come with positive ideas, and made it clear that you want 
to accelerate this and advance the schedule, which is what I 
was calling for and what the Chairman and Senator Burns were 
calling for, and when the Chairman invited you all to come, you 
came, and we clearly had companies that declined to come.
    Companies declined to come, and it seems to me you five 
patriotic Americans have made it clear that you are on board. 
We have got to get the companies to come into this when 
Chairman Inouye invites them, again, not by hammering them and 
clubbing them to death, but by being part of this effort that 
you five have indicated you want to be part of, and I thank you 
for the extra time, Mr. Chairman.
    Senator Inouye. Thank you very much.
    Senator Burns.
    Senator Burns. I have a closing thought, and I thank the 
Chairman, and I thank everybody for coming, and I have already 
congratulated the panel. I was 47 days away from being 7 years 
old on that December 7, 1941.
    The Chairman was there, so the experience that he talks of, 
the isolation and the confusion of a national emergency, and 
being at the eye of the storm, so to speak, he speaks of with 
great personal experience, and so I think we are all blessed 
really in this, that we have institutional memory and folks 
still around that understand those kinds of situations, and 
then recalling the folks of New York City, again who had to 
experience almost the same thing of not knowing, and isolation, 
and the extent of what a national emergency is really like.
    So Mr. Chairman, I appreciate your calling this hearing, 
and I appreciate working with you, and we will work our way 
through this.
    Thank you very much.
    Senator Inouye. Thank you very much, Conrad. I am not that 
old.
    [Laughter.]
    Senator Inouye. Although I have been called the Strom 
Thurmond of the Pacific.
    [Laughter.]
    Senator Inouye. Mr. Sugrue, Mr. Amarosa, Ms. Hansen, Mr. 
Sewell, Mr. Melcher, Mr. Wheeler, on behalf of the Committee, I 
thank you all very much. The record will stay open until 
November 15. If you wish to provide addendums or make 
corrections in your statements please feel free to do so, and 
we, in turn, would like to submit to you questions for your 
response.
    With that, the hearing is adjourned.
    [Whereupon, at 12:50 p.m., the Subcommittee adjourned.]


                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Thank you, Mr. Chairman. I appreciate your leadership in calling 
this afternoon's hearing. I am reminded that the very first section of 
the Communications Act states that a fundamental purpose of the Act is 
to promote ``the safety of life and property through the use of wire 
and radio communication.'' As such, our focus today on the availability 
of emergency communications services and their vital importance to 
public safety is both timely and proper--particularly so, in light of 
the recent terrorist attacks on our country.
    In 1968, Senator Rankin Fife completed the first ``911'' call in 
Haleyville, Alabama. Since then, Americans' use of ``911'' has 
mushroomed to the point where, today, 911 service has become synonymous 
with emergency assistance. Nevertheless, universal acceptance of 
dialing ``911'' for emergency services has also resulted in a number of 
new challenges. In particular, the meteoric growth of mobile phones has 
spurred the need to develop and implement call location technologies as 
part of ``enhanced 911'' or ``E-911'' services that can pinpoint the 
location of the now more than 43 million (and growing) wireless calls 
made to 911 each year.
    Five years ago, in response to this need, wireless carriers and the 
public safety community hammered out a consensus agreement that was the 
basis for the FCC's first E-911 order. under those rules, wireless 
carriers were required to provide the location of all 911 calls by 
longitude and latitude in conformance with certain accuracy 
requirements by October 1, 2001. Unfortunately, the reality is that the 
wireless industry has failed to meet that deadline. In contrast, all of 
the major wireless carriers and dozens of smaller carriers sought 
waivers from the FCC, claiming either the absence of a satisfactory 
technological solution or the need for additional time.
    Thus, today's hearing affords this Subcommittee a critical 
opportunity to grade the various parties on their efforts to date and 
to decide what can and must be done to ensure that wireless carriers, 
location service providers, and the public safety community can provide 
and process ``Phase II E-911 location information'' as soon as 
technically possible.
    In this vein, I hope the message from Congress is clear: ``While we 
do not expect carriers to achieve what is technically impossible, we 
will, where public safety is in the balance, require that carriers move 
expeditiously to do what is possible.'' After all, the wireless 
spectrum belongs to the public, and thus, should be made to serve the 
public.
    I look forward to listening to the observations and recommendations 
of our distinguished panel of witnesses and to their responses to our 
questions.
  

                                  <all>

</pre></body></html>
